<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND
                 HOUSING  AND  URBAN  DEVELOPMENT,  AND
                  INDEPENDENT AGENCIES APPROPRIATIONS
                                FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES

                    JERRY LEWIS, California, Chairman

TOM DeLAY, Texas                     LOUIS STOKES, Ohio
JAMES T. WALSH, New York             ALAN B. MOLLOHAN, West Virginia
DAVID L. HOBSON, Ohio                MARCY KAPTUR, Ohio
JOE KNOLLENBERG, Michigan            CARRIE P. MEEK, Florida
RODNEY P. FRELINGHUYSEN, New Jersey  DAVID E. PRICE, North Carolina
MARK W. NEUMANN, Wisconsin           
ROGER F. WICKER, Mississippi         

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

  Frank M. Cushing, Paul E. Thomson, Timothy L. Peterson, and  Valerie 
                      L. Baldwin, Staff Assistants
                                ________

                                 PART 4
                                                                   Page
 Federal Emergency Management Agency..............................    1
 Corporation for National and Community Service...................  473

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
48-749                      WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          














                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director
















 DEPARTMENT OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 1999

                              ----------                              

                                            Tuesday, March 3, 1998.

                  FEDERAL EMERGENCY MANAGEMENT AGENCY

                               WITNESSES

JAMES L. WITT, DIRECTOR
GARY JOHNSON, CHIEF FINANCIAL OFFICER
JOANN HOWARD, ADMINISTRATOR, FEDERAL INSURANCE ADMINISTRATION
MICHAEL ARMSTRONG, ASSOCIATE DIRECTOR, MITIGATION DIRECTORATE
ERNEST ABBOTT, GENERAL COUNSEL
MICHELLE BURKETT, DIRECTOR, OFFICE OF POLICY AND REGIONAL OPERATIONS
CARRYE BROWN, ADMINISTRATOR, U.S. FIRE ADMINISTRATION
LACY SUITER, EXECUTIVE ASSOCIATE DIRECTOR, RESPONSE AND RECOVERY
KAY GOSS, ASSOCIATE DIRECTOR, PREPAREDNESS, TRAINING AND EDUCATION

                       Chairman's Opening Remarks

    Mr. Lewis. This morning we would like to welcome Mr. James 
Lee Witt, Director of the Federal Emergency Management Agency 
for a hearing on the budget request for Fiscal Year 1999.
    Mr. Director, before we get to some of the specifics, I 
want to state for the record that these last couple of years 
have been the most interesting working with FEMA, to say the 
least. And we have disaster after disaster across the country, 
whether it be fire, tornado.
    We do have an earthquake now and then in California. I've 
suggested in the past we used to have earthquakes to keep the 
population out, but that's getting to the point of being 
ridiculous. We know of recent floods and the tornadoes in 
Florida.
    There was a time when, of all of the government agencies 
around, the Agency that you're the director of was one that 
many of were inclined to perhaps close down. I remember in my 
early career in the Congress, that was a proposal of mine 
personally, long before this responsibility. In the meantime, I 
think it should be said for the record that the Agency is an 
example, an illustration of what we ought to be doing about 
changing the direction of government.
    Indeed, members across the aisle--this is not a partisan 
question--are very impressed by the fact that FEMA, the Federal 
Emergency Management Agency, is out there doing the job when 
America is faced with a challenge in one location or another.
    While some are worried about a growing number of dollars 
when we have a series of crises, dollars that are laid out 
almost immediately, at the same time, most of us realize that 
America does come together when we face crises together.
    The budget request for 1999 includes $844,031,000 for the 
regular appropriation. That's in contrast to $841,958,000 in 
the 1998 budget year. In addition, this request includes 
$2,258,485,000 in contingency emergency appropriations.
    My colleague, Mr. Stokes, who is the ranking member on the 
Committee, is delayed this morning. He will very likely have an 
opening statement that we will move to when he does arrive. In 
the meantime, I'm not sure if any of his colleagues would like 
to add to these opening remarks or maybe we can go on to 
questions.
    Mr. Director, we will place your entire statement in the 
record. If you'd like to summarize your statement, we'll move 
on to questions quickly. But before that, I'd like to welcome 
to the Committee for the first time I think in one of these 
hearings your wife, LeaEllen, whom we're pleased to have with 
it. LeaEllen, nice to see you.
    Mr. Director.

                       Director's Opening Remarks

    Mr. Witt. Thank you, Mr. Chairman and members of the 
Committee. I will keep my remarks brief so we can get into the 
questions.
    I'd like to introduce Gary Johnson, who is our Chief 
Financial Officer at FEMA, and, Mr. Chairman, we have some new 
faces here with us today: JoAnn Howard, our new Federal 
Insurance Administrator; Mike Armstrong, the former Regional 
Director in Region VIII, who is now the Associate Director for 
Mitigation and doing a great job; Ernie Abbott, our new General 
Counsel, on the end; and Michelle Burkett, whom you know; was 
our Regional Director in Chicago. She's moved to headquarters 
now, and is in charge of Policy and Regional Operations.
    Mr. Lewis. She moved from Chicago to Washington?
    Mr. Witt. Yes, sir. She said it's not as cold.
    Although Congressman Stokes is not here, I would like to 
say that he has been a wonderful person to work with, as are 
you and this Committee.
    He was the Chairman when I first became Director of FEMA. I 
never will forget the first day that I came up and met with Mr. 
Stokes nor his comments to me as to what changes he would like 
to see at FEMA especially in support of diversity and equality. 
I just wanted to commend him and thank him for his support.
    Mr. Lewis. I thank you for that.
    Mr. Witt. I know one day you held a briefing up here after 
the Oklahoma City bombing.
    Mr. Lewis. Yes.
    Mr. Witt. Congressman Stokes came by. I know he had 1,000 
other things to do, but he made a point to come by to thank the 
FEMA employees for what they had done in Oklahoma City. We all 
remember that very well.
    We have had one of the busiest years, for disaster response 
and recovery ever at FEMA. This year, during the recent visits 
to Florida and California with the President in the aftermath 
of tornadoes and flooding, we saw that the devastation in these 
two states is just incredible.
    There's been a total of 41 confirmed deaths in Florida, and 
a total of 17 confirmed deaths in California from the mud 
slides and floods. Obviously, it's just devastating for those 
individuals.
    During the Christmas holidays, Mr. Chairman, we had the 
typhoon in Guam. I'm very, very proud of our employees who 
responded to the typhoon in Guam during the Christmas holidays, 
had to be away from their families, and did a great job in 
response to the needs there. The typhoon broke a record in wind 
speed at 236 miles an hour during the typhoon. The devastation 
was really bad.
    The employees at FEMA have worked hard and been dedicated. 
Congressman Gilman from New York made a statement at a hearing 
recently. He said that the reason he's very proud of FEMA and 
its employees is the fact that after the camera, the newsmen, 
and newswomen leave, the employees still show the same 
dedication, concern and compassion as they do when the cameras 
are there. He said, ``I want to thank you for that.'' I have 
seen that change at FEMA. It's wonderful to see how people 
respond to the needs of others across the country.
    El Nino. At Laguna Beach, the devastation there caused 
people to lose everything they had worked all their lives for. 
It was just incredible to see every day heroes, people saving 
other people and children, and the will of those people to 
rebuild and recover. It was just unbelievable. I saw one lady 
with a broken arm, who didn't even have it in a cast.
    El Nino has caused damage across the country, all the way 
from California to the New England states in New York, New 
Hampshire, Vermont, and Maine.
    I think one of the things that helped us in California to 
prepare for El Nino was the El Nino summit we held in October 
with Senator Boxer, the Vice President, and over 900 
participants from communities across California. The 
preventative measures that those communities working with our 
Region IX put in place made a significant difference in the 
dollars and lives lost in California to date and continue to do 
so.
    We have a request for $307.7 million for disaster relief 
funds, and $2.26 billion in emergency contingency funds, for a 
total of over $2.5 billion. That's our five-year average less 
Northridge plus support costs. This appropriation will ensure 
that we can continue to pay our overall requirements for more 
than 400 open disasters.
    Let me address open disasters. We have put together 
closeout teams to close out old disasters. We have teams on the 
East Coast, in the middle of the United States, and on the West 
Coast. Since the beginning of the fiscal year, we have closed 
out 66 old disasters by these teams focusing only on closeout.
    In this fiscal year we have put back into the Disaster Fund 
$177.9 million that was deobligated from these open disasters. 
We had disasters open as far back as Hugo, Hurricane Andrew, 
and Loma Prieta. One of them went back to 1979.
    Some of them require very little work to close out. What 
happens is that after our people out in the regions respond to 
a disaster, they go back to their offices to catch up on day-
to-day program work. Some of the closeout activities slip by 
the wayside. We're now focusing and closing these old disasters 
out so we can return the money back to the disaster fund.
    I think you know, Mr. Chairman, since 1993, when I came to 
FEMA, I have made it a priority, to focus more on response, 
recovery, and preparing for future disasters. In our budget, we 
have a request for $50 million for pre-disaster mitigation 
spending. It is the future, and it does matter.
    We're kicking off seven pilot projects using the $30 
million that Congress gave us in this year's budget. The 
enthusiasm of these seven communities is just unbelievable. 
This is a Federal, State, Local, and private partnership. We're 
pulling industry into the partnership because they know that if 
they're affected by a disaster it will affect their bottom 
line. I can just give you example after example of the 
differences we hope to make.
    We're here to answer your questions. We'll be happy to 
provide anything in writing that we can't answer and we're 
happy to work with you, Mr. Chairman.
    [The information follows:]


[Pages 5 - 20--The official Committee record contains additional material here.]



                    difficult job for fema employees

    Mr. Lewis. Well, thank you, Mr. Director.
    In those remarks you mentioned the employees of FEMA who 
are out there doing the job. I must say to you that I will 
personally never forget the invitation that you extended to me. 
My wife accompanied me just following the disaster at Oklahoma 
City to go through and see the devastation in the surrounding 
community. There actually were bodies still in the building. 
The job those employees were doing, to say the least, is 
something that is difficult to erase from your memory.
    Earlier in your remarks you had words of praise for the 
work of my colleague and the fellow whom I call my Chairman, 
Mr. Lou Stokes, who has just come in the door. I wonder, Louis, 
are there any opening comments? You're welcome.
    Mr. Stokes. Thank you very much, Mr. Chairman. And good 
morning, Director Witt.
    Let me say, Mr. Chairman, I don't have any formal opening 
statement, but I would like to take just a moment or two, if I 
may.
    First I want to thank Director Witt for his very kind and 
generous words this morning. It's a pleasure to welcome you 
back before this subcommittee at all times. During the period 
of time that you have served as Director of this agency, I 
think all of us on this subcommittee have been extremely 
impressed by the kind of service you have rendered for 
thisnation with the numerous disasters that have occurred during your 
tenure.
    Last year Chairman Lewis and I and other members of the 
Subcommittee had a chance to visit the Virgin Islands to see 
your operation down there as a result of a disaster that had 
occurred there. And I can tell you I think all of us--I believe 
I speak for this whole Subcommittee--how impressed we were. We 
saw your people in the field and how they had responded to this 
disaster.
    And for us, it was more than the academic type of exercise 
we undergo on this Committee. We actually saw how people 
respond to a disaster and the results of the kinds of problems 
that you would encounter in doing so. So I want to thank you 
for the opportunity to view that situation in its entirety.
    I also want to say that those of us who have been on this 
subcommittee as many years as Mr. Lewis and I have been here 
knew that when you took over this agency, you took over a 
troubled agency. And the management techniques and strategies 
that you have brought to bear with this agency have now made it 
one of the best agencies in our government.
    So I just want to commend you for the kind of service you 
have given this country. It's been a pleasure.
    Mr. Witt. My pleasure.
    Mr. Lewis. Mr. Stokes, I want you to know that----
    Mr. Stokes. Mr. Chairman.
    Mr. Lewis [continuing]. The Director is not only pleased to 
hear your remarks, but his wife, LeaEllen, who is with us today 
is pleased to hear the remarks, too.
    Mr. Stokes. I'm pleased to see you here.
    Thank you, Mr. Chairman.

            request for disaster emergency contingency funds

    Mr. Lewis. Thank you, Mr. Stokes.
    Mr. Director, as part of the Disaster Relief budget request 
for Fiscal Year 1999, it's being proposed that the Congress 
provide an additional $2.3 billion, the use of which would be 
contingent upon certain conditions being met. Those conditions 
are essentially the conditions currently in place for 
requesting an emergency supplemental appropriations except that 
no further congressional action would be required.
    First, why is there a budget request for this contingency 
emergency appropriation, rather than using the supplemental 
appropriations process?
    Mr. Witt. Mr. Chairman, based on historical information we 
have been able to track that is what we project we will need. 
The 5-year average, less the Northridge earthquake, which was 
the most costly disaster this country ever had, plus disaster 
support comes to over $2.5 billion.
    This year we had some calm months in October, November, and 
December, but we're facing El Nino now, and hurricane season is 
coming up. But the historical 5-year average is from $2.3 to 
$2.5 billion each year.

            contingency fund vs. supplemental appropriation

    Mr. Lewis. Well, to be more specific on that point, is it 
essentially a shift in policy without formal policy action? Has 
FEMA ever encountered significant delays in providing 
assistance as a result of congressional delay in providing 
supplemental appropriations?
    Mr. Witt. Actually, Congress has been very supportive when 
we've needed supplementals to support disaster response and 
recovery costs.
    Mr. Lewis. So essentially what you're saying is that during 
your time as Director, we've had this experience of averages 
costing a lot more than just the standard appropriations and so 
why not just automatically put it up front?
    Mr. Witt. We know probably at some point in the budget 
year, we would have to ask for a supplemental if annual 
obligations continue at the same rate we've experienced in the 
past.

            congressional support for disaster supplementals

    Mr. Lewis. I know that some of us on the Committee, 
especially those of us from the West, have sensed a growing 
concern or reserve by some members where in their part of the 
country they haven't experienced disasters recently. We've had 
some questions raised suggesting: Well, if those people want to 
live on the coast, let them pay their own bill.
    I've made the point that we come together as a country at 
times of disaster, but, nonetheless, there is that reserve. I 
gather this is a reflection of some of those expressed 
concerns.
    Mr. Witt. I hear that sentiment as well at times, but I 
don't think I've ever seen Congress not support a disaster 
supplemental for any bipartisan reasons, when there is a need 
to meet the needs of individuals who have been affected. We're 
very appreciative of that. Everyone usually puts politics aside 
and supports efforts to help communities recover. That's good, 
because our goal is to be there when there is a need.
    I think that when we see people building on the coast or 
see more disasters occurring in one State more than other 
States, we need to remember that at any given time, there could 
be a disaster in any community or in any state. Disasters 
affect everyone, not just the coast.

                        preparedness for el nino

    Mr. Lewis. Mr. Director, in your statement, you indicate 
that when scientists predicted El Nino, FEMA worked with the 
highest-risk states and communities to have people better 
prepared than ever before. Can you provide for us some concrete 
examples of how advanced warning has resulted in better 
preparation and give us some idea of what costs your agency has 
avoided as a result of such warnings?
    Mr. Witt. The prediction and projection that data NOAA and 
the Weather Service provided us really helped a great deal, 
particularly in California, in the Gulf states, and in Florida. 
Because of their predictions and projections, we were able to 
convene a summit in Santa Monica to work with local 
communities.
    Our Region IX office worked with the State (OES) Office of 
Emergency Services in California to put on training courses for 
communities to learn what they could do to be prepared.
    The communities themselves went way beyond what they 
normally do. They cleaned out their river channels, cut dead 
trees away from power lines to keep them from falling on the 
power lines, bought and stockpiled sandbags to put around 
homes, and distributed those bags to homes that were in the 
floodplain.
    The city manager of Oakland told me they started an 
initiative for people in the neighborhoods to ``adopt a storm 
drain.'' The city provided the volunteers with a raincoat and 
rake, and it was their responsibility to keep the storm drains 
open. The community did all kinds of creative things to make a 
difference.
    Berkeley said that they saved over $7 million because of 
the prevention work that they did. Severe conditions were 
widespread inCalifornia. Santa Barbara had over seven inches of 
rain one night, but had very minimal flooding because of the 
preparedness measures they had taken.

               potential for spring floods in california

    Mr. Lewis. Along with those heavy rains that you've 
mentioned throughout California, particularly the coastal 
areas, there's been a heavy amount of snowfall in the 
mountains. Indeed, last week some were indicating that maybe 
you were right at the edge of a record time snowfall and snow 
pack.
    What efforts are currently underway to avoid massive 
flooding in the springtime? Let's assume we get a warm rain in 
the latter part of April, early May. Doesn't that portend 
another kind of disaster? Tell us about that.
    Mr. Witt. Mr. Chairman, I'm very concerned about this. I 
talked with the state OES in California. Right now they are two 
inches short of having a record snowfall in the mountains. If 
they experience a warmup very quickly from a warm rain in the 
mountains, then we have a serious potential for some major 
flooding.
    I talked to General Fuhrman with the Corps of Engineers, 
and they're working with us to make sure that all the levies 
are in good shape. This past year they worked very, very hard 
in getting those levies fixed and repaired to be in the best 
shape possible because that will be a key.
    They're also looking at the reservoirs to see what water 
they can release to keep the major flooding down. But with the 
problem of El Nino and all the rains coming in, it's difficult 
to release a lot of water because it could cause more flooding.
    Mr. Lewis. The ground is soaked?
    Mr. Witt. The land is saturated. That's one reason we're 
having so many mud slides.

                 conditions of levies in orange county

    Mr. Lewis. You mentioned levies. Aren't there some special 
problems in Orange County that----
    Mr. Witt. In Orange County, the Corps of Engineers de-
certified the levies because the levies were originally 
certified for 100-year flood protection. Because they 
decertified those levies, it caused us to give the community an 
AR flood zone rating that requires the residents to buy flood 
insurance at a lower rate until the levies can be repaired. 
Then the community can be taken out of that rating.
    Usually the Corps repairs levies on a drainage district 
like the one that goes through Orange County within two years. 
But the Corps did not get the funding to repair those levies in 
two years. It's possible that the repairs will stretch out to 
10 years, maybe 15.
    All the mayors from Orange County met with me to discuss 
their concern that this will be stretched out that long, and 
that they are going to lose valuable revenue each year. One 
mayor said, ``In my community, I'm going to lose $132 million 
in revenue that people would normally spend because now they're 
going to have to buy flood insurance.''
    Mr. Lewis. Yes.
    Mr. Witt. It's pretty tough. And Orange County did get some 
flooding this last time.
    Mr. Lewis. Mr. Director, I remember one of the vivid 
memories as a young boy standing at my back window in southern 
California dropping a ping-pong ball out the window. It dropped 
about 18 inches or 2 feet and hit the water and went out to the 
back fence.
    People don't really believe that these disasters are going 
to occur until they're upon them. And it's very important that 
we get people to be prepared and to react as you have 
suggested.
    Mr. Stokes.

                     need for disaster supplemental

    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Director, I realize that reliable estimates of the 
damage occurring in California, Florida, and elsewhere is still 
being developed, but based on what you know today, do you think 
FEMA will need supplemental disaster relief funding in 1998 to 
meet all of those requirements?
    Mr. Witt. Congressman Stokes, I believe we will be okay in 
1998. Gary will share some figures with you. Right now it looks 
as though if we do not have a real serious hurricane season 
with major damage, we'll be okay.
    Mr. Stokes. Gary, would you, please?
    Mr. Johnson. Sure, Mr. Stokes.
    Right now the current status of the fund would indicate 
that we are likely to be able to meet our obligations for prior 
year disasters, as well as what we would expect to happen 
assuming Mother Nature cooperates with our forecasted 
requirements for fiscal year 1998.
    The issue does, though, begin to surface as it relates to 
fiscal year 1999. Our estimates right now for California from 
the recent El Nino events, as well as for Florida are 
consistent with our estimation procedures for this current 
year.
    Mr. Stokes. So at this point, you think it would be fairly 
reliable in terms of your estimates?
    Mr. Johnson. For the current year.

             disaster costs to state and local communities

    Mr. Stokes. Not counting the Northridge earthquake, FEMA's 
average annual disaster response-recovery costs have been about 
$2.4 billion during the past 5 years. Do you know what the 
comparable costs have been during the past five years for state 
and local governments?
    Mr. Witt. Congressman, I do not have that figure from 
states. They did a survey. NEMA did a survey, and found their 
costs to be astronomical as well. Also, the economic loss for 
businesses in communities, which we're studying now, is 
unbelievable.
    Not only is it FEMA's cost and states' and locals' costs, 
but a lot of other federal agencies spend quite a bit for 
response and recovery, including EDA, SBA, Corps of Engineers, 
and many others. So across the board it's very expensive.

             disaster costs for private insurance companies

    Mr. Stokes. Do we have any estimate, Mr. Director, in terms 
of private insurance? How much of this has been borne by 
private insurance?
    Mr. Witt. The private insurance industry has experienced 
some serious losses from the Florida tornadoes. I think the 
estimate that I got from them was somewhere close to $100 
million just in Florida. So they are taking considerable 
losses.

                     fema's expenses for disasters

    Mr. Stokes. Considering these costs that you just made 
regarding state and local governments and the private sector in 
responding to catastrophes, do you think FEMA's expenses are 
too high, too low, or just where they should be?
    Mr. Witt. We have been able to streamline the agency, and 
to start cutting disaster costs with a central processing 
system. We've been able to save close to $35 million a year,and 
also give better customer service in the areas of inspections, 
applications, and disbursing checks.
    Congressman Stokes we also consolidated 65 warehouses 
across the United States. I asked Bruce Campbell, head of 
Operations Support, to inventory and consolidate them in to 3 
warehouses, one on the East Coast, one in the middle of the 
United States, and one on the West Coast. We also recoup all 
the equipment from disaster field offices and refurbish and 
repackage it, to be used in another disaster. We've been able 
to save $13 million a year just by doing this.
    So we're trying to cut disaster costs and streamline 
operations.
    The frequency of disasters hasn't changed that much. It's 
the magnitude of the disasters, like the ones in the upper 
Midwest, South Dakota, North Dakota, and Minnesota.
    I think back to a time when we never saw a town of 50,000 
people just totally flooded. In 1993, we saw 9 states and 500 
counties flooded. So it's the size of the disaster that we're 
seeing now.
    Gary, do you have any comments?
    Mr. Johnson. Just to add to Director Witt's comments and 
respond to your question, for the period of 1988 to 1992 for 
all disasters the average cost in 1999 dollars is just over a 
billion dollars compared to the average of the last 5 years, 
less Northridge, which is $2.4 billion.
    If we were to include all disasters from the period of 1993 
to 1997, the average would be $3.8 billion. So if you take all 
disasters, it would be $1 billion for an average of the earlier 
5-year period compared to the average of the later 5 year 
period of almost $4 billion.

                          state disaster costs

    Mr. Stokes. Let me ask you this, Mr. Director. According to 
the most recent report on state emergency management funding 
prepared by the National Emergency Management Association, 
total funding in Fiscal Year 1996 provided by the 44 states 
that responded to the survey exceeded $2 billion.
    Per capita spending increased from less than $6.50 in 1994 
to nearly $9 in 1996. According to the survey, state emergency 
management funding represents one percent of an average annual 
state budget.
    Are you satisfied with this level or do you think the state 
should do more?
    Mr. Witt. Congressman Stokes, I think we all can do more. 
We have done a lot in the mitigation area. If you look at the 
average that we have spent over 5 years, almost $2.5 billion, 
we are spending up to 15 percent instead of 10 percent of grant 
costs in mitigation after we have a disaster, per the 1993 
Volkmer amendment.
    This has been very successful. We've bought out over 20,000 
pieces of property out of the floodplain across the United 
States, moving people and businesses out of harm's way where 
they'll never flood again. We're saving millions of dollars by 
doing that. We have documented that every dollar we spend on 
buyouts saves two dollars in future disaster costs.
    My goal in pre-disaster mitigation is to know what states 
are high-risk states and what areas within those states are 
high-risk communities. We have been working to target those 
communities to eliminate the risks and to undertake 
preventative actions such as retrofitting homes and businesses.
    If we can spend $2.5 billion in response and recovery, then 
we seriously need to look at spending more in prevention before 
the disaster ever happens.
    When we have a disaster, we do mitigation after the 
response to prevent future disaster damage in that community or 
those buildings, schools, hospitals, and other areas. But why 
don't we do it before we have the disaster? Then we won't have 
to spend the money on response and recovery because we will be 
prepared for the risks that we face. We can achieve it through 
a public-private partnership with industry and state and local 
governments. We're testing this in our pilot projects now.
    It should be very successful. The excitement out there is 
incredible. Seattle, Washington became a pilot community. The 
city manager brought all of the private industry people in 
around the table. FEMA put in a million dollars of seed money 
there. To add to that million dollars, the community raised six 
million dollars from private industry.
    The community is going to retrofit over 2,000 schools and 
low-income and elderly homes against the earthquake risk. 
AmeriCorps volunteers are helping to do that while on their 
spring break.
    We can do so much more on prevention that will keep us from 
spending so much in the future on disasters. This is the 
direction we need to take.
    Mr. Stokes. Thank you very much, Mr. Director. Thank you, 
Mr. Chairman.
    Mr. Lewis. Mr. Stokes.
    Mr. Hobson.

                reduction in state and local assistance

    Mr. Hobson. Thank you, Mr. Chairman.
    Director Witt, I want to welcome you back and join Chairman 
Lewis in the kind words he said about you. I've enjoyed working 
with you and the people in your agency. They're very 
professional. And I think my state has tried to perform along 
also with the good Director.
    The partnership here I think is very good to continue. I 
have some concern about that state and local partnership. My 
director, Dale Shipley, and several other state emergency 
managers have expressed their concern about the funding level 
in the state and local account.
    Many of the states, including Ohio, have prepared for the 
50 percent matching requirement in SLA funding. What the states 
are not prepared for is the drastic reduction in the overall 
SLA number. The FEMA request eliminates the $16.6 million in 
SLA 100 and adds half that amount to SLA 50.
    The FEMA proposal does not include last year's additional 
$3 million for SLA. I take a little personal rejection. I 
worked very hard to get that in there.
    FEMA has focused solely on SLA 100 funding and made 
reductions there by moving the 50/50 match. But FEMA ignored 
the overall short fund in SLA since the states end up covering 
70 percent of their emergency management programs to the 
federals, 30 percent in SLA.
    The net impact of all of this, of FEMA's proposal, on the 
states is a reduction in federal spending of $11.4 million from 
last year and a requirement for state and local governments to 
match the $8.3 million placed in a 50 percent matching 
category.
    Now, I know some of the people are upset about the 50 
percent, but I'm not really fighting that because I don't think 
that's a bad idea. I've generally been a proponent of trying to 
get more bang for the buck, but I think this is just too much 
for all the states to absorb at one shot.
    I'd like to work with your agency to find a way to get more 
money back to the states for the SLA Program because I think 
they do a good job with this.
    Would you like to comment on the SLA?
    Mr. Witt. Sure. Congressman, over the last four years, we 
have worked very hard without taking any cuts from the states. 
You all have been very generous in supporting the efforts to 
put more funding in the SLA funding for the states each year.
    This was a very tough decision on all of us. Congressman, I 
come from state and local governments and I know where that 
money goes and how important it is.
    For the last two years I've been meeting with the state 
directors at their national conferences, and I've told them 
that Congress indicated last year that we need to take state 
and local grant programs to 50/50 cost share. We have increased 
the 50/50 cost share programs from the 100 percent funded 
category which used to fund the old Civil Defense Programs, 
such as the population protection planning. We have moved, not 
only on the national level, but also the state and local 
levels, to all hazard planning.
    I have told the states to make arrangements because we're 
going to have to go to a 50/50 cost share. A lot of the states, 
like Ohio where Dale Shipley works, did make arrangements with 
their state legislators to address the reduction. Some of the 
states did not. Those states that did not are really screaming 
at me, and I don't fully blame them. I would, too. But that was 
the intent of Congress, to go to a 50/50 cost share.
    Mr. Hobson. Fifty/fifty is not a problem. It's when the 
overall number also comes down with the 50/50.
    Mr. Witt. Yes.
    Mr. Hobson. And that's hard.
    Mr. Witt. The overall number in Emergency Management 
Assistance (EMA) funding didn't come down, did it Gary?
    Mr. Johnson. The 50 percent money went up but the overall 
state and local assistance, as you've correctly characterized, 
Mr. Hobson, has dropped $11 million.
    Mr. Hobson. And that's a little hard for them to absorb, I 
think. But we can talk about that.
    Mr. Witt. Okay. A lot of people don't understand that while 
50/50 cost share money goes to the states, it also funds 50 
percent of the salaries of the county emergency managers. The 
funding goes all the way down to the state, and to the local 
level. It's very important.
    Mr. Hobson. I've got two parochial things I want to talk 
about. Then I want to come back to something else.
    Mr. Lewis. You have somebody's time.

                   flood remapping versus development

    Mr. Hobson. I know. That's why I'm rushing along.
    And, again, I want to congratulate you people. There's some 
remapping going on out there. And it presents some difficulties 
in some places. I want to thank Mike Armstrong and Matt Miller 
and Doug Bellomo and Fran McCarthy for taking the time to meet 
with me about a local situation.
    The thing that concerns me is when we do this remapping, 
it's got to be realistic. And they've got to take in the local 
certain types of situations without going to the huge modeling 
that you have to do in some of these situations. But 
communities, somebody's got a building and they've been 
planning expansion. And suddenly on comes a remapping.
    And there's somebody in a flood area that they didn't 
realize they were in a flood area before. You look at it, and 
you say, ``Gee, is this a 100-year deal?'' I don't want to deal 
with 100 years that are coming back to haunt us in some places, 
and it's a problem.
    You don't want to have these people building something 
where the likelihood is going to happen, but there's got to be 
some understanding that this is not an exact science as we look 
at some of these things.
    I appreciate the attitude that the people came in with. I 
just hope the results are as good as the attitude was when we 
looked at these things.
    Mr. Witt. Congressman, you're exactly right on the mapping. 
Mike Armstrong, his staff and I have been very, very concerned, 
as the Chairman has. We have done some pilot testing of 
different ways to do mapping more quickly for the local 
communities because it does hinder them in rebuilding or 
developing a community.
    We're so far behind on mapping. We just don't have the 
money to do the mapping that needs to be done. Mike and his 
staff have put together an estimate of $823 million to do the 
needed remapping, but don't have $823 million in our flood 
program to do that mapping.
    If we're ever going to catch up, then we're going to have 
to do something to expedite this mapping. We're also working 
with the communities. If they can get engineers to dotheir 
remapping, then we will certify their own remapping, we do that as 
well.

                policy on unsolicited contract proposal

    Mr. Hobson. That's what we're trying to do in this 
situation a little bit.
    I've got one other question, parochial thing. And I've got 
to tell you I have had a very good relationship with your 
agency as far as credibility goes. But this is one that bothers 
me a little because I'm not sure that the proper contracting 
approach is there. I want to bring it to you, not just on this 
issue, but to make sure that it's being done right across the 
agency.
    As you know, over the past years I've shared Chairman 
Lewis' interest in updating FEMA's emergency response equipment 
and vehicles. Knowing of FEMA's need in this area, a company in 
my district, MTL of Beaver Creek, began working with FEMA over 
two years ago and, in compliance with FEMA's instructions, 
submitted an unsolicited proposal to FEMA's Acquisition Support 
Division, first in December of '96 and then a revised proposal 
in May of '97.
    I've got two problems with what happened with this 
particular proposal. One, I do not understand why it took eight 
months for FEMA to respond to MTL's proposal. And, two, when 
FEMA finally responded to MTL, the letter reads that FEMA's 
policy is to acquire such products by competitive methods.
    I don't object to that, but you should know going in. Going 
in, they were told this was going to be a sole source-type 
situation. And then when another part of the agency gets a hold 
of it, it suddenly switches on some people two years later. And 
as a small business guy, I can tell you that that doesn't help 
when you're on small budgets to be able to do that.
    Is it FEMA's policy not to procure such items through 
unsolicited proposals? And then, my response, if it wasn't, 
then why wasn't MTL told that in the beginning?
    Mr. Witt. Congressman, I wish I could answer your question. 
I'll look into it and get back to you. We do try to compete 
everything as much as possible.
    Mr. Lewis. If you could respond to the record.
    Mr. Witt. Yes.
    Mr. Hobson. I know you do. And that's why I bring it up.
    Just very quickly, Mr. Chairman. I'm not going to ask you 
to answer these questions either----
    Mr. Witt. Okay.
    Mr. Hobson [continuing]. But they're two that I ask 
everybody that comes in here.
    Mr. Lewis. Could you submit those for the record?

                rebuilding after flooding or mud slides

    Mr. Hobson. I want you to talk at some point about your 
overall rent and then, more importantly, about the year 2000 
and then problems and make sure you don't have any because 
we're asking everybody that.
    And, lastly, what concerns me,--and I told the Chairman and 
you beforehand I was going to ask this, and you somewhat 
answered it going in--one of the things that concerns me, you 
know, I watched these pictures of these gorgeous homes along 
the coast and they're falling in.
    I grew up in an area along the river in Cincinnati. I'd go 
to work in the morning, and I'd be okay. Then I come out. My 
car's got two wheels in the water because the water would come 
up and things would back up. So I'm familiar with this.
    What seems to many of us to happen--and we need to work on 
this more--is maybe we shouldn't build back all those places. I 
don't know. You can put little red tags on some of them and 
say, ``We aren't going to do this again'' or do you have the 
authority or do the local communities have the authority so 
that we don't--we know we're going to have disasters and we 
know we want to respond to those and we want to help people, 
but we can't keep going back and, say, a million-dollar house 
and keep going back or a two million-dollar house, which I 
don't have many of them in my district.
    People in my district are going to say, ``Whoa. Wait a 
minute. What are you guys doing here?'' Do we continue to go 
back in and rebuild that house or what do we do to stop and 
mitigate this a little better?
    Mr. Witt. We now have over 19,000 communities participating 
in the flood program. Under this program, if a home has been 
damaged over 50 percent from a flood, then that home has to 
either be elevated or relocated.
    Mr. Hobson. Elevate or relocate.
    Mr. Witt. Elevate or relocate. As we bought out 20,000 
pieces of property over the years, it has not only helped cut 
disaster costs, but it has also complemented our Flood 
Insurance Program due to the fact it's removed possible 
repetitive losses out of the way.
    Now, as far as the million-dollar house sliding off the 
hill that you've been seeing on the television, we don't fund 
that house.
    Mr. Hobson. Well, I think that's important for the public 
to know.
    Mr. Witt. We aren't going to fund that house.
    Mr. Hobson. We aren't going to fund that.
    Mr. Witt. I think the California Coastal Commission has 
done a really good job. If a home does slide off like the one 
on TV, or a home is damaged or destroyed on the coast, then 
they have a requirement to move the house back when rebuilding.
    As far as mud slides are concerned, I often get the 
question, ``Are you going to let these people build back 
here?'' Of course, we discourage building in high-risk areas, 
and we encourage working with the state and the local community 
to do a buyout relocation program with mitigation, and 
Community Development Block Grant dollars and Economic 
Development Administration dollars to get those people out from 
harm's way before that land goes back to open land use 
management.
    Mr. Hobson. Good.
    I just want to thank you for all the work you've done. And 
I want people to know that you just don't go into big 
communities and work. You'll go into small communities and 
work----
    Mr. Witt. Yes, sir.
    Mr. Hobson [continuing]. With those small communities. I 
think that's very important work that you do, and I want to 
thank you and thank your wife for putting up with you being 
gone so much and doing all of this good work. It's nice to have 
an agency that you can count on. And I think that this country 
counts on you, and you have responded.
    Thank you very much, Mr. Chairman.
    Mr. Witt. Thank you, Congressman.
    Mr. Lewis. We turn to the very patient and very 
professional gentleman from West Virginia, Mr. Mollohan.

                     building in flood prone areas

    Mr. Mollohan. Well, thank you, Mr. Chairman.
    Mr. Witt, I would like to join the Chairman and ranking 
member and my other colleagues in welcoming you to the hearing 
and complimenting you on the fine job you're doing.
    I was here as a much younger member of the Committee when 
FEMA was having the kind of problems that have been described 
here. And you have done a marvelous job in turning that around 
and giving the agency credibility, largely from your fit 
professional efforts.
    I also want to thank you specifically for your good efforts 
in West Virginia. It seems like you all are always in West 
Virginia. And we appreciate your help there.
    I'd like to follow up on Mr. Hobson's last line of 
questioning. Just to understand, how do you treat these areas 
that are particularly prone by experience and just by analyzing 
the condition? How does the Flood Insurance Program and your 
attitude toward these areas? How can we do it differently?
    In West Virginia, we have lots, as you know, in the hollows 
up and down these streams, lots of construction in floodplains. 
And I guess in California, probably these homes were like the 
Ohio River when they were built. They weren't built on the 
edge. They were right at 100 feet back in West Virginia to get 
to these homes and drop them into the river.
    How are they treated, these different situations: homes in 
California and floodplains in the Midwest? And how should they 
be treated in your opinion?
    Mr. Witt. Well, Congressman, in most cases, we're even 
inheriting traditional building stock that was built before 
there were ever building codes or building standards. We're 
seeing that traditional building stock getting damaged in these 
flood risk areas and other areas.
    Mr. Mollohan. They're the at-risk?
    Mr. Witt. Yes.
    Mr. Mollohan. The ones that----
    Mr. Witt. We have tried to be very diligent in focusing in 
those high-risk areas to get people and businesses out of 
harm's way working with the state and local community.
    Carl Bradford does a great job for West Virginia. He is 
really targeting some of these at-risk areas with mitigation 
dollars. We have tried to utilize and to maximize the Federal, 
state and local dollars to get the most benefit, CDBG, FEMA, 
EDA, and SBA are all working together to give the community and 
state the biggest bang for the buck, as we would say.
    We don't treat jurisdictions any differently. If they're in 
a high-risk area we have enough money, and the state targets 
that area for buyout relocation, then we support that effort.
    We have been able to accomplish a lot, but the problem we 
have is that we just don't have enough money to do what needs 
to be done.

                housing assistance for disaster victims

    Mr. Mollohan. Well, say you have a disaster and there are 
these traditional structures in disaster fund areas. Do you 
provide assistance to those homes or those structures? And what 
kind of assistance is it?
    Mr. Witt. The normal process is that disaster victims will 
apply for assistance, either by calling a 1-(800) number or by 
obtaining an application. If the community has been wiped out, 
victims can apply for temporary housing for up to three months.
    Applicants first go through the process to determine if 
they're eligible for a basic low-interest SBA loan. Then if 
they're turned down by SBA, they are automatically referred 
through a process for an individual and family grant, which we 
fund at 75 percent, but the state runs the program.
    If their home is repairable, applicants can possibly get a 
maximum $5,000 as a minimal repair grant to make that home 
liveable in lieu of getting temporary housing, this saves money 
in the long run.
    So the process is that a person goes through SBA first. If 
they're turned down for a loan to SBA, then they would fall 
back into the grant program.
    Mr. Mollohan. Okay. Now you're moving toward mitigation. 
And that's what these pilot projects are all about, is it not?
    Mr. Witt. Yes.

               pilot programs in pre-disaster mitigation

    Mr. Mollohan. You have one pilot project in West Virginia. 
I heard you talk about the one in Washington, where you had a 
lot of private sector resources being thrown into it. In areas 
that perhaps you can't draw upon those private sector resources 
to the extent you described, how are these pilot programs 
working?
    Mr. Witt. Very well. We're beginning to see many 
communities across the United States take the ``Project 
Impact,'' information book, go through it, and do some of the 
pre-disaster mitigation themselves.
    That's what we're trying to do with our information: 
develop a program that anyone can put in place. We have a 
checklist of exactly what they would need to do and how to do 
it.
    Evansville, Indiana, a community that has earthquake risk 
and flood risks, is not a pilot project community. I went to 
Evansville and had breakfast with their Chamber of Commerce and 
200 business men and women. They have already raised $168,000 
to hire a planner. They determined they were going to be a 
national model, whether designated as a Project Impact 
community or not.
    Other communities are joining. Governor Batt in Idaho has 
submitted legislation, I understand, to stop building in 100-
year floodplains, and in high-risk areas. A mayor in Texas has 
put into place stiff penalties for building in flood-risk 
areas.
    So our message is getting out. People are starting to look 
at this. Congressman, we're also looking at giving the states 
two years to adopt their new building codes. If they have a 
disaster now the only thing we can do is build to the pre-
disaster building codes. If they change the codes, then we can 
rebuild to the new codes.
    States are going to have to take some responsibility, too. 
They need to develop some good building codes and enforce those 
codes.
    Mr. Lewis. It needs to be said here that we must give 
priority to that mapping/remapping, however----
    Mr. Witt. Absolutely.
    Mr. Lewis [continuing]. Because 100-year floodplains are 
defined at X time. And people in the desert, for example, 
wonder how youquite got there. But in the meantime, the point 
is very, very important.
    Mr. Witt. Yes, it really is. It's a responsibility that 
individuals and, local and state and Federal governments have. 
If we all take that responsibility seriously, we will make a 
difference.

                   difficulty in meeting 50/50 match

    Mr. Mollohan. In one area, you're planning to eliminate the 
100 percent grants to state and local assistance and you're 
taking this money in the 50/50 match program. Following up a 
little bit again on Mr. Hobson's questions, are you finding 
that there are areas of the country that are having difficulty 
meeting this 50 percent match?
    Mr. Witt. In meeting the 50 percent match, no. I think the 
difficulty in a couple of states stems from the two years I've 
been saying that Congress is telling us to go to 50/50 cost 
sharing.
    Most of the states had their legislators take care of this 
in their appropriations. The problem in many states is that 
legislatures only meet every two years. A couple of states that 
did not go forward and ask their legislators to make the 
adjustment they are the ones that are in trouble.
    Mr. Mollohan. But fundamentally you're not getting any 
responses from any states that ``Look, we're just not able to 
meet this match'' or ``Our localities aren't able to meet this 
match''? You're not seeing that problem?
    Mr. Witt. I've only had two states that came back and said, 
``We're going to lose people because you're doing this.'' But 
they didn't get anything done through their legislators either.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Mollohan.
    Mr. Frelinghuysen.

               appeals on hazard mitigation grant project

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Good morning, Mr. Witt. May I join all of the Committee 
members in commending you and your fellow employees at FEMA for 
some great work around the nation addressing some unbelievable 
catastrophes. And certainly from those of us from the 
Northeast, we appreciate all the attention you've given in 
recent times.
    Mr. Witt. Thank you.
    Mr. Frelinghuysen. Fortunately, I've been able to view on 
television more than I have seen you in action at any 
particular site. While New Jersey may have its problems 
periodically, I see you in a very public way reassuring people 
by your physical presence. And I commend you. I also hear good 
things from our governor's office in New Jersey about your work 
with various state officials as well.
    I do have several questions, first being it's my 
understanding that your agency has proposed a rule change for 
applicants appealing a denial for funding under the Hazard 
Mitigation Grant Program. The rule change would reduce the 
number of appeals from three to one. According to your proposed 
rule, the appeals process to my mind would sort of almost begin 
and end with a Regional Director.
    I certainly understand that this is broadly a result of 
efforts to streamline the regulatory process, reduce 
administrative costs, but most other federal agencies do have a 
multi-level grant appeals process in place, basically to ensure 
due process for the applicant and not to place extraordinary 
power in the hands of any Regional Director.
    And in no way am I implying that there's anything wrong 
with the Regional Director. Quite to the contrary. However, 
many communities around the nation, certainly the ones that I'm 
familiar with, invest a lot of time and money bolstering their 
defenses against natural disasters. As such, we need to ensure 
that every detail has been fairly addressed upon all levels by 
FEMA.
    Could you share the rationale in proposing this rule 
change, giving me some idea of the number of appeals that would 
be affected, the time frame, as well as any budgetary 
implications?
    Mr. Witt. The appeal process that we have had in place in 
FEMA for years is very cumbersome. There is a lot of red tape. 
It takes too long to go through the appeal process and to get a 
decision for that local government to be able to do what 
they're trying to do.
    We did go out with comments on the rule after the state 
directors were here for a national conference in Washington, I 
met with all of them personally and privately one morning to 
get their feedback and comments. They agreed that instead of 
one, we would do two appeals, one to the Regional Director and 
then to Washington. They agreed that would speed up the process 
and give them a decision more quickly, which is what we're 
trying to do.
    Congressman, we've been getting appeals in from states and 
local governments as low as $150 and $500. I have chastised the 
State Directors a little bit because it's their responsibility 
to say, ``This is a good appeal'' or ``This is not a good 
appeal.''
    The States agreed to work more closely with us to bring in 
extra temporary hires just to work appeals. We had 370 appeals 
in one week. There's no reason for that. But I think you'll be 
proud of what we're doing.
     We get most of our appeals from the Public Assistance 
Program. We are reengineering that program now to speed the 
recovery effort up with local governments we will basically 
give them the opportunity to review with us actual construction 
cost estimates when we write them up in order to cut the number 
of appeals down almost nothing.
    Mr. Frelinghuysen. So due process is being recognized.
    Mr. Witt. Yes.
    Mr. Frelinghuysen. You sort of revisited that issue. And I 
assume, Mr. Director, you've responded to correspondence where 
some of our members have written you----
    Mr. Witt. Yes.
    Mr. Frelinghuysen [continuing]. From a number of states, 
including my own.
    Mr. Witt. Yes.

                       declaration in new jersey

    Mr. Frelinghuysen. The second question is: Several counties 
along the New Jersey coast experienced some pretty incredible 
coastal storms and flooding earlier last month, which decimated 
a lot of the protective structures.
    I believe our state's own emergency operations plan was 
adequate to meet the storm needs, but that was only true in 
four of the affected counties. I understand that last month our 
governor contacted you and the White House requesting an 
expedited disaster declaration for a couple of those counties. 
I just wondered where that request stands.
    Are you familiar with that by chance?
    Mr. Witt. Yes, sir. We have been working with the State of 
New Jersey's emergency management and received all the 
information. We should be finished with it very quickly.

                      beach replenishment programs

    Mr. Frelinghuysen. Okay. Third question. I also serve on 
the Energy and Water Subcommittee. We in a bipartisan way 
support a number of beach replenishment programs.
    In your opinion, do these beach replenishment programs, 
such as New Jersey is involved in--we spend a lot of money on 
it--help reduce the money being spent by your agency on 
noreaster damage or just general storm damage?
    Mr. Witt. The engineered dunes that are in place do help to 
protect the health and safety of some of the coastal property. 
I can't say that the beach replenishment helps protect 
property. I think it's an economic problem.
    Mr. Frelinghuysen. Surely that's true, yes.
    Mr. Witt. But the engineered dunes do help protect some 
property. I think the engineered dunes are similar to what 
levies are.
    You have many agencies with responsibilities for different 
parts of this issue. As I testified at the Water Resource 
Committee not long ago, I think to streamline these programs 
and make them less cumbersome to local government we need to 
identify one agency, and let that agency have the authority and 
funding to take care of levies and engineered dunes. That 
should be the Corps of Engineers. They're the experts. If we do 
engineered dunes, we have to task the Corps of Engineers to do 
the dunes, as well as the local government.
    I've talked to the Corps about this, and they're very 
receptive because now if a local government comes to us for 
emergency repairs and fixing a levy, then we have a part of it, 
the Corps has a part of it, and the Soil Conservation Service 
has a part of it. We need to tighten that up and give it to one 
agency with the authority and responsibility for all of these 
aspects.

                                 csepp

    Mr. Frelinghuysen. My last question. In last year's 
hearing, we discussed the Chemical Stockpile Emergency 
Preparedness Program, which your agency was working in 
partnership with DOD, specifically the Army. There were some 
issues that needed to be worked out with FEMA and DOD at that 
time.
    Can you give us an update on FEMA's work within that 
partnership to date?
    Mr. Witt. Congressman, I'm happy to report to you that we 
have signed a new agreement with DOD. For two years, I have 
been telling DOD that if we didn't change this program, FEMA 
was going to pull out because I was very unhappy, our staff was 
very unhappy, state and local governments were very unhappy.
    So under the new agreement, DOD literally gave us the 
responsibility and the money for off-post emergency 
preparedness, which is what we wanted.
    It was not working the way it was. There were too many 
chains of command in the process. It was very tough on local 
governments. Now our regions and the state and local 
governments have the responsibility with less oversight. It's 
going very well now.

                         creation of rep funds

    Mr. Frelinghuysen. Well, I commend you for it. And, lastly, 
since the Chairman doesn't appear to be cutting me off, on the 
Radiological Emergency Preparedness Fund, this says in 1999, 
FEMA requests an appropriation of $12 million to establish a 
foundation for a new fund for the program.
    Just a few comments on that. Who did this before the 
creation of this entity? I'm sure it's one of these good 
objectives, but if you could just fill me in as to who did what 
before the creation of this fund and new responsibilities?
    Mr. Johnson. Congressman, what you see in the budget 
request is a different mechanism to finance the Radiological 
Emergency Preparedness Program.
    Previously and up through the current year, funds to 
support the REP Program, have been requested as part of our 
salaries and expenses and emergency management and planning 
assistance appropriations. I believe for fiscal year 1998, the 
amount is about $12.5 million.
    FEMA bills the utilities for the full cost of the program.
    Mr. Frelinghuysen. You do that right now?
    Mr. Johnson. Yes.
    Mr. Frelinghuysen. But this would formalize that?
    Mr. Johnson. Well, there's definitely a subtle change. 
Currently when the revenues came back in, they are deposited in 
the Treasury as offsetting receipts. What we are proposing 
through the REP fund is, rather than having those revenues 
coming back from the utilities and being deposited in the 
Treasury, they will be deposited in the REP fund and be 
available to directly finance the program beginning on October 
1st, 1999, the start of fiscal year 2000.
    Mr. Witt. Also by doing this, it allows the utilities to 
actually budget better for their programs. It should work out 
very well.
    Mr. Frelinghuysen. Utilities have invested quite a lot----
    Mr. Witt. Yes.
    Mr. Frelinghuysen [continuing]. In these types of issues 
and haven't seen a great payout. I assume that they're 
supportive of what you're doing here.
    Mr. Witt. Yes.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. Thank you, 
Director.
    Mr. Lewis. Thank you, Mr. Frelinghuysen.
    The gentle lady from Florida, Mrs. Meek.

                        state and local concerns

    Mrs. Meek. Thank you, Mr. Chairman.
    Welcome, Director Witt. He's good to see you and your staff 
again having come from Florida, where we have had any number of 
disasters. And to see the efficiency with which your department 
handled them is commendable. It's commendable to see the 
problems that you have faced. And you have been able to 
surmount them. We thank you.
    My questions, however, are very similar to the ones the 
other members have asked. There appears to be underlying 
questions regarding state and local governments and how you 
handle that kind of funding. Other members have called this to 
your attention. My state is no exception to that, not only on 
the local level but the state as well.
    They're concerned about the amount of funds that they will 
receive now for their local emergency assistance programs. And 
they feel, as I can perceive it, that they were not given 
enough time to really phase out what they were doing.
    This came down as a mandate that this had to happen. 
Theydidn't have time to address this in their state legislatures to 
make up for whatever shortcomings this mandate from national FEMA may 
have incurred.
    They're saying that they didn't yet form a notification 
early enough and they weren't in the process. And I could go 
and on, Mr. Witt, with the number of things that they're 
concerned about.
    I think some of it has some credibility to it in that it is 
a local problem. When there is an emergency in Dade County or 
in the State of Florida, the locals are very much concerned. 
Loss of life, devastation, all of this is very important.
    Two things seem to concern them most. One is flood 
insurance. What I'm hearing, Director Witt, is that your 
capacity to predict that the amount of needed flood insurance 
may be skewed toward the fact that the instrumentation--what 
you're using to measure potential damage--is inadequate. My 
information shows that in the flood insurance area, your 
instruments or whatever you're using are only accurate within 
five feet. And certainly in Florida, most of the coastal areas 
of Florida, it is hard to assess the flood vulnerability with 
that kind of instrumentation. They're saying that your 
measurement tools, even though they're costly, are only 
accurate within five feet. How valid is that; I'd like you to 
respond a little bit later.
    Let's take the Deerfield Beach model, which you just sent 
off through pre-mitigation, you had thought about and worked 
on. How do you plan to assess those needs in the future? In the 
model community there, you would need more accurate kinds of 
measurement that would perhaps be gotten only from more 
sophisticated means of measurement. Do you plan to proceed with 
any of that kind of improved measurement so you would be ready?
    I'm concerned because there are a lot of trailer parks, a 
lot of commercial property, a lot of mobile homes in Florida.
    Mr. Witt. Right.
    Mrs. Meek. And I'm just wondering if you and your staff had 
thought about how you're going to plan for this in the future. 
Is it in your plans now? And if so, how do you plan to use the 
funds that you're asking for in your budget request at this 
time?
    I have lots of questions, Mr. Witt, but because you're such 
a fine Southern gentleman and I like you very much, I'm going 
to put the rest of my questions----
    Mr. Lewis. Be careful, Mr. Witt. [Laughter.]
    Mrs. Meek. It's true. He stood the test of time, Mr. 
Chairman.
    Mr. Lewis [continuing]. I'm going to put the rest of them 
in the record. But I'll go back and reiterate what my major 
concerns are: the accuracy of your assessment of flood 
insurance and the measurement which you use to try to depict 
that in that we're concerned in that 40 percent of the national 
flood insurance policies are bought in Florida. So it's a great 
concern to the states there.
    And my second concern was the discontent among the 
emergency management people regarding the lack of transitional 
time they had from being able to prepare themselves for the 
reduction and not being able to seek other funds.
    The third one had to do with how you're going to address 
some of these issues in your mitigation strategy. How are you 
going to address whether or not your pre-disaster mitigation is 
in some way not going to be to the detriment of these 
traditional approaches which you've used in the past? Those are 
the three questions, Mr. Witt.

                         accuracy of flood data

    Mr. Witt. First, on the flood elevation and the mapping, we 
are required to be within one foot of elevation for the 
mapping.
    Also, we're trying to look at the different ways that we 
can do mapping, either through satellite or imagery, in order 
to give state and local communities the very best information 
that we can. Also, we will work with a community if they have 
their own engineers and they're willing to do their own 
mapping. We will then review that.
    And you're right, Congresswoman. It's very important. It is 
really critical to have the elevation within a foot because it 
would affect a lot of businesses and homes around that county 
or city if we are not.

                         mitigation in florida

    Regarding mitigation, you mentioned Deerfield Beach as a 
pilot project community. I can't tell you how proud I am of 
what the State of Florida has done. Joe Myers, Governor Chiles, 
and the legislators have supported the mitigation in Florida in 
a bipartisan way. They have supported buyout relocation and 
elevation of homes and businesses in Florida. They have put a 
lot of money into those programs.
    We have many communities in Florida that have already 
benefitted from Project Impact and continue to do so. Are you 
familiar with the high school in Deerfield Beach?
    Mrs. Meek. Yes.
    Mr. Witt. That high school is that town's shelter. That 
high school had not been retrofitted for a hurricane, but the 
safety of that school for these children and as a shelter for 
the community was critical to the mayor and the community.
    One of their projects is to retrofit the high school 
against a hurricane. There are many other smaller projects that 
they're doing joined by Home Depot, Embassy Suites, and the 
Power and Light Company which are making an effort to cut dead 
back away from the power lines limbs. So this is a pretty good 
effort they're doing in Florida.
    AmeriCorps will be joining us during their spring break in 
Florida as volunteers to help make the homes of elderly and 
low-income safer against a hurricane.
    So its working really well. I just wish we had more money 
to do more mitigation projects to make communities safer. 
Hopefully we will in the future.

                        state and local funding

    Your third question was regarding state and local funding?
    Mrs. Meek. Yes.
    Mr. Witt. For two years, Congress has asked us to go to a 
50/50 cost share. Last year in the report language they didn't 
ask us, they instructed us to go to a 50/50 cost share.
    For two years, I have been telling the state directors that 
they needed to focus on this because I was concerned that we 
were going to have to go to a 50/50 cost share.
    We wrote every governor a letter advising them that this 
was going to happen. We put the information out to the states 
to make sure they understood and, to make sure that they were 
going to start making arrangements. Many states did, a few of 
the states didn't, and this got them and all of us in a Catch-
22.

                           mapping techniques

    Mrs. Meek. So you do feel, Mr. Director, that your 
mappingtechniques are adequate under the circumstances?
    Mr. Witt. I think they could be better. They're adequate, 
but they could be much better. My goal is to be able to do it 
much faster, because building and communities are growing so 
much. We just don't have the money to do the remapping that 
they're asking us to do.
    Earlier I made the statement that to get all the maps 
across the country updated, it would cost $823 million. We need 
to do this because it's causing us a serious problem.
    Mrs. Meek. Thank you Mr. Chairman.
    Mr. Lewis. Thank you, Mrs. Meek.
    Mr. Walsh.
    Mr. Walsh. Thank you, Mr. Chairman.
    Good morning, Mr. Witt. It's good to see you again. Welcome 
back. It's been said that the toughest job in America is being 
President of the United States. And the second toughest job 
I've heard is being Mayor of New York City. You've got to have 
at least the third toughest job in the country. And you do it 
very well.
    Mr. Witt. Thank you.

                          transportation funds

    Mr. Walsh. And I think you hear that from both sides of the 
aisle, which is remarkable.
    I'm going to use this hearing as an opportunity to make a 
point. And the point is that we later this year will be having 
a battle over transportation funds. ISTEA it's called. It's 
been said that states like mine, New York, don't send as much 
into the trust fund because we don't buy as much gasoline 
because we use mass transit. So some states make the case that 
since we don't send as much money in, that we shouldn't get the 
benefit of ISTEA.
    And I'm asking or imploring or suggesting to my colleagues 
from Florida and California, who my constituents sends millions 
and millions and millions and millions of dollars to every year 
for hurricanes, earthquakes, fires, mud slides----
    Mrs. Meek. Why are you looking at me? [Laughter.]
    Mr. Walsh. There was a problem in Homestead Air Base in 
Dade County a few years ago I remember. We consider that our 
responsibility and our obligation. And I would just hope that 
that would have some sway with the legislators from those parts 
of the country to give us the consideration that we need 
because our infrastructure is older, far more in need of 
repair. And it's a fairness issue for us. So I just wanted to 
use this opportunity to make that point.
    Mr. Lewis. Please, Mr. Walsh----
    Mr. Walsh. Mr. Chairman.
    Mr. Lewis [continuing.] Realize that we understand your 
point. And we certainly will try to keep it as a part of our 
consideration.
    Mr. Walsh. Thank you very much. I must have made my point. 
[Laughter.]

                          agricultural losses

    I think that, again, you do a remarkable job in very 
difficult circumstances. And the few times that, fortunately, 
I've had to deal with FEMA, they've been very responsive.
    We had an ice storm in New York State this year. And it 
also affected Maine, Vermont, New Hampshire. It was Canada's, 
I'm told, greatest natural disaster ever, which is pretty 
remarkable, tens of thousands of power poles down, farms.
    There are a lot of farms in the north country in New York 
State. Many people don't realize that, but it is very much 
still an agricultural state. And the ice came, and then power 
lines went down. And then the snow came on top of the ice. So 
the roads couldn't be plowed. So farmers couldn't get the 
product to market.
    It was truly a disaster. And your folks were there on the 
spot quickly. And I wanted to thank you on behalf of my 
constituents to the north for that.
    One of the things that happened was a lot of the dairy 
farmers not only had to dump milk, but they also lost cows. 
They couldn't milk the cows. They didn't have power. And farms 
are bigger than they used to be. So they couldn't milk them all 
by hand, although many were milked by hand. And so cows got 
sick, mastitis. They went dry.
    I just say that because we're going to have to be a little 
bit creative, I think, in order to respond to that need that 
those farmers had the losses that they suffered. USDA, I know, 
is interested in trying to work with us on this.
    Do you have any thoughts? Have you experienced that 
elsewhere in the country?
    Mr. Witt. Yes, sir. I was in New York State with Governor 
Pataki at some of the dairy farms. FEMA provided some 
generators for the farmers so they could milk their cows. They 
would take one generator, rotate it among three farms, and milk 
the cows at different times. The farmers would have to milk 
their cows, then dump their milk because the power was out at 
the processing plants.
    They had a tremendous loss. A lot of people don't realize 
the economic loss not only to the farmers but the entire state 
and all of the New England states.
    So President Clinton asked us to look at a long-range 
recovery plan. Lacy Suiter, Associate Director for Response and 
Recovery, is here. We just finished the plan yesterday.
    It clearly addresses all the New England states. We invited 
all the state directors of emergency management in from the New 
England states along with all the federal agencies, and just 
sat around the table and talked about the disaster, the effect 
of it, and what we may need to look at in the future to help 
longer-term recovery.
    The Department of Agriculture was there, SBA, all of them. 
It very clearly identifies shortfalls in areas that we need to 
look at possibly through legislation or with other agencies for 
long-term recovery because disasters affect maple syrup 
farmers, orchards and dairy farmers. All of them. Right now 
there's no assistance except loans.
    Mr. Walsh. Yes. That's right.
    Mr. Witt. It's really tough.
    Mr. Walsh. When you don't have a cash flow because of the 
loss that you suffered once the price of milk is depressed, you 
can't pay the loans back. It's a pretty vicious cycle.
    Mr. Witt. We have no programs to help the agriculture 
program.
    Mr. Walsh. Well, the date of the----
    Mr. Lewis. I'm going to mention----
    Mr. Walsh. Sure.
    Mr. Lewis [continuing]. Mr. Walsh, that there is some 
precedent for this, however, last year. But before that, as I 
understand it, through supplemental appropriations bills 
following disasters, we have given specific assistance through 
the agriculture provisions of those supplementals, some 
disaster relief.
    Mr. Witt. That's true.
    Mr. Lewis. Specifically, in California, we have problems 
with dairy cows as well right now. I mean, hundreds, if not 
thousands, are being killed. But how you fund or help people in 
those circumstances, there is a pattern through the agriculture 
provisions of the supplemental that could help.
    Mr. Walsh. The data that you have gathered I'm sure will 
help us to make our case with USDA. And they have suggested 
that they would be willing to work with us on this. And we will 
have to be creative.
    Mr. Witt. Look at our report. It's a very good report. It's 
to the point. OMB signed off on the report as well as the other 
agencies.
    Mr. Walsh. Great.
    Mr. Lewis. I have just learned in the last couple of days 
that in Chino, California, some 6,000 cows----
    Mr. Walsh. Yes.
    Mr. Lewis [continuing]. Have dropped dead from exhaustion. 
Cows or calves in births fall into the mud. I mean, it's really 
a huge, huge thing that I've never anticipated.
     Mr. Witt. You know, we're seeing different patterns. The 
Association of Western Governors signed an agreement with FEMA, 
the Department of the Interior, Department of Agriculture, 
Corps of Engineers, all of us to look at not only the drought 
problems but also flood problems. It's getting very serious, 
particularly for farmers.
    Mr. Walsh. This year with the El Nino weather cycle, 
watching the Weather Channel is a frightening experience. It's 
become horror TV. [Laughter.]

                       emergency food and shelter

    And it does affect us all, and it's very unpredictable. I 
noted that you went out front early on watching for this and 
planning as best you could.
    I have just one other question in this round. And that is 
that regarding the Emergency Food and Shelter Program, this 
program, the need for this program, has never been greater. In 
my community, the need is significant. And it seems that the 
OMB request is rather low.
    Could we do better, do you think?
    Mr. Witt. The request is for $100 million. Two years ago we 
had $130 million in that program. I think the Food and Shelter 
Program is probably one of the more successful programs that we 
have in the federal government because less than three percent 
of that money is administrative money.
    Mr. Walsh. That's remarkable.
    Mr. Witt. The money goes out directly to the state and 
local communities, to shelters, to Meals on Wheels, all of 
those things that help people who really need help.
    But the administration is asking for the same level as last 
year, $100 million.
    Mr. Walsh. Well, we'll discuss that as we go down the road. 
It may need to be increased, especially given the conditions 
we're seeing all around the country.
    Mr. Witt. That's tough.
    Mr. Walsh. Thank you very much, Mr. Chairman.
    Mr. Witt. Thank you, sir.

                      time to close out disasters

    Mr. Lewis. Thank you, Mr. Walsh.
    Mr. Director, the first time I met Lea Ellen was when you 
and I were together in southern California on a trip that 
involved, among other places, UCLA. We were looking at work 
that had been done, work that still needed to be completed in 
connection with the January 1994 Northridge earthquake. That 
visit, as you know, was this year.
    The difficulty I'm pointing to is that, while disasters 
take place, there are some who are concerned about the fact 
that after we appropriate money, sometimes long periods of time 
go by before money actually gets to the spot or construction 
takes place.
    FEMA established three closeout teams in Fiscal Year 1998 
to resolve issues which had prevented the Agency from closing 
disaster declarations and programs. How many disaster 
declarations and programs are currently open?
    Mr. Witt. There are over 400 open disasters that go back 
all the way to Loma Prieta and Hurricane Hugo, some of them 
need minor things to close them up and either deobligate or 
obligate money. We have closed 66 already since we put the 
teams in place this year.
    We anticipate we'll be able to close 183 during the rest of 
the year.
    Mr. Johnson. We've established a goal, Mr. Chairman, for 
the close out teams to reduce remaining costs for prior year 
disaster declarations prior to the end of this fiscal year by 
$1.3 billion and to close 183 disasters. Our first quarter 
activity has shown some definitive progress. Now that the teams 
are operational, we hope to realize these particular goals.
    Mr. Lewis. Well, there is that on-going concern about the 
length of time people place claims, et cetera. And you know, 
it's one thing to be out of home, to say the least, personally 
out of pocket, but to have a promise and then have that promise 
not delivered in time creates an environment that's----
    Mr. Witt. You're absolutely right. The two areas that we 
have most difficulty in is the Hazard Mitigation Program which 
seems to take forever to get projects approved and obligated. 
We've tried to do the best we can to streamline that program. 
We've asked the States to develop a Hazard Mitigation Plan 
which prioritizes their goals in their State in order to help 
us expedite mitigation grants.
    Working with the State Emergency Managers, and the National 
Committee, we are trying to streamline that program. We even 
are looking to HUD and other agencies as to the Environmental 
Impact Statement reviews that they do. HUD leaves it to the 
community and the State to do the environmental assessment and 
the study. They're the ones that have to comply with the EPA 
and those other requirements.
    At FEMA, the community and State do the environmental 
study, but then it has to be reviewed by FEMA. That may be a 
way we can streamline.
    The other thing Mike Armstrong and I are working on now is 
to give the Hazard Mitigation Grant Program to the State with 
very little oversight, except for auditing by the IG. My goal 
is to do the mitigation as they rebuild the project. We're also 
establishing a time frame, a two-year frame. If they do not 
have those grants obligated in two years, then they're going to 
lose it.
    Mr. Lewis. You and I discussed mitigation, a lot of us will 
discuss it more before the hearing is over today, but I'm 
really talking about the length of time it takes to close out 
disasters. We've talked a lot today, and you and I in recent 
weeks about current problems of flooding in California, the 
tornadoes in Florida, et cetera. Let's assume that we set aside 
the most recent disasters. Before that, as you suggested, clear 
back to Hugo, the disaster is still open.
    How long would it take, if we didn't consider these most 
recent disasters, how long would it take to close out all those 
disasters on the books including that 1994 Northridge 
earthquake.
    Mr. Witt. We're setting a goal to try to close everything 
out within two years which is critical. What we're doing 
through the re-engineering of the public assistance program I 
think will mean that when we close a disaster field office, we 
will pretty much close that whole disaster. That's my goal, 
because we just cannot continue as we're doing. First of all, 
it costs too much money administratively for state and local 
governments as well. It delays the rebuilding of that 
community. We're going to change it where we can speed it up, 
while maintaining accountability. It's going to reflect what 
we're articulating under GPRA. It may put an extra burden on 
the IG's office because of audits they're going to have to do, 
but he's up to it. I know he is.

                 issues preventing disaster close outs

    Mr. Lewis. I get this question continually from Members 
whose constituencies are expressing concern. I know of your 
concern, but could you give the Committee a better 
understanding of what are some of the primary issues that 
prevent closing out these disasters? Why the time has extended 
well beyond two years, etcetera?
    Mr. Witt. Well, it's probably about a 50-50 split between 
the States and FEMA. We're trying to expedite and streamline 
our processes. The States are also working on it. In 
California, as an example, they have a lot of mitigation money 
that they still need to get out to local governments to do 
projects, but if you look at what's happening, California, and 
their own employees at the state level are pretty much taxed 
from all the disasters and everything they need to do. States 
have got to take more responsibility in expediting projects as 
well.
    We have to make sure that any part of it we review is 
expedited. The biggest problem we've had and the most 
complaints we've had from local governments haven't been as 
much related to mitigation as it has been the public assistance 
program. That's where we really get a lot of complaints, and 
it's simply for the fact that when we obligate the money to the 
State based on the damage survey that we have written and 
approved, it's then the State's responsibility to pull the 
money down out of Smartlink and give it to the local 
government. A lot of times there's a delay there. So now, when 
we notify the State that the money is available for them to 
drawdown, we notify the local government as well that the money 
for their project is available and the State has it, and 
they're to put it down to you. So we're changing that a little 
bit.
    Mr. Lewis. Let me follow through on that just a little bit 
more. I mentioned Northridge 1994. This is 1998, well over 
three years at any rate. And yet I remember a major story in 
Southern California where some earthquakes and bridges 
collapsed and major arteries that were transportation arteries 
for the south land. A sizeable bonus was given to a contractor 
who came in and reestablished that bridge, one of the major 
bridges in record time. That would indicate that the facility 
may be available for the States to move quickly. Clarify the 
bottlenecks a little better.
    Mr. Witt. Well, the Department of Transportation working 
with CALTRAN in California was able to do a lot of creative 
things there that under our legislation and regulations we 
can't do.
    Mr. Lewis. Such as?
    Mr. Witt. Expediting the contracts as they did and offering 
very creative bonuses. We can't do that. That was very 
beneficial, because without those bridges, transportation was 
just at a standstill.
    If we re-engineer the public assistance program, then we 
will be able to expedite the process. We will not have the 
situation we had in Northridge and in the floods out there. I 
think most of you are pretty aware that we do damage survey 
reports or DSRs to write up the pieces of a project that have 
been damaged and are eligible for funding. We've retrained our 
inspectors in this and we're going to do a pilot this summer to 
see what we need to change, but this will expedite this 
program. I get so many calls from Members asking why hasn't 
their county or city received the money yet. You and I have 
talked about this many times.
    Mr. Lewis. Yes.
    Mr. Witt. So you know we feel the need to do this, for you 
and for our customers.
    I think it's going to be a great improvement. When we write 
that DSR it will be based on actual construction costs and 
estimates. Also if a local government can document the amount 
of damages under Category A and B, debris removal and 
protective measures that they've taken, we will advance them 50 
percent of the total amount that they're going to receive up 
front to help them expedite their response to that disaster.
    Mr. Lewis. You know, I can't help but be concerned about 
the television picture of rather expensive homes on the sides 
of cliffs, and beautiful locations in the mountains, etcetera, 
but oftentimes the picture doesn't include that very poor 
family where everything they had has been wiped out by a 
mudslide or an earthquake or whatever. While I very much 
commend you for these actions taken in regarding the close out 
teams and setting goals of closing out disasters in a two year 
time limit, nonetheless, there is a problem there that's on-
going and I would hope that you would continue to have this be 
the highest priority.
    Mr. Witt. It is. Disaster close outs and the streamlining 
of the public assistance program are two of my top priorities. 
It's got to change.
    I've told the regional offices and the States that all of 
us have put up with this long enough. It's time to make a 
change here. We have to do this differently and we all have to 
be accountable for it. Local government is going to have some 
responsibility here too.We all will. We can do this. When I was 
County Judge in Yell County Arkansas I had the responsibility--I was 
the Chief Administrative Officer.
    Mr. Lewis. That's not what you did before this job.
    Mr. Witt. I was part of the emergency management team. I 
was County Judge, a County Administrator for ten years. We had 
a flood from the El Nino in 1982 or 1983 that washed out 33 
bridges in my county and 1,100 miles of road. It was a 
federally declared disaster, and I know how well this worked 
and how fast it was, when FEMA and the State came into my 
county, looked at the damages, and wrote up the DSRs. I sent 
road inspectors out with the State people and FEMA. When they 
came back in from writing up all those DSRs for our county, I 
sat down in my office and I either approved or disapproved or 
agreed or disagreed with them. We worked that disagreement out 
in my office and you know what? It was funded. There were no 
appeals. There wasn't anything. That's what I want to see. If 
we can do this, then we can solve our problem of closing out 
and rebuilding, quickly.
    Mr. Lewis. The Committee has that same priority. Mr. 
Frelinghuysen?
    Mr. Frelinghuysen. No questions.
    Mr. Lewis. Mr. Walsh.
    Mr. Walsh. I don't at this time.
    Mr. Lewis. Mr. Stokes has just arrived. You may want me to 
go forward.
    Mr. Stokes. Go ahead.

                        urban search and rescue

    Mr. Lewis. Last year, Mr. Director, the surveys and the 
investigation staff completed a report which focused on a need 
for urban search and rescue teams, their mission and their 
funding sources. While urban search and rescue teams had 
generally operated well in different circumstances, the 
Committee's investigation highlighted several problems which 
may require both administrative as well as legislative 
remedies.
    The report states that neither a needs assessment nor an 
objective study has ever established how many teams should 
exist. Yet, recently two new teams were established.
    Is it true that there has not been a needs assessment and 
if so, why were two new teams recently established?
    Mr. Witt. We had 25 teams located across the United States. 
The only area that did not have teams was the middle part of 
the United States. However; we have one of the largest threats 
in the country, the New Madrid earthquake fault in the middle 
of the United States which covers Tennessee, Arkansas, 
Mississippi, Indiana, Missouri, and Illinois. There's a total 
of 14 States that could be affected by the New Madrid. That was 
the only area that we were not comfortable with not having a 
USAR team.
    Lacy, I don't know about the needs assessment. Can you 
comment?
    Mr. Suiter. Yes sir. We have a process underway right now 
to determine what the total number of teams should be, the make 
up, and where they should be located. We expect that report by 
July 1st.
    Mr. Witt. I knew we were working on that, but I didn't know 
when it was due.
    Mr. Lewis. The USAR program is based on the principle of 
support being provided by federal, state and local entities, 
yet FEMA has not defined the cost to maintain the program. And 
States provide little, if any, financial support. What is the 
funding responsibility of the federal, state and local 
government?
    Mr. Witt. Most of our funding for search and rescue teams 
is spent up front, as a team is brought on. We've created a 
funding line item so Congress would know funding levels for the 
search and rescue teams.
    Mr. Johnson. The amount for 1998 and 1999, Mr. Chairman, is 
the same. It's $4,021,000.
    Mr. Witt. Most of the search and rescue teams are supported 
by FEMA and their local governments. In California, we have 
eight teams, I believe, in Orange County and other counties 
supported by their communities. They're very proud of the teams 
and very supportive. We used 15 teams in in Oklahoma City at 
that response. These teams are very proud, and the community is 
very proud to help support them. We have a responsibility too, 
since we call them out for very serious situations. In Florida, 
a team was down there searching for victims in the tornadoes. 
In Hurricane Fran, they were searching for victims on the 
coast. They're very good and we can be very proud of them.
    Mr. Lewis. Mr. Director, FEMA has used disaster relief 
funds to equip teams when they are deployed rather than 
properly seeking appropriations to purchase necessary equipment 
prior to deployment. This can lead to hasty procurement of 
equipment at sometimes very high prices. Why has FEMA not 
requested appropriations to purchase equipment in advance of 
such needs?
    Mr. Witt. When I found out they were purchasing equipment 
in this manner, I decided we needed to have a line item in our 
budget for USAR to let Congress know what we're spending on 
this program.
    Mr. Lewis. Last question on this subject area. FEMA does 
not appear to have clear statutory authority for USAR teams and 
has not promulgated regulations to manage the teams.
    While there are memoranda of agreement of the 21 
participating teams, the agreements are deficient in such areas 
as liability coverage, workers compensation, ownership of 
equipment and so forth. What efforts are under way to clarify 
in statute or regulation the authority to the teams and the 
status of their members.
    Mr. Witt. I think that part will be done after the 
assessment.
    Mr. Suiter. That's correct.
    Mr. Lewis. I'm sorry, why don't you identify yourself?
    Mr. Suiter. I'm Lacy Suiter. The whole assessment process, 
identifying all the issues we just discussed?
    Mr. Witt. I have talked to the teams about who has the 
liability for the teams when they're activated by us, is it the 
local government or is it us. It is a problem.
    Mr. Lewis. Mr. Stokes.

               u.s. fire administration 5-year objectives

    Mr. Stokes. Thank you, Mr. Chairman. Mr. Director, 
according to your annual performance plan, FEMA is to achieve a 
goal, one is to protect lives, prevent loss of propertyfrom all 
hazards and within this goal one of the five year operational 
objectives is to reduce by 5 percent the rate of loss of life and 
property, and fire-related hazards.
    First, let me ask you if it is true, as testified to 
Congress last month by officials of the General Accounting 
Office, the United States has historically had one of the 
highest fire loss rates and deaths and dollar losses of the 
industrialized world.
    Is that true?
    Mrs. Brown. Yes. I'm Carrye Brown. May I answer that?
    Mr. Stokes. Yes, Ms. Brown.
    Mrs. Brown. It is true.
    Mr. Stokes. And why do you think this is the case?
    Mrs. Brown. One of the reasons is Americans tend to 
disregard fire safety. They just take it for granted. Also, a 
lot of fires also do occur in the homes and most of them don't 
have fire detectors or smoke detectors where those deaths 
occur.
    Mr. Stokes. Would you say there's a lack of knowledge 
regarding fire danger that's prevalent throughout the United 
States?
    Mrs. Brown. Yes. I think Americans have to be reminded. The 
Fire Service community is doing an outstanding job of putting 
out fliers and informing Americans, but they have to be 
reminded about a problem that is taken for granted. Most of the 
time I think the crimes are the issues, but we don't think of 
fires.
    Mr. Stokes. Let me ask you this, you are the Director and 
may want to respond, but your annual performance plan states 
the first performance goal is to identify the national fire 
program, analyze, publish and disseminate related data and 
information. And this tends to indicate that we don't even know 
what the problem is yet. Can this be right?
    Mrs. Brown. May I reply?
    Mr. Witt. Yes.
    Mrs. Brown. We do have an idea of the problem because we 
have had a National Fire Data Center for several years, but we 
want to do a better job of it. Infomation is provided on a 
voluntary basis, through the State Fire Marshall's office. It's 
collected by fire fighters around the country so we do have a 
sense of the fire problem. That was one of the issues 
identified way back in 1972 in a report called ``America 
Burning.'' It said that there needed to be something like a 
U.S. Fire Administration to help get accurate data and with 
that accurate data you can then help the nation help fire 
departments, and help fire marshals around the country to 
better identify the problem, and we can work on those issues 
that are national in scope. That's what we do.
    In fact, I'm very proud to tell you that our National Fire 
Data Center is going to be a PC-based system. We're also 
putting a lot of research results up on the Internet so it will 
be easier to access this information. So we're definitely in 
the process of doing that. We have a sense of the problem as a 
result of that.
    Mr. Stokes. Now in order to reduce it by 5 percent, what 
are we going to have to do to make this 5 percent reduction?
    Mrs. Brown. There are several things that we have to do, 
but I think one of the harder things that our Agency 
understands is that we have to work in support of the fire 
service community. We have to talk with them and work with 
them, with accurate data on how they see our role as well as 
their role in reducing fire losses. We do that through 
stakeholders' meetings. We do that through working with the 
various fire organizations around the country. So we work hand 
in hand in developing solutions that are basically local based.
    Mr. Stokes. Thank you.

                        church arson prevention

    Mr. Witt. Also, the President asked us to work with the 
churches in an arson prevention program. That program was very 
successful and the U.S. Fire Administration, the fire service 
and the churches and all worked with us to make that possible.
    Also, the National Council of Churches came back to meet 
with me. They said that because our efforts had worked out so 
well, they want to work with us now in doing a prevention 
training program in every church across the country, for their 
congregations. This will be one tool that the Fire 
Administration and all of us will be able to use not only on 
fire, but to address other hazards as well.

                      reducing annual flood losses

    Mr. Stokes. Director, let me ask you this. Another 
operational objective under Goal 1 is through the National 
Flood Insurance Program to reduce annual disaster flood losses 
by $1 billion.
    Can you share with us what are your specific tactics in 
order to achieve this goal?
    Mr. Witt. By utilizing what we are doing now with the 
mitigation program, disaster programs and buyout relocations of 
property we should meet that goal.
    Joann Howard, FIA Administrator, her staff and I have been 
trying to target the repetitive losses that we have in the 
program, and to see what more we can do in that area. The wise 
decision that Congress made to allow us to use $20 million 
identified in the 1994 Flood Reform Act towards targeting 
repetitive loss areas in each State will make a big difference 
as well. This is the first year we've been able to put the 
money out. So I think we can achieve it. It's very ambitious, 
don't you agree, Joann?
    Ms. Howard. I believe so. We're certainly working in that 
direction.

               comprehensive pre-disaster mitigation plan

    Mr. Stokes. Director, let me ask you this, the 1998 
Appropriations Act for FEMA provided $30 million for 
predisaster mitigation activities, but we fenced all but $5 
million of that amount until receipt of a long-term 
comprehensive national predisaster mitigation plan.
    The Conference Report on the 1998 Act directed that the 
plan be developed, peer reviewed and submitted to Congress by 
March 31st of this year. That's a date that some of us felt was 
not terribly realistic for preparation of such a comprehensive 
effort.
    Tell us what is the status of this National Predisaster 
Mitigation Plan and tell us when you hope to be able to 
transmit it to the Congress and what group or groups have or 
will peer review the document?
    Mr. Witt. The committee working on it believes it can meet 
the goal of March 31st. We'll do our very best. We have members 
on this committee that are from the insurance industry and 
every area that would be a peer review.
    Mr. Lewis. Identify yourself for the record.
    Mr. Armstrong. I am Michael Armstrong. We have 
representatives from the C-PAND group; representatives from the 
insurance industry; people from the academic community; know, 
national consultants; and state consultants. It's pretty broad 
based.
    Mr. Stokes. And what are we doing with the unrestricted $5 
million?
    Mr. Witt. The $5 million has allowed us to kick off five of 
the pilot communities. We have two more pilot communities to 
kick off, one in West Virginia and one in Maryland. We're 
working with the States' local governments to identify and 
prioritize the most high risk communities in each State. It's 
going well. The States have submitted their proposals already 
for the next round of communities.
    Mr. Stokes. Which of the communities were selected?
    Mr. Witt. Which communities? Deerfield Beach in Florida; 
Wilmington, North Carolina; Pascagoula, Mississippi which was 
devastated by Hurricane Camille; Oakland, California; and 
Seattle, Washington. There is one project involving two 
counties in West Virginia and one project in Maryland that 
we're going to be kicking off soon.
    Mr. Stokes. Can you give us the reasons for their 
selection, those particular communities?
    Mr. Witt. Two reasons. One was the risk factor. The other 
was the interest of private industry, the city, and state 
government in making this happen and making it work. In 
Seattle, Washington, to give you an example, we used $1 million 
seed money there. They have raised another $6 million from 
private industry to retrofit 2,000 homes of low income and 
elderly in areas that probably never would have been 
retrofitted. In addition, Americorps, working on summer and 
spring breaks, is going in to remove all heavy objects from top 
shelves and put them down on the bottom shelves, and make sure 
that book cases are secured to walls. The interest and the 
support from private industry for this project are 
unbelievable. It's just incredible.
    G.E.'s joined us, as have Home Depot, Lowe's Building 
Supplies, and Embassy Suites. Merrill-Lynch wanted to come to 
New York to meet with two other investment firms. I met with 
Jamie Gorelick at Fannie Mae--where they're looking at working 
with us and with mortgage lenders to do a signature program for 
communities, so that they will be able to borrow the money to 
retrofit homes and business against the threat. Washington 
Mutual has joined us to make low interest loans available to 
homes and businesses that need to either elevate, retrofit 
against an earthquake, or protect against wild fires.
    Mr. Stokes. You've done pretty well, I'd say.
    Mr. Witt. The reason we want to do this, and the reason we 
need to do this rather than continue to spend money after 
disasters are to eliminate a lot of this risk. We can eliminate 
a lot of the damage if we do this proactively.
    You know, for five years I've seen people lose everything 
they own in a blink of an eye. I've seen community after 
community lose businesses that can never reopened. I've seen 
citizens lose jobs because those small businesses never 
reopened. That's why business is interested in this.
    Mr. Stokes. Let me just ask you this and I'll be ready to 
yield back, Mr. Chairman.
    Is there--you've enumerated quite a bit of nonfederal 
contribution here.
    Mr. Witt. Yes.
    Mr. Stokes. Is there any way for us to place a dollar value 
on that nonfederal contribution?
    Mr. Witt. One of the reasons we're doing the pilot 
communities, is to be able to give a good assessment of how 
successful the pilot projects are and how much the local, and 
state governments and private industry, put into the projects.
    I think Congress will be absolutely amazed at the dollar 
ratio that has been contributed from the local level and the 
private industry compared to what we're putting in. It's going 
to do so much. I'll give you an example. The City of Berkeley 
passed five bond issues that raised over $260 million to 
retrofit 17 schools and to put an alternate water system in 
because they know if they have an earthquake on the Hayward 
fault, it will break their main water system. With this 
substitute water system they will have water for their critical 
facilities, hospitals and shelters and to help them deal with 
wild fires. This is growing, and the interest is there because 
I can tell you, Congressman, these communities and individuals 
are tired of these repeated disasters too, and they're tired of 
fighting the devastation I think you'll see this will be one of 
the most successful programs with the least amount of money put 
into it that the federal government ever had.
    Mr. Stokes. It's very encouraging testimony, Mr. Chairman.

                       safety of school buildings

    Mr. Lewis. It is. Thank you, Mr. Stokes. Mr. Director, 
usually I would suggest that Members will have additional 
questions for the record and ask that you respond to some of 
those specifics that you mentioned if you supplement the record 
that you've already given to Mr. Stokes, so those questions 
will be appreciated.
    You remind me that it was the 1933 Field Act in California 
that was directed to address the question of safety of public 
buildings. I recall that a number of local governments over the 
years have struggled with the replacements costs of moving 
school buildings, tearing down old school buildings and is a 
direct reflection of that state action where the state 
legislators essentially said hey, we can't have these public 
facilities be in this condition and be used by the public over 
extended periods of time. It's not a new problem. We've been 
frightened with it for a long, long time. But I'm indeed 
impressed by the progress you see being made.
    Mr. Witt. You know, Mr. Chairman, and Members of the 
Committee, I am very, very concerned about our high schools, 
middle schools and grade schools because we have basically 
inherited a traditional stock of schools that was built many 
years ago. A lot of communities simply do not have the money to 
retrofit those school buildings to even meet life safety. You 
can look not only at the life safety concerns in the older 
university and public school buildings but also at the business 
continuity that would be impacted if there was a major 
disaster. You take a university like Berkeley, Mr. Chairman. 
The state now only puts about 12 percent of state funding into 
universities. The state helps them a little bit on structural 
retrofit on some of their buildings, but nothing has been done 
internally to ensure business continuity. You have 35,000 
students on any given day there at CAL-Berkeley. You have 8,000 
students housed at Berkeley. The rest of these students are 
housed in the communities surrounding the university. They're a 
major research institute for the federal government. If you 
have the Hayward fault go off, it's going to go right down the 
middle of their football field, and under the science lab. The 
economic devastation, plus the potential loss of life and 
injury is unbelievable. I was at Roosevelt High School in 
Seattle, Washington. They did structural retrofits at this 
school which is in an earthquake risk area. Previously, that 
school had nothing to help minimize the risk inside of the 
school. It had radiator heat, all the tanks were above ceiling, 
and their pipes were wrapped in asbestos.
    Mr. Stokes. I mentioned the 1930 Field Act in California. 
Where I served on the school board, we're replacing buildings 
of 1966 and 1967. It took that long not only to respond to the 
Act, but to afford the changes in the meantime. The technology 
as well as that which we know about architectural work, et 
cetera, have changed radically. This is a nationwide problem 
that deserves a lot of attention that involves education.
    Mr. Walsh, did you have a question?

                       impact on public utilities

    Mr. Walsh. I did. Thank you, Mr. Chairman. Looking back, we 
talked about the damage done. Another major impact to this 
storm, as you know, was the impact on public utilities, public 
and private utilities. And looking through the blueprint to 
respond to this disaster, it's very well done. I haven't had 
the chance to go all the way through it, but a number of 
options are listed for each industry or party. Looking at the 
section, page 6, it says HUD Community Development Block Grant 
program can supplement other federal assistance in repairing 
and reconstructing infrastructure, including privately owned 
utilities if the use of the funds meets program requirements, 
including a national objective or benefit to low and moderate 
income persons eliminating slums or blight by meeting urgent 
needs, posing an immediate threat to the health or welfare of 
the community where other financial resources are not 
available.
    Now what this suggests is that there may be some economic 
help or offset to utilities. It's been estimated that the 
losses in Maine were over $80 million; in New York, $160 
million; Vermont, $10; New Hampshire, $15 million. Is there 
precedent for that for the use of block grant funds or other 
federal funds to reimburse utilities?
    Mr. Witt. Congressman, I do not know. I would have to check 
with HUD to see what they've done and if they have done it 
before. I'll let you know.
    Mr. Walsh. This was HUD's contribution to the report?
    Mr. Witt. Yes. I'll be happy to check with them.
    Mr. Walsh. There is a meeting scheduled to discuss this, so 
if you have any further thoughts, I would be----
    Mr. Witt. I'll be happy to.
    Mr. Walsh. That's it, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Walsh. Ms. Kaptur.

                    participation in project impact

    Ms. Kaptur. Thank you, Mr. Chairman, very much. I welcome 
the Director and say I'm sorry I missed your formal testimony, 
but I've had a chance to read it. We had commissioners in from 
Ohio today and they are very persuasive. They wanted me to 
thank you and also your Agency for the help that they've 
received over the years in the acquisitions of sirens for 
warnings for tornadoes, which has really helped us on the 
western side of Ohio because they sneak across Indiana with 
very little warning. So we've made progress over the years on 
that.
    I wanted to ask you in the new initiatives that you are 
proposing on Project Impact and on the radiological work that 
you wish to do, which parts of the country will primarily 
benefit from those initiatives? Are there certain areas that 
are targeted, that are more in need than others?
    Mr. Witt. Every state will be part of Project Impact. We've 
gone out to the State Directors of each state and asked them to 
submit to us, through our regional offices communities that 
they feel are very high risk communities. In addition, each 
state should tell us what that risk is and how we can eliminate 
that risk in that community, working with them and the 
community and private industry. The States have come in with 
recommended communities. We hope that after we finish the 
report on March 31st that we'll be able to designate those 
other communities.
    Ms. Kaptur. I would be very interested to see in summary 
what the State of Ohio had submitted. I would be very 
interested in that. And also, perhaps, Michigan, because we 
share a lake front.
    Mr. Witt. Yes.
    Ms. Kaptur. And I think it would be helpful to me if one of 
your kind associates might be able to get back to us.
    Mr. Witt. Mike Armstrong is the guy who's going to be doing 
this with the states.

                reductions to state emergency management

    Ms. Kaptur. All right, thank you. I wanted to associate 
myself with the remarks of Mr. Hobson as well on the concern of 
the State of Ohio regarding, not the unworthiness of those 
initiatives, but the fact that the money for those is being 
taken from the allocations that had come to the States from a 
budget standpoint. If I look at the line items in the budget 
that is submitted and I see which areas are increasing and 
which areas are decreasing, we know that the State of Ohio's 
emergency management budget will be affected by about 10 
percent as a result of cutbacks proposed.
    Mr. Witt. We've tried to hold the States harmless in every 
year since I've beenDirector because I know the effect it has 
on the State as well as local emergency management. I was there. I used 
to work with Dale Shipley. Gary can give you a good idea of what the 
cuts actually are. I know $11 million looks like a huge cut, but Gary, 
why don't you share the details with her.
    Mr. Johnson. Ms. Kaptur, we were very conscious of the 
potential impact of this reduction. We looked at the amount of 
spending that was going into state grants from our Emergency 
Management Planning and Assistance appropriation, and compared 
it to our actual obligations under Emergency Management 
Planning and Assistance for fiscal year 1993 to our 1999 
request. In fact, compared to 1993 the overall appropriation 
request has realized a 20.05 percent reduction. The dollars in 
state grant money that flows to states, however, from 1993 
until the request has actually increased by 4.68 percent. 
Through the challenges that this Agency has faced with our 
emergency management planning assistance appropriation since 
Director Witt has been here, we've been very conscious of doing 
our best to protect the passthrough dollars to the states.
    Ms. Kaptur. Mr. Shipley--I'm glad the Director mentioned 
his name because he has written us and I apologize, I wasn't 
here for Mr. Hobson's questioning, but I would like to place a 
letter in the record from Mr. Shipley in which he indicates 
that this particular budget request because it reduces the 
current funding in state and local assistance by $11.4 million 
and require $8.3 million more than last year in state and local 
matching funds. That would create a difficulty in Ohio. He just 
says funding for our counties has not kept up with inflation 
and is significantly below the anticipated 50-50 cost share. 
Where he says local funding now accounts for 66 percent of 
funds expended and many Ohio counties have received no 
increased funding for up to 10 years. So he is asking us at the 
federal level here to request the restoration of the proposed 
$11.4 million reduction and pass a budget with a minimum of 
$109 million state and local assistance at least equal to last 
year and I have another piece of paper here that indicates that 
it would result in a--let's see, State of Ohio estimates it 
will lose $324,000 or about 10 percent of its federal funding.
    Mr. Lewis. Ms. Kaptur, I might mention while you weren't 
here for Mr. Hobson's questioning, almost the majority of 
Committee has asked similar questions. The Chairman has given 
the Director a letter from my entire California delegation. 
It's a great concern and very appropriate that you raise the 
question.
    Ms. Kaptur. All right, well, we certainly will----
    Mr. Witt. We will be happy to work with you.
    Ms. Kaptur. I don't know if Mr. Shipley has written the 
Agency or not.
    Mr. Witt. Dale Shipley and I talk.
    Ms. Kaptur. All the time.
    Mr. Witt. All the time.
    Ms. Kaptur. Okay. All right.
    Mr. Witt. Dale is NEMA's representative as head of the 
legislative committee for NEMA. He does a great job in his 
State, and he also does a great job working with us.
    Ms. Kaptur. And you do a great job.
    Mr. Witt. Thank you.

                                rep fund

    Ms. Kaptur. I did want to ask on this radiological 
initiative, exactly what is that?
    Mr. Witt. Gary, why don't you explain? He can explain it a 
whole lot better than I can since he's our CFO.
    Mr. Johnson. Thank you, James Lee. Ms. Kaptur, what we're 
proposing is a REP fund which is a departure from our current 
practice of financing the radiological emergency preparedness 
program. Heretofore, the Agency has sought funding under our 
Salaries and Expenses and Emergency Management Planning and 
Assistance appropriations. The current year estimate for REP is 
about $12.5 million split between those two appropriations. The 
Agency bills the utilities for the full cost of the program. 
The revenues coming in from the utilities are deposited in the 
Treasury as offsetting receipts. This particular proposal 
basically does the same thing, except the revenue being billed 
from the utilities is deposited directly into the REP fund and 
then, beginning in fiscal year 2000 or October 1, 1999, will 
directly finance the program. Any balances would be available 
until expended which also has the potential, through sound 
management of the program, of reducing the fees that we charge 
utilities over the long term.
    In addition, we believe that this will be very helpful 
particularly at the beginning of the fiscal year and there have 
been occasions where we've had difficulty in getting our 
appropriation on time be it because of a continuing resolution 
or what have you and we had to work with the utilities to be 
able to conduct the exercises and other activities that they 
perform that are related to licensing nuclear power plants. 
There have been times when we've had to adjust our schedules to 
be in accord with the timing of the appropriations for any 
given year.
    My understanding is that the utilities are very supportive 
of this because they invest quite a bit of money to prepare for 
those licensing exercises. This would be one advantage of a 
proposal to go with a REP fund.
    Ms. Kaptur. Now as far as the architecture of this program 
goes, we have a major nuclear power plant in our area. Do I 
take it that the largest share of funds are spent on the type 
of emergency management system that is set up, the concentric 
circles of--all fire and volunteer departments and regular 
departments that have to be brought in, so this is a continuing 
responsibility.
    Mr. Johnson. Yes.
    Ms. Kaptur. Relating to licensure and safety.
    Mr. Johnson. Yes.
    Ms. Kaptur. So this is not an account that will go down. 
This is an account that will----
    Mr. Johnson. The request goes up from the current spending 
of $12.5 million to about $12.8 million. That's an adjustment 
to take into account pay raise costs and so forth for the folks 
that staff this particular program.
    Mr. Witt. Our county dealt with this program all the time, 
at Arkansas Nuclear 1 and 2. This program is very, very 
critical working with the communities within that ten mile 
radius. It's very critical that we work with NRC on these 
exercises and the tests that we do. If the utilities fail an 
exercise then we have to go back and redo that portion of the 
exercise that they failed. This will give the program 
stability, and will give the power and light companies the 
opportunity to actually know what the budget is going to be.
    Ms. Kaptur. I wanted to just ask you, this is sort of an 
off the wall question, but I served on Foreign Operations so we 
got into quite a discussion last week with some of the 
Department of Defense officials about the safety of nuclear 
power plants in the newly independent states. I'm just curious 
whether in the Gor Tuchma talks or any of the work that we're 
doing to try to assure safety of nuclear power plant facilities 
in those states, including Chernobyl and other facilities built 
to the same specifications, if any way FEMA has been asked by 
the Administration to participate because of some special 
knowledge you might have?
    Mr. Witt. No.

                       structures in flood plains

    Ms. Kaptur. Thank you. On page 10 of your testimony, you 
talk about the 20,000 structures to date under your Project 
Impact be moved out of flood plains across the country as an 
accomplishment and doing this in conjunction with the flood 
insurance program. How many structures are there in the country 
in flood plains?
    Mr. Witt. There are a lot. Joann Howard is our Federal 
Insurance Administrator.
    Ms. Kaptur. Welcome.
    Mr. Witt. Joann, would you like to share that information?
    Ms. Howard. Well, we are running those figures down. My 
staff are looking to identify those structures that have had 
repetitive losses and to determine how many. We are pulling 
that data from the computers right now as we speak.
    Mr. Lewis. If the gentlelady would yield, I must say that 
in Southern California we have current disasters and past 
disasters. But probably the country's largest flood control 
project is the Santa Ana River project. It's $1.5 billion flood 
control project. No small piece of that comes from the fact 
that following the 1938 flood, which was a huge flood, there 
was a plain that went all the way down to the ocean through 
Riverside, Orange County, etcetera. Since that 1938 flood, 
there are at least 10,000 homes, businesses and otherwise which 
are located within that 100 year flood plain. So it is obvious 
that when this disaster is out of mind, we tend to want to go 
along with business as usual and the question you're asking 
is----

                communities eligible for flood insurance

    Ms. Kaptur. This gets me to my next question, Mr. Chairman. 
On these flood maps, and how much knowledge there is at the 
local level because we have a lake too. You have the ocean (of 
course). We have something that looks like the ocean if you've 
never been to the ocean, the Great Lakes. But I continue to be 
baffled by the local authorities who permit construction right 
up to the lake edge. I mean there's no diking. There's 
obviously, No one looking at MAPS at the local level.
    How far are you in your mapping project? Last year, you 
said you were halfway finished? I want to know is it digitized 
yet on the Internet? Not that there wouldn't be charlatans 
around no matter how many maps we produce, but I have a sense 
that there isn't a perception that the home buyer may not be 
making the wisest choice.
    Mr. Witt. Let me attempt to address part of that. We have 
over 19,000 communities that belong to the flood insurance 
program. To be part of the flood insurance program they are 
required to build to a certain standard and also have certain 
building codes. If they are not in compliance, if they're not 
enforcing those standards and those codes, then they are taken 
out of the program and you cannot buy any flood insurance.
    I don't know if the communities you're speaking of are in 
the flood program or not, but I'd be happy to check for you.
    Ms. Kaptur. May I ask this question? How many people will 
purchase homes in such areas even though they need flood 
insurance?
    Mr. Witt. If they buy a mortgage the bank or the lending 
institution is required to tell them that they are in a 100 
year floodplain, and that they are required to buy flood 
insurance for the life of the loan.
    Ms. Kaptur. And when you say 19,000 communities, you're 
talking about incorporated areas?
    Mr. Witt. Yes, incorporated areas.
    Ms. Kaptur. What if you're a township?
    Mr. Witt. Townships and counties can be in the flood 
program.
    Ms. Kaptur. I would love to know for Northwest Ohio which 
incorporated or unincorporated communities are member of your 
program and which are not?
    Mr. Witt. Congress set up the flood insurance program 
basically because people couldn't buy flood insurance.
    Ms. Kaptur. Right.
    Mr. Witt. They also designed the program, to have subsidies 
because they knew that there were low income people in high 
risk flood areas that would probably never buy flood insurance. 
But through relocations and elevations and getting housing 
stopped in those high risk areas, the program has been very 
successful.
    The program itself has probably saved the American 
taxpayers close to $800 million a year in disaster costs that 
would otherwise have been paid out without the program. The 
program is run from premiums and, theadministrative 
collections. Congress set it up where we could borrow money from the 
Treasury if we had a string of floods and we had a lot of claims come 
in. Yes, we have to pay that money back, plus interest. We're paying a 
loan back now.
    As a matter of fact, the Federal Government has made a 
pretty good amount of interest off us, $12 million this year. 
So that's pretty good.
    Ms. Kaptur. I know that my time is up, but very briefly of 
all the structures then that might exist in flood plains in the 
country, 20,000 is a terrific accomplishment, but it's probably 
less than 2 percent? Is that fair?
    Mr. Witt. The 20,000 we bought out have been because in 
1993 Congress passed an amendment to the disaster legislation. 
They increased the amount for mitigation from 10 percent to 15 
percent of all the dollars we spend across the board on the 
public assistance program. By working with the state and local 
communities to target these flood communities, we've been able 
to on other federal dollars, from EDA and others, to get the 
biggest bang for the buck for the communities, and been able to 
put that land back in open land use management where they can 
never build back in there again. That's what we've been able to 
do.
    We could probably triple that amount, if we had the money, 
but we just don't have that money.

                          digitized flood maps

    Ms. Kaptur. On the digitized maps, last year you said you 
were half complete. This year, how far are we?
    Mr. Armstrong. We have a 5 year plan that moves towards 
digitization as one option. I don't have an exact number for 
you. We have an inventory of maps. More than 22 percent of the 
100,000 map panels are over 15 years old; so we have a number 
of maps that are quite old that we need to bring up to speed.
    Ms. Kaptur. Is any of this up on the Internet?
    Mr. Armstrong. Not yet. That's part of our mapping 
modernization proposal for a comprehensive remapping program as 
discussed earlier, which will cost just short of $1 billion. 
It's a high priority item, without question, but among other 
priorities.
    Ms. Kaptur. Over what time period, Mr. Chairman?
    Mr. Witt. Five year period.
    Ms. Kaptur. Thank you.
    Mr. Lewis. Thank you very much for your questions and it's 
a very important subject area. You remind me that in Southern 
California besides all those other houses I talked about, both 
Disneyland and Anaheim were in that 100 year flood plain.
    But also, I'm reminded, Ms. Kaptur, that one of my first 
recollections while serving in Congress was going with a 
business and community leaders in Needles, California, a small, 
working man's blue collar town and passing out applications for 
flood insurance because the Colorado River was rising to the 
point where they were facing disaster. In those days, you could 
implement flood insurance in three days, rather than a longer 
waiting period now. But nonetheless, average people living a 
couple miles from a river, unless threatened by this, 
challenged the need for flood insurance.
    Mr. Price.

               deadline for pre-disaster mitigation plan

    Mr. Price. Thank you, Mr. Chairman. Mr. Administrator, I'd 
like to add my welcome to you and your colleagues. Thank you 
for being here this morning and also for the good work you're 
doing, particularly your continuing work in North Carolina in 
dealing with the aftermath of our September 1996 disaster, 
Hurricane Fran; something we're still contending with.
     First, I'd like briefly to revisit the matter you were 
discussing with Mr. Stokes, just a couple of quick followup 
questions there about this comprehensive long-term national 
predisaster mitigation plan that you have underway. I'm glad to 
hear that you are actively involving the nongovernment and 
academic partners in that enterprise.
    Could you just elaborate your answer a bit in terms of your 
estimated ability to meet that March 31 deadline and also the 
instructions you've given this panel in terms of work product 
they ought to produce in fulfilling the congressional mandate 
to develop a comprehensive long term national predisaster 
litigation plan?
    Mr. Witt. We have, I think, a very good panel that's 
working on this. They have gone through the first phase and are 
continuing to develop the plan. I think they will meet the 
deadline. Mr. Bernstein, who is chairing this group, also 
chaired the Committee for National Earthquake Hazard Reduction 
Program which is a tremendous help. The panel members are doing 
this on their own time without pay because they're interested 
and they're concerned.
    Mike Armstrong has been working with the Committee on this, 
and has asked the Committee to look at all aspects of 
predisaster mitigation, and also look at what else we may need 
to do in other areas to help mitigate future disasters. There 
is a possibility that some of our partners in the Federal 
Government that do a lot of research might also work with us in 
helping us research what steps may be necessary in the future 
to take for predisaster mitigation. We're looking at the broad 
scope of things.
    Mr. Armstrong. The panel is really being asked to look at, 
as the Director said, all the different options that are out 
there. We want to incorporate the work of research teams, and 
studies being conducted in the academic communities. The 
problem is there are so many good things that are occurring out 
there that there is only enough money to partially fund some 
things that we think might be helpful.
    The panel is designed to give us the best advice they can 
on how to maximize the federal dollar and also how to identify 
other sources as well.

                         north carolina appeal

    Mr. Price. Fine, thank you for that elaboration. We look 
forward to that document. Thank you.
    I'd now like to turn to a matter directly related to 
Hurricane Fran and of the continuing work in North Carolina to 
work with that disaster. My office has been in contact with 
your office regarding an appeal that a subdivision in my 
district has filed, so I'd like to just focus on that for just 
a minute.
    Before Hurricane Fran came through and destroyed the sewer 
system in the Hollybrook subdivision outside of Raleigh, the 
owner of this system went bankrupt. I'm not going to go into 
the details of this case, just the bare outlines.
    This had led the North Carolina Public Utility Commission 
to take over that system prior to the disaster. Now as I 
understand this dispute, the question of how to interpret North 
Carolina's laws seems to be where the confusion lies. Sometimes 
people in Government are all too quick to deny responsibility. 
In this case, the opposite is occurring. Thestate is saying 
that this sewer system was their responsibility when the disaster hit 
and therefore is eligible for FEMA funding and that, of course, is the 
key issue.
    It would then follow that the lien FEMA has placed against 
the Hollybrook community for pump and haul and treatment 
services should be removed. To date, however, FEMA has not 
agreed. I understand this matter is now in the third appeal 
stage. I hope that you are going to review it carefully. This 
will be a serious review, dealing with the merits of this case. 
I'd like to have assurance from you on that and also some 
estimate about whether the 400 citizens of this Hollybrook 
subdivision can expect a final decision on this matter by the 
end of March or thereabouts?
    Mr. Witt. Congressman, I'm aware of the appeal and I know a 
little bit about the sewer system. The third appeal just came 
into my office yesterday. I will be reviewing the appeal 
personally, and I will be happy to get back with you, hopefully 
before the end of March.
    Mr. Price. Good, well, I really appreciate that, 
particularly your willingness to take a personal look at this. 
I think we have, if the issue is North Carolina law, I think we 
can assure you we have a full bank of attorneys and state 
officials willing to assist you, willing and ready to assist 
you. We do need to get this resolved. It's, of course, of great 
importance to the citizens involved and also to our State. I'm 
grateful for that. Again, we thank you for the attentiveness 
that our State has had from you in the aftermath of this 
disaster.

                      project impact in wilmington

    Mr. Witt. Congressman, let me tell you a story. Wilmington, 
North Carolina is a Project Impact pilot community. The head of 
General Electric Corporation there, one of your larger 
employers, he said that they had gone in and retrofitted their 
plant to meet a hurricane risk. He said that within a matter of 
hours after Hurricane Fran, they were ready to reopen their 
plant and go back into operation, but they forgot one thing--
they forgot about their employees. So they joined up as a 
partner in Project Impact to help their employees put a 
prevention program in their own homes. We had a different 
company that joined up because their employees were in a high 
risk flood area. They've gone as far as paying for half of the 
flood insurance premiums for the first year to help their 
employees. So prevention efforts are really catching on and 
working well.
    Mr. Price. That's very encouraging to know. I appreciate 
again for all the moral and material support you've been 
involved in.
    Mr. Witt. Thank you.
    Mr. Price. Thank you. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, you Mr. Price. Mr. Frelinghuysen.

                      changes in flood control act

    Mr. Frelinghuysen. Just to revisit for a minute, Mr. 
Director. You've collected a vast amount of information on 
flood insurance issues in cases and you probably have the most 
unique perspective from a human disaster situation. I just 
wondered whether you might at some point in time for the record 
make the recommendations for possible changes to the Flood 
Control Act of 1994. That was the last vehicle out of town. I 
understand there's some jurisdictional issues of the EPA. A lot 
of good work has been done on flood plain management. Every 
state and region has a history that may be slightly different, 
but I do think just seeing your budget, each and every year, as 
one of your programs to continue mitigation insurance to give 
people the financial ability to rebuild their repetitively 
flooded or substantially damaged, etcetera, etcetera, I mean in 
reality, $20,000 is a drop in the bucket. It's extremely 
commendable. But I just--I'd like to see, quite honestly, a 
more proactive, some proactive suggestions, building on what 
you have. When we be talk about actual disasters, it's better 
when somebody, let's say from the Environmental Protection 
Agency and if any of those people are here, I don't mean to 
offend them, some heavy hand because I do think that there 
are--it's more an issue of land use than it is coming up with 
more money and that is obviously part of the overall equation, 
but there are some land use decisions in some areas which 
certainly have contributed to, I think, some very high costs in 
this program, as much as we're obligated to fulfill them and I 
think morally we do have an obligation.
    I'd like to see some possible suggestions or changes to the 
law.
    Mr. Witt. Let me comment on that. And you're absolutely 
correct. Joann Howard and her staff are currently looking at 
what we can do in the flood insurance program to see, what we 
can recommend to Congress in legislative language to change 
that program, to make it a better program, and to do something 
the repetitive loss area.
    Tom Brokaw and I talked several times about the ``Fleecing 
of America'' story he did. I was very upset with him about it 
because of the fact that he said, ``This is your tax dollars.'' 
Those are not tax dollars. This is a program that is funded by 
insurance premiums. This program is very important; it's very 
critical. We always get criticism saying that because of the 
flood insurance program it is causing development on the coast. 
That's not so. I have had that comment made to me many times.
    In coastal areas, the program has strengthened the 
construction that would have been built on the coast regardless 
of whether the program was in place or not. When Hurricane Opal 
hit the Florida panhandle, Senator Connie Mack and I went there 
together. Just recently we were talking about how you could 
clearly see when you flew up the coast after the hurricane that 
the structures that were built after they joined the flood 
program were still there, undamaged, or with minor damage. All 
the structures that were built before the program was put in 
place were destroyed.
    It was very clear. The program is a good program, but 
you're right about the repetitive losses. We need to give 
Congress some information and some language that we can work 
with you on. We're doing that.
    Mr. Frelinghuysen. I thank you for your efforts and I do 
think that is, as always, a public perception issue out there 
and we have major television networks concentrating. They 
obviously have to educate the public, but I think major work 
has been done. I think you're to be commended and I would urge 
you on to do further work. Thank you.
    Mr. Witt. You're welcome.

                           seismic technology

    Mr. Lewis. Thank you, Mr. Frelinghuysen. Concerning just 
that area a bit, the need for more education, but advancing 
technology and information that it is or should be 
available,included in the budget is a new initiative to upgrade, expand 
and disseminate seismic rehabilitation manuals and handbooks to design 
professional and building regulatory officials. How many years do you 
expect will be required to complete that initiative?
    Mr. Witt. Mr. Armstrong, would you like to answer that?
    Mr. Armstrong. That phase of our seismic program to which 
you are referring is expected to be completed by the end of 
1999.
    Mr. Lewis. Running a bit to additional technology and 
information, what efforts are undertaken by FEMA to insure that 
new technology, as well as information available is included in 
the professional training of architects and engineers?
    Mr. Witt. We share information and technology, across the 
country with architects and engineers. One of the critical 
areas that we're focusing on right now is steel moment frame 
buildings. President Clinton made available over $6 million out 
of his contingency fund because of the failure of some of the 
steel moment frames, caused by the Northridge and Kobe 
Earthquakes. We have completed the first phase of that study 
and hope to have the second phase of that study in 1999. We're 
doing testing now on the joints of the steel moment frame 
buildings and I think with the input that we've received from 
the professional community in this study it's going to be very, 
very good.

                   CENTER FOR EQ ENGINEERING RESEARCH

    Mr. Lewis. What role does FEMA play in the National Center 
for Earthquake Engineering Research which was funded by the 
National Science Foundation?
    Mr. Johnson. In Buffalo? In Albany?
    Mr. Lewis. For earthquake engineering research. This is 
located in Buffalo. It's funded by the National Science 
Foundation which seemed that there's some linkage that ought to 
be there.
    Mr. Johnson. Mr. Chairman, I believe that we do provide 
limited funding support working with the National Science 
Foundation. We have in the past. I think that Mike could 
probably confirm that and follow-up for the record. We have 
supported that.
    Mr. Lewis. I remember California was in competition for 
that center and didn't get it.
    Mr. Johnson. Mr. Chairman, I remember it well. In my old 
days, I worked in the earthquake program.

                          HURRICANE STANDARDS

    Mr. Lewis. Under the National Hurricane Program, 24 states 
and territories prone to tropical storms are encouraged to 
develop and apply appropriate building standards. How many of 
those 24 states and territories currently have appropriate 
building standards?
    Mr. Witt. Since we did the self-assessment of those states 
back in 1993, which looked at how well we were prepared, at the 
state and local levels and if we had the codes we needed in 
place to help prepare communities, I have seen more done in the 
area of the coastal states than I had at any time before. 
Florida has done a fantastic job in developing its codes and 
also enforcing those codes which are so critical.
    The states have come a long way in a short time in this 
area.
    Mr. Lewis. Can you be more specific?
    Mr. Witt. I can't, but I can get you a number.
    Mr. Lewis. Maybe for the record, you can elaborate on that.
    Mr. Witt. Yes.
    Mr. Armstrong. There are 19 states that are insured to be 
high hazard hurricane areas. Of those states, 11 have some sort 
of uniform code. Three of those states have adopted uniform 
codes for the exempt single family structure. There are four 
other states that either are close to developing uniform codes 
or else most of the communities in those states have adopted 
uniform codes. Only one state has not adopted a uniform code, 
but the communities have adopted some sort of higher code.
    However, we are also starting to work toward a merger of 
several of our international code systems which should be in 
place by the year 2000.
    Mr. Lewis. I'd appreciate it if you'd help us by indicating 
which states make up those 21 states and territories and maybe 
if you would, I'd like to note further which, if any of those 
states or territories have experienced hurricanes or tropical 
storms in the past couple of years, if it required a FEMA 
response?
    Mr. Witt. We worked with the Virgin Islands and their 
legislature in helping them to pass legislation for stronger 
building codes and standards there too.
    Mr. Lewis. Which illustrates the point.
    Mr. Witt. Yes.
    Mr. Lewis. Mr. Stokes.

                COUNTER TERRORISM/ANTI-TERRORISM FUNDING

    Mr. Stokes. Thank you, Mr. Chairman. Mr. Witt, what is 
FEMA's total effort requested for 1998 and 1999 for counter 
terrorism and anti-terrorism?
    Mr. Witt. About $6.7 million for 1999.
    Mr. Stokes. If I use these terms interchangeably, do you 
make a distinction between counter terrorism and anti-
terrorism?
    Mr. Witt. $6.7 million.
    Mr. Stokes. Between $6 and $7 million?
    Mr. Witt. Yes.
    Mr. Stokes. With reference to the terms I've used, do you 
use those terms interchangeably, or is there a distinction?
    Mr. Johnson. There is a distinction between anti-terrorism 
and counter terrorism.
    Mr. Witt. We're talking about the domestic terrorism.
    Mr. Johnson. That's correct. FEMA performs consequence 
management activities. I think the Administration is beginning 
to adopt new definitions for anti-terrorism and counter 
terrorism. We can explain to you what we're doing in counter-
terrorism, versus anti-terrorism.
    Mr. Witt. The consequence management responsibilities that 
we have working with Justice, where they have the lead,is part 
of our Federal Response Plan for situations like the Oklahoma City 
bombing, where there's a response to a situation where you have a 
criminal act and you have a disaster at the same time. This could 
logistically happen with the terrorist acts.
    Mr. Stokes. But does counter terrorism mean something 
different?
    Mr. Witt. No sir. The counter terrorism program is a little 
different than what we do in the anti-terrorism program. 
Consequence management deals with counter terrorism activities 
that we're responsible for. The anti-terrorism program is for 
domestic terrorism such as that under the Nunn-Lugar Act. We 
don't have any funding specifically from Nunn-Lugar.
    Mr. Stokes. I see. Let me ask you this. Can you explain to 
us the different efforts relating to terrorist incidents 
depicted in the preparedness training, and exercise activity 
and the response?
    Mr. Witt. The difference in the terrorism training and the 
response?
    Mr. Stokes. Different efforts that are related to terrorist 
incidents that are depicted in your preparedness training, and 
exercises and technique, and your response in the recovery 
activity.
    Mr. Witt. Recovery activity of a disaster?
    Mr. Stokes. This is more about the budget activity.
    Mr. Witt. Okay. Kay Goss, who is the Associate Director for 
Preparedness, Training, and Exercises is here, and she might 
want to speak on this part of the Preparedness Training and 
Exercise program. Also, Lacy Suiter, the Executive Associate 
Director the Response and Recovery can talk about the part that 
is under the Response and Recovery side of it, such as in the 
Federal Response Plan. He is responsible for the Federal 
Response Plan.
    Kay, do you want to talk about the exercise program?
    Ms. Goss. Yes. Initially, in the planning area we are 
extending the State and Local Planning Guidance to include 
counterterrorism planning. We are also publishing exemplary 
practices in emergency management. We are adding new courses 
all the time in our training area at our Emergency Management 
Institute in Emmitsburg, Maryland. We are also offering master 
trainers, and are handing off training to state local 
officials. We conduct exercises throughout the country at each 
of our ten regional offices. So that's an overview of what we 
do in the pre-disaster preparedness area.
    Mr. Witt. The R&R request for counterterrorism is about 
$995,000. Also, Congressman Stokes, we have about $2 million 
that is funded through the U.S. Fire Administration for their 
terrorism program. Those are grants that go directly down to 
the states.
    Mrs. Brown. We have a four phase training program we are 
developing with the Department of Justice. It's an excellent 
program.
    Mr. Stokes. Very good.
    Mr. Lewis. Ms. Brown, could you identify yourself for the 
record, please?
    Mrs. Brown. Yes, I'm Carrye Brown, Fire Administrator at 
FEMA.
    Mr. Lewis. Okay, thank you. Ms. Brown and Kay Goss.
    Do you want to have Mr. Suiter respond?
    Mr. Witt. Do you have anything to add?
    Mr. Suiter. Well, the Federal Response Plan covers the 
reaction of the federal family to a terrorist incident. The FBI 
is the lead federal agency in the whole process, and sets the 
criteria by which the federal family would respond to the 
consequence management call. They handle the incident 
management side of it at the scene of the event. We have our 
own recovery process.
    There are several plans and operating procedures all 
underway governing how the federal family will respond.
    Mr. Stokes. What part of the budget does that represent?
    Mr. Suiter. $995,000.

                                Closing

    Mr. Stokes. Director, I thank you very much and as I said 
earlier, it's always a pleasure to have you appear before this 
subcommittee. Well-functioning administrative agencies receive 
the kind of accolades that have been accorded you at this 
hearing and obviously it's well deserved.
    Mr. Witt. Thank you, sir. We want to thank you for all your 
help, and I want to personally thank you for your guidance when 
I first met with you in your office. Mr. Chairman, he said 
we've got to get a picture of this and that was in 1993.
    Mr. Stokes. I've still got that picture.
    Mr. Witt. I do too. He was kind enough to autograph that 
for me and we all want to thank you.
    Mr. Lewis. Mr. Director, as Mr. Stokes has indicated, this 
is a very unusual circumstance. I wonder if I could take an 
unusual step if my colleagues don't mind. Ms. Witt, will you 
stand up, please? Will you step up here right next to your 
husband?
    I want to express the appreciation for this entire 
committee, but also for the Congress for the fabulous job that 
you have done and extend that to all the members of your staff 
who are present. It's been a great experience for us to see 
this Agency develop in the fashion that it has over these years 
and Lea Ellen deserves a lot of the credit because she's 
allowed you to go out to California and other places all over 
the country and we want you to know, Ms. Witt, that we are very 
proud of the work that your husband is doing I think the public 
needs to be reminded one more time that the 1999 budget 
proposal involves $844 million plus dollars in terms of the 
fundamental budget, but also there's a supplemental of 
$2,250,000,000 in essentially what used to be called 
supplemental requests. Recognizing that we had a pattern here, 
$3 billion is for the year that's ahead of us that involves 
potential needs for disaster purposes. It's a very important 
federal responsibility, but I must say if we could get the rest 
of all of our agencies that the Appropriations Committee has to 
deal with to respond in a similar fashion, I think the country 
would be better off and it might even cost less money as we go 
forward. Unless my colleagues have additional questions, this 
has been a very worthwhile and I think productive session. We 
appreciate your being with us and the meeting is adjourned.


[Pages 67 - 471--The official Committee record contains additional material here.]



                                          Wednesday, March 4, 1998.

                    CORPORATION FOR NATIONAL SERVICE

                                WITNESS

HARRIS WOFFORD, CHIEF EXECUTIVE OFFICER

    Mr. Lewis. The meeting will come to order. Good morning, 
ladies and gentlemen. Senator Wofford, it is a pleasure to 
welcome you. Senator Wofford, we are welcoming as the Chief 
Executive Officer of the Corporation for National Service and 
he will be presenting to us this morning the testimony and 
recommendations regarding the Corporation's budget for fiscal 
year 1999.
    For the record, I wanted to just outline that in 1997, the 
actual appropriations for the Corporation were $402,500,000. 
There were FTE in numbers of 196. The 1998 appropriation was 
$428,500,000, with an FTE of 227. The 1999 request is for 
$502,316,000, the same number of FTE as the previous year, the 
difference being an increase of $73,816,000.
    Senator Wofford, we understand most of the reasons for 
adjustment in requests. In the meantime, I would hope that you 
would feel comfortable presenting your entire testimony for the 
record. Give as much of it as you like either in summary or off 
the top and the members will have questions for you regarding 
the programs involved. So welcome.
    Mr. Wofford. Thank you, Mr. Chairman.
    Mr. Lewis. Before you go on, though, you have a very, very 
good friend who has announced that he is not going to run for 
reelection in 1998 so he will not be with us the next time you 
testify before the Committee. I would like to call on that 
friend, Louis Stokes, for any remarks he might want to make.
    Mr. Stokes. Thank you, Mr. Chairman. I do not have any 
formal opening remarks. I just wanted to extend to Mr. Wofford 
our appreciation for his appearance here again. It is always a 
pleasure to welcome him here and to hear his testimony and I 
look forward to his testimony on this occasion. Thank you.
    Mr. Lewis. As you begin, Senator Wofford, I want to mention 
to those who are present that we had planned to have a break in 
the middle of our testimony and come back this afternoon. I 
think probably what we are going to do instead is just to go 
right through the process. We could finish earlier than you 
might have anticipated as a result of that, but we did that 
yesterday and it seemed to work. Mr. Wofford?
    Mr. Wofford. Mr. Chairman, thank you.
    Congressman Stokes, I salute you for everything you have 
done for national service in the broadest sense, including the 
Corporation for National Service. You have played a role in 
this in the highest office of public citizen and you are going 
back to a front-line place.
    Mr. Stokes. Thank you, Senator.

                             oral statement

    Mr. Wofford. Mr. Wicker and members of the Committee, let 
me begin by thanking this committee for the support last year 
which helped make 1997 such a success for national service. My 
written statement details our progress on many fronts. There 
are only four, I think, I want to note and then turn to another 
critical subject.
    Our work in disaster relief. AmeriCorps members are serving 
right now in California and Florida with the Red Cross and with 
FEMA. I saw them in action last week in California with James 
Lee Witt, who spoke glowingly of the outstanding work that they 
are doing with FEMA not only in disaster relief but in 
prevention of disasters and helping to make buildings and 
communities disaster-proof.
    Mr. Lewis. I might mention that James Lee Witt was before 
us yesterday, and among other things, Mr. Witt, who is a great 
person, has never seen a friend he did not like. [Laughter.]
    Mr. Wofford. With that footnote, which I will keep in mind 
the next time I am with James Lee.
    Secondly, our partnership with Habitat for Humanity, where 
some 500 AmeriCorps members are serving this year. I renew our 
commitment to help carry out the project that you initiated, 
Mr. Chairman, to build a Habitat home in every Congressional 
district. It is a wonderful project and our national service 
network is rallying all over the country to its support.
    Third, the rapid growth of our education awards program to 
about 14,000 new low-cost AmeriCorps positions with nonprofit 
and faith-based groups. It is a model of how national service 
can grow in effectiveness in the private sector while 
drastically reducing the per-member cost.
    And our progress and plans for America Reads--fourth 
points--including more than 3,000 AmeriCorps members who will 
begin serving in local literacy programs this summer and fall, 
thanks to the resources that you provided last year.
    My oral testimony, however, will focus not on these items 
of extraordinary progress in some areas and great breakthroughs 
this last year but instead on our management and auditability, 
a primary concern for this committee, for the Corporation, and 
for me. The immediate challenge is to produce auditable 
financial records. Our objective is an unqualified opinion on 
our fiscal year 1998 financial statements. We are determined to 
reach that objective.
    Today, I can report that we have corrected a great majority 
of the specific problems identified by prior auditors. We have 
also made many other improvements to strengthen overall 
management of the Corporation, but we still have work to do.
    To complete that job, we have enlisted the active 
assistance of the top management team of the Office of 
Management and Budget. Together, we have drafted a plan and a 
timetable for making the necessary management improvements. Our 
action plan covers five broad areas. Let me describe what we 
have done and our plan for completing the job under each of 
those items briefly.
    First, improving recordkeeping of the National Service 
Trust is crucial. There are now some more than 90,000 people 
who have been enrolled in that trust and we will be passing the 
100,000 mark before long. We have already consolidated the 
staff and centralized the functions of the trust within the 
Office of the Chief Financial Officer. Now the most important 
step is to install a new digital imaging system to enter new 
enrollments and clear up discrepancies related to the old 
records. This system will be online this fiscal year.
    Second, in cash reconciliation, we have made major changes 
to assure the accuracy of our financial records. We have made 
software improvements and established an automated link between 
our financial system and the external system that handles the 
obligations and expenses of grantees. By August of this year, 
we will be reconciling cash to each of our two appropriations 
on a monthly basis and clearing identified items in a timely 
manner.
    Third, in the critical area of grants management, we have 
significantly improved the way we track and monitor grant 
funds. We have increased controls over grant obligations 
andimplemented new procedures for approval of expenses. By April, we 
will have in place procedures to review grantees' records of AmeriCorps 
members' service hours. We will incorporate these procedures into our 
next round of program site visits. We are also establishing new 
practices to strengthen our recordkeeping regarding grant receivables 
and payables.
    Fourth, in the area of budget and funds control, the 
Corporation has instituted a procedure to protect against over-
obligation of grant funds. No grant now is issued until it is 
physically entered into the general ledger by the accounting 
staff. We are working, I should emphasize, under the 
limitations of our current inadequate information management 
system. We will permanently solve this problem when we install 
a new financial management system in fiscal year 1999.
    Fifth, as other financial controls, we are issuing new 
policies with respect to a range of functions, including 
procurement, payroll, and enhanced oversight of budget 
commitments.
    Mr. Chairman, we will be vetting this plan with OMB, which 
will be an active partner in its implementation, and with our 
active and very helpful Inspector General Luise Jordan who is 
here with us today. We will submit a detailed and realistic 
plan to you by March 18 and will report to you on our progress 
every 60 days thereafter.
    To carry out this plan in a timely manner, we need your 
help. You gave us that help last year. Your committee was 
generous with administrative funds, but as you know, we did not 
ultimately receive our full request. This year, we need full 
funding of our request for administrative funds, and once you 
have had the opportunity to review our plan, we would like also 
to work with you to obtain reprogramming flexibility to address 
critical needs of the Corporation, especially the management 
issues that I have been discussing.
    Solving these management problems is essential to the 
success of our programs. Whether building Habitat homes, 
tutoring children to read, running after-school programs, 
assisting victims of disasters, AmeriCorps members and the 
people they serve depend on our success in achieving and 
maintaining sound management of the Corporation. With your 
continued focus and your continued support, I am confident that 
we will reach the level of excellence that you and we all seek. 
Thank you, Mr. Chairman.
    [The statement of Harris Wofford follows:]


[Pages 477 - 520--The official Committee record contains additional material here.]



    Mr. Lewis. Thank you very much, Mr. Wofford.
    I would like to open my questioning process not by a 
question but rather a comment. You may be aware that the House 
that Congress Built Project is expanding across the country in 
terms of member interest. We are now somewhere at the 200-
member level in terms of commitments of building homes in 
districts across the country and some considerable effort is 
being made at this moment to make people aware who have not 
been aware of this project.
    I must say that Habitat for Humanity has been tremendous 
out there in its response. But the partnering that is a part of 
this whole process is very impressive and we have broken ground 
in the West, Mr. Stokes, just recently in Apple Valley, 
California, with the first groundbreaking for such a piece of 
that project in a small community on the desert side of 
California. There is a lot of interest and it does cut across 
the board in terms of public and nonprofit as well as business 
interest in communities as I have experienced it thus far. I am 
very excited about its prospect and do appreciate your interest 
and cooperation, as well.

                         americorps and habitat

    Mr. Wofford. Habitat for Humanity, Millard Fuller and his 
colleagues have suggested that I send to our whole national 
service network, which goes beyond the AmeriCorps members to 
the senior RSVP program of 450,000 volunteers and to our whole 
network of local agencies and to our State commissions, a 
letter calling on them to offer their help in each of those 
districts where you are operating and to help in some districts 
where you have not started.
    I assure you that from the National Civilian Community 
Corps, General Chambers is here, across the board we are giving 
top priority to those programs, including spring break 
projects, where AmeriCorps members in Lynchburg and elsewhere 
are going to be organizing college volunteers, running the 
sites, organizing the youth including hundreds of college 
volunteers for Habitat blitz builds.
    Mr. Lewis. The very natural linkage between the fundamental 
force behind your work and this project is obvious to anybody 
who looks, but I find it very interesting at the local 
community level, the kind of response that we are getting.
    Mr. Wofford. Mr. Chairman, it was interesting that 
originally, Millard Fuller, the founder of Habitat, was 
doubtful about seeking Federal resources for this. His board 
very much felt the need of full-time people, such as the 
AmeriCorps members could be. He went along, but with a lot of 
doubts. As you may have noted from the letters he has written 
to Speaker Gingrich and Senator Lott, he has become a 
tremendous supporter and he has asked for more and more.
    He sees the combination of full-time service with unpaid 
traditional volunteering as crucial. They select and recruit 
these AmeriCorps members that work with them in their projects. 
They tend to select people that have already been volunteers, 
and then they have a cadre of leaders. As you saw when you were 
at the first houses that Congress built, as in the previous 
blitz here, the team of AmeriCorps people in the District of 
Columbia last summer were the mainstays of the organizing of 
that site and assisting various members of Congress and me and 
others in knowing what to do.
    Mr. Lewis. I am very intrigued by, and you and I have not 
talked about it for a while, Mr. Stokes, but as you know, 
Fannie Mae was leading the private sector with a $1 million 
contribution. Freddie Mac has now made a similar contribution 
to this project and others in the private sector are beginning 
to respond, so I think there will be some funding base that 
will stimulate what happens in volunteer groups, nonprofit 
groups, and organizations like Habitat in these communities.
    Mr. Stokes. If you would just yield to me for a moment, 
when Senator Wofford mentioned our working on the two houses 
that Congress built here in the District, we did get a chance 
to see these young AmeriCorps volunteers in operation, out 
there working alongside those of us who were out there trying 
to find out what we were doing, many of them having the 
expertise to tell us how to do what we were trying to do.
    Mr. Lewis. Yes, we were trying to find out what we were 
doing. [Laughter.]
    Mr. Stokes. But it was good to see in operation how these 
young volunteers are working on these type of projects. I share 
with you the experience you must have had with Apple Valley, 
where you saw this being carried forth out there. I am looking 
forward to our doing this out in Cleveland, too.
    Mr. Lewis. I hope to join you, perhaps.
    Mr. Stokes. And I look forward to having you.
    Mr. Lewis. You keep inviting me, but I never quite get 
there.
    Mr. Stokes. That is right.
    Mr. Lewis. Mr. Wofford, last year, the Chairman of the 
House Education and Workforce Committee strongly opposed any 
legislation earmarking funds in the VA/HUD appropriations bill 
for the America Reads program. The conference agreement did not 
include any bill language earmarking funds for America Reads 
but the joint statement of the managers indicated $25 million 
was included for literacy and monitoring activities. How is the 
Corporation interpreting that conference report language and 
how will it be implemented?

                     americorps and child literacy

    Mr. Wofford. First, Mr. Chairman, it is important for you 
to know that children's literacy has been a matter of very 
active involvement and leadership by AmeriCorps from the 
beginning. One of the most notable projects in the country in 
elementary children's literacy was a project in Kentucky, Slice 
Corps. It has had remarkable results. When I arrived, I found 
that two-thirds of our AmeriCorps assignments were dealing with 
children and youth and thousands of AmeriCorps members were 
organizing or participating in tutoring programs. In fact, you 
have an attachment to the testimony of just one selected 
project in each State where we are involved in children's 
literacy.
    Secondly, you should appreciate that the America Reads goal 
was being set by mayors and governors before the President 
raised it to a national level, quite rightly and boldly. 
Governor Bush of Texas, six months before the President's 
speech, proclaimed the clearest, most profound goal of Texas 
was to see that every child learns to read by the end of grade 
three and then reads to learn. Boston Reads, Baltimore Reads, 
Houston Reads were all underway before there was what is called 
the America Reads initiative.
    Now, since the national campaign was launched by the 
President, many, many more communities have galvanized their 
forces. In almost all of those communities that I know of, from 
Houston Reads, whose launch I attended with Barbara Bush, they 
have called on AmeriCorps, our senior programs, our Learn and 
Serve programs, to be key parts of their local initiatives. The 
additional resources you gave us for children's literacy 
enabled us to play a valuable and even crucial role in many 
communities in this country in developing their local 
initiatives to America Reads.
    There was a lot of misunderstanding, in my opinion, about 
America Reads because of the boldness of the President's 
proposal and his setting a goal that we see that every child 
reads by the end of grade three and calling for a million 
volunteer tutors. It probably gave the impression this was to 
be some great organized Federal program that organized a 
volunteer army of one million tutors. From the beginning the 
essence of it has been local and State initiatives, and 
community-based, university-based, and school-based literacy 
programs.
    Our resources have enabled them to flower. Among other 
resources--the summit of General Powell and the Presidents in 
Philadelphia and the America's Promise campaign have 
contributed. That is part of the report that every child have 
an effective education. The rallying of those forces is 
underway.
    Now, the bill that was passed in the House has not passed 
the Senate. Whatever bill emerges will, in some significant 
way, enable the Education Department to be a fuller partner in 
this program. I hope a bill passes and I hope the bill includes 
the many good things in the House bill about teacher training 
and building on Congressman Goodling's parental elementary 
tutoring project called Even Start, in which we are very 
active. I hope that Congress acts this year but we are moving 
ahead full speed as part of these local initiatives all over 
the country.
    Mr. Lewis. Senator, as you are very aware, there are two 
bodies in this place, the House and the Senate. I think you do 
know that from time to time the House does pass bills that the 
Senate actually ends up not passing. [Laughter.]
    Indeed, you also know that this bill involves a variety and 
mix of interests, all the housing programs, programs that 
relate to the veterans medical care system, NASA, the National 
Science Foundation, a variety and mix. But you may not know 
that 85 percent or more of our bill is not authorized. Indeed, 
if we were to not appropriate funds for programs that are not 
authorized, we would not fund housing for the disabled, housing 
for the elderly, any number of programs. Nonetheless, we are 
instructed, directed by the Speaker and others, especially by 
individual chairmen, that we ought to be very sensitive to 
authorizing chairmen.
    I think you know what my views are about America Reads and 
the potential of some of those programs. In the meantime, 
though, when you have the House Education and workforce 
Committee Chairman saying that you should not earmark x, I am 
asking you how you interpret our language----
    Mr. Wofford. Oh, I am sorry, Mr. Chairman. I did not focus 
precisely on that because his remarks in the committee report 
that I am aware of were related to this bill that is going 
forward in the House----
    Mr. Lewis. Correct.
    Mr. Wofford [continuing]. Where this passed and the Senate.
    Mr. Lewis. Everybody says they would want to make sure that 
our bill does not become a disincentive for their bill becoming 
a conference item, et cetera, et cetera, but when you get to 
the other end of the track, nonetheless, we are stuck with 
their position.
    Mr. Wofford. That is why I said that before there was any 
thought of a new bill in Congress or of an America Reads 
campaign, we were working with local literacy programs around 
the country on a large scale.
    Mr. Lewis. I understand that.
    Mr. Wofford. These are the examples that I gather were not 
attached.
    Mr. Lewis. That is all right.
    Mr. Wofford. I understand he was not only skeptical of the 
AmeriCorps participation, he was also skepticalof the emphasis 
on volunteer tutors in that bill. In the House bill, there is not that 
emphasis. I think there may be changes in the ultimate bill, if there 
is an ultimate bill, that we would be even more supportive of. But it 
would not affect, unless you make it so, the extraordinary role that we 
are now playing.
    Yesterday, Philadelphia launched Philadelphia Reads and it 
did it with two VISTAs and one professional. The mayor gave it 
a great launching and they are calling on the national service 
family to play a key part in Philadelphia. That is what we see 
happening on a bigger scale this coming year with your help.
    Mr. Lewis. My specific question said, how is the 
Corporation interpreting that conference report language and 
how will it be implemented. I would like to have you read that 
again and maybe broaden that for the record----
    Mr. Wofford. I would like to----
    Mr. Lewis [continuing]. But let me elaborate a bit. It 
says, do you plan to limit the amount of grants for the 1998 
funds for literacy and mentoring activities to $25 million?
    Mr. Wofford. No, because we have a substantial number of 
programs underway, some of our most outstanding programs, that 
are not new programs. That is why I was stressing that two-
thirds of our existing programs are related to children and 
youth and many, many of them are engaged in tutoring. These are 
extra sources to add to the extraordinary work we are doing in 
elementary literacy already around the country. So we would not 
and I would not expect you to want us to substitute these new 
resources for already existing programs and commitments that 
have been made by State commissions.
    Mr. Lewis. Let me repeat again, the conference agreement 
did not include any bill language earmarking funds for America 
Reads, that the joint statement of managers indicated $25 
million was included for literacy and mentoring activities, and 
then I went on to ask, do you plan to limit the amount of 
grants from 1998 funds for literacy and mentoring activities to 
$25 million. You said no and then went on from there. So I 
would like to have you read that again when you look at the 
record.
    Mr. Wofford. We will reply to you further. We do not think 
that the fate of that bill has any implication in a restrictive 
form for the major existing programs under our authorization, 
which calls for us to help meet the educational needs of this 
country.
    Mr. Lewis. I mention to you again that a big part of our 
bill is not authorized but we are directed to be very sensitive 
about authorizing chairmen's concerns, and so you might want to 
have a conversation about this section with the Chairman of 
that Committee, as a matter of fact.
    Mr. Wofford. I would like to have some new conversations. I 
am a great admirer of Congressman Goodling--
    Mr. Lewis. As we all are.
    Mr. Wofford [continuing]. And I know his deep interest in 
doing this. I am a great enthusiast for his Even Start project.
    By the way, Mr. Chairman, I noted in my written testimony, 
we will be very shortly sending a reauthorization bill for the 
Corporation for National Service to the Congress. The President 
has called for it. It has very significant bipartisan support 
and I will be very, very interested in working with you on the 
bill and your comments and criticisms of it. It will be a work 
in progress.
    Mr. Lewis. Since you indicate that there probably will be 
more than $25 million expended in this subject area, what is 
the total amount of 1998 appropriations that you estimate will 
be granted for literacy and monitoring activities?
    Mr. Wofford. May I submit that for the record? I cannot 
give that to you out of my head, but we will show you what it 
amounts to.
    [The information follows:]

    The additional $25 million was earmarked for the expansion 
of literacy activities, and the Corporation will allocate these 
new funds for that purpose through grants to be awarded in the 
spring and summer of 1998. These funds are in addition to the 
base of support for all activities, including national service 
programs already engaged in literacy, as provided by the 
Committee over the last several years and carried forward into 
fiscal year 1998.
    As the Committee is aware, over the last several years 
based upon decisions made primarily by Governor-appointed state 
commissions, more than two-thirds of the Corporation's national 
service programs have had an emphasis on children and youth, 
and a major focus of these programs has been in the area of 
education. The education activities vary considerably based 
upon local determination and interests, and include but are not 
limited to literacy related activities for children and 
families.
    National service projects are not required to report 
budgets and expenditures by activities within a grant. For 
example, if an AmeriCorps projects supports both environmental 
and education activities, the grantee is not required to 
indicate the amount of the grant supporting the environment and 
their amount supporting education. Or, if a Learn and Serve 
grant supports both a literacy after-school program for young 
children and environmental education, a grantee is not required 
to provide detail concerning the amount for literacy and the 
amount for environmental education. Therefore, it is not 
possible for the Corporation to provide an exact total amount 
for literacy activities in fiscal year 1998.
    The Corporation does anticipate that, in addition to the 
$25 million, 97 AmeriCorps programs and 42 Learn and Serve 
Higher Education programs will receive grants that will support 
in some part, literacy activities for young children and their 
families. In total, these grants amount to approximately $56 
million, but as noted above, these amounts support more than 
just literacy activities. Further, as noted elsewhere in the 
testimony, these education activities have been in existence 
for several years, and reflect the Corporation's efforts to 
carry out the purpose of the National and Community Service 
Act, one of which is to meet the unmet educational needs of the 
United States.

    Mr. Wofford. I have given you just one project in each 
State and most States have a number of projects.
    Mr. Lewis. And we will probably relay your response to the 
Chairman of the Education Committee.
    Mr. Wofford. Mr. Chairman----
    Mr. Lewis. I am not really being confrontational, but 
rather, it is important for you to know that this dialogue is 
going on.
    Mr. Wofford. Mr. Chairman, I cannot obviously speak for 
Congressman Goodling, but I have heard nothing from him outside 
of the context of this America Reads bill that suggests that he 
is against the work that AmeriCorps has been doing in 
children's literacy, including the work in his Even Start 
programs.
    Mr. Lewis. It is important for you to be aware of these 
issues. I will review it one more time. You understand the two-
body circumstance around this place. In the meantime, 
oftentimes, we do hear from chairmen that they do not want to 
have our bill be a disincentive for their completing their work 
with the other body and so forth. So that discussion does need 
to take place and I think your joining in that discussion would 
not be a problem at all.
    Last year, the administration proposed the America Reads 
initiative. That proposal includes two things, one, an 
earmarking of funds in the appropriations act for the 
Corporation, and two, the enactment of legislation to implement 
the Department of Education's part of the program. Neither 
proposal was enacted. The administration's 1999 proposal for 
America Reads is similar to the 1998 request in that it assumes 
the enactment of legislation for America Reads initiative and 
an earmarking of Corporation funds.
    While legislation for the Department of Education's part of 
the program was not enacted, the House-passed legislation 
involved child literacy, as we discussed. As I understand it, 
the Senate has not taken up the legislation. Briefly explain 
the differences and similarities between the House-passed bill 
and the America Reads proposal.

                  state and local support for literacy

    Mr. Wofford. The House-passed bill, in its report that you 
were referring to, stresses that it is meeting the budget 
agreement obligation for a very substantial investment in the 
goal of America Reads and seeing that children read by the end 
of grade three. It also states that they believe they have 
improved on the President's proposals that were allocated a 
very substantial amount of funds in the balanced budget 
agreement.
    So the basic answer, I realize I am repeating myself, is 
that America Reads is not something that has to be concocted 
and seen as a Federal program. It is a national goal that many 
governors and many, many mayors have gone all out for making 
commitments and launching these programs. If no bill passed the 
Congress, which would be very unfortunate because I cannot 
think of a better strategically right or morally right goal, 
but if no bill passed many of these local drives, which are 
well planned, in some places extraordinarily well planned, will 
succeed.
    Mr. Lewis. I do not mean to dwell or sound repetitive, but 
is it not fair to say that the House-passed bill supports 
additional assistance for child literacy issues, but provides 
the assistance somewhat differently than that proposed by the 
administration. In other words, the world works differently----
    Mr. Wofford. Certainly. There is an overlapping between the 
original bill and the House bill.
    Mr. Lewis. Many, many a good idea is developed at the local 
community level that sometimes is taken to the Federal level 
and has a different kind of face.
    Mr. Wofford. Let me answer the other side of your question, 
as to what the difference is between the original proposal and 
the House bill. The largest difference is a greater emphasis on 
teacher training and training in the most proven, demonstrably 
research-backed methods of seeing that children read. The House 
bill would provide very substantial resources to the Education 
Department, to get to the States for that purpose. It also 
includes support for programs like Even Start that Congressman 
Goodling initiated which are in fact, in most cases in the non-
regular teaching school system. They reflect the fact that the 
teachers need help.
    There is no group in this country that more urgently wants 
the addition of after-school programs for the hours where so 
many kids are latchkey kids. In some cases, AmeriCorps members 
work in the schools themselves on a one-to-one basis in 
classrooms where a teacher cannot move ahead because there are 
one or more children that are just not speaking or not reading. 
Some of the best national service programs, including our 
Foster Grandparents program and the senior programs in the 
other committee, are with the teachers in the classrooms, 
helping them. Teachers have said to me, ``I had a block that 
was stopping our whole class and your Foster Grandparent has 
enabled us to work with that student and let the class 
proceed.''
    The after-school programs, the weekend programs, the summer 
programs are needed. I think the education community by and 
large believes this. Every teacher that I have talked to in 
elementary teaching says, we need help. The House bill does 
not, to the degree that the President's bill did, support those 
non-school-hour efforts.
    When Houston Reads planned this, the school teachers, the 
unions, the administrators were there saying, what we need in 
order to get our kids to learn to read is your help in 
organizing these volunteer tutoring programs so that they are 
well-trained and well-organized. That is where the AmeriCorps 
members' energies are now going; to organize and assist in the 
mobilizing of those non-school-hour programs.
    Mr. Lewis. I clearly hear what you are saying, but I want 
to make sure that you hear what I am saying, as well. The 
House-passed bill, I know that you are aware, but it is 
important to say for the record, does not tie the Corporation 
and the Department of Education together as proposed by the 
America Reads initiative. In support of child literacy efforts, 
the 1998 Labor-HHS Act provided $210 million for literacy, 
contingent upon the program being authorized by July 1, 1998. 
If such legislation is not enacted by that date, the funds are 
transferred to the special education account. That 
appropriation funds programs for children with disabilities.
    What is your reading on the outlook of the non-Senate 
passage and then enactment of the child literacy legislation 
prior to July 1, 1998?
    Mr. Wofford. I do not know whether my expertise in the 
Senate is at this point as good as yours, Mr. Chairman.
    Mr. Lewis. My guess is it is way beyond mine.
    Mr. Wofford. That is an early deadline and it is an 
interesting, you might say, triage example in which one very 
good object, the special education needs, is put up 
againstanother very, very important goal. I cannot predict what the 
Congress will do either with the deadline or with the bill.
    But to repeat myself, America Reads is going on all around 
this country. The appropriation that we are requesting is to 
enable us to build on the work we have been doing in the last 
three, four years in children's literacy and the collaboration 
that is underway full speed is our collaboration with local 
schools, local universities, and local reading programs. We 
need your support, we need the extra resources, and we will 
produce the testimony from the people around the country that 
want them. That is what we are here asking for today.
    Mr. Lewis. I will return to the combination of the 
Department of Education and the Corporation's knowledge and 
expertise in a moment, but in the meantime, I do not want to 
abuse my colleague, Mr. Stokes. Mr. Stokes?
    Mr. Stokes. Thank you, Mr. Chairman.
    Senator Wofford, let me start by noting that there are a 
number of people seated behind you who, I assume, are 
associated with the Corporation.

                      corporation staff diversity

    Mr. Wofford. Some are and some are not. I would have to do 
a body and soul count. I think those that are not by body on 
our staff are interested in one way or the other or they would 
not be here. I have a number of my senior colleagues here. I 
can introduce them, but you were making another point.
    Mr. Stokes. I do not want you to introduce them 
individually, but I am a little concerned that I do not see 
much diversity in terms of the persons who are with you as 
being reflective of this agency.
    Mr. Wofford. Well, I have not looked around, but my Chief 
Operating Officer, Louis Caldera is here. He has roots in a--it 
is still a minority group in the country, though it is fast 
growing, the Hispanic community. General Chambers, who is head 
of one of the major units that we are asking support for, to 
the right, is an outstanding African American. Bill Bentley is 
the head of one of our most important new departments, the 
Departments of Evaluation and Effective Practices. He was 
Executive Director of the Florida State Commission, as 
Representative Meek knows, he had outstanding success there. 
These are three key members of my senior management team who do 
represent diversity.
    The Director of AmeriCorps, Deb Jospin, in a sense is a 
representative of the degree to which women on a large scale 
are in the leadership of this Corporation. She points out to me 
that of the professional staff of AmeriCorps, the new program, 
there are 15 white persons, seven black, three Hispanic, and 
one Asian.
    Mr. Stokes. Which part of the Corporation is that?
    Mr. Wofford. That is AmeriCorps, State and national. That 
is not VISTA, which would in another committee have its own, I 
think, good story to tell. But that is the State and national 
AmeriCorps. That is not including the direct administration of 
the National Civilian Community Corps, which is the one thing 
that we run under General Chambers. He not only has a number of 
outstanding former military people but a very significant 
proportion of African Americans in the leadership of the 
National Civilian Community Corps.
    Mr. Stokes. Are you satisfied that throughout the entire 
Corporation, all aspects of it, that you are meeting minority 
goals and that your agency is reflective of a diversified 
nation that looks like America?
    Mr. Wofford. I think we have a good record. Am I satisfied?
    Mr. Stokes. Right.
    Mr. Wofford. There is hardly any front of importance on 
which I am satisfied, but I think we have a good record. I 
think we are doing better but I do not doubt that there may be 
significant pockets where we need more diversity. But the 
overall breakdown of our total staff, I think you have, and I 
think it is well above par for Federal agencies in terms of 
diversity.
    Mr. Stokes. I would appreciate it if you would expand upon 
that in the record for me with charts and the coterie of 
things.
    Mr. Wofford. Yes, sir.
    Mr. Stokes. I would like to ask you to give us some details 
on your proposed 1999 program. How much of the $93 million do 
you envision would go toward the AmeriCorps grants, how much 
for the National Civilian Community Corps, and how much for 
assistance activities, evaluation, and so forth?

                     corporation fy 1999 priorities

    Mr. Wofford. The National Civilian Community Corps has been 
operating at $18 million. Because of the extraordinary needs 
that we have in the District of Columbia, we developed a campus 
here. It is 100 strong now, or a little bit above that.
    We had asked for flexibility to be able to move beyond the 
cap, to use other funds given to us for AmeriCorps for that 
purpose because it is such a demonstrated success and it is 
such a powerful agent of national service. We did not get that, 
to our great disappointment, last year.
    We are asking your help, as my written testimony says, so 
that we may have--in this case, the $21 million that will 
enable that program to go forward. We would like very much to 
work with you to show you why that is a good investment. 
General Chambers and I would like to see you and others to show 
why that is so important.
    The AmeriCorps grants program enacted last year was $227 
million. We are asking for it to go to $256 million.
    Mr. Stokes. All right.
    Mr. Wofford. In Evaluation and Effective Practices, we have 
$5 million enacted last year. We are asking another $500,000 
for Mr. Bentley's department. The field is very much looking 
forward to the strengthening of our effective practices 
approach that Mr. Bentley has introduced.
    Mr. Stokes. Let me ask you about the National Service 
Trust. The conference report on last year's appropriations act 
asked the Corporation to provide a report to the committee by 
June 30 on the feasibility of privately funding the Trust. The 
report is to address the cost of such action and include 
recommendations on how the private funding goal could be 
implemented. Tell us what actions you have taken thus far to 
determine the possibility of the Trust operating without 
Federal funding and what is the status of this report.
    Mr. Wofford. As I understand it the Committee was not just 
interested in seeing that the trust itself be funded outside--
that is an area of tremendous interest to all of us,but whether 
the administration of the Trust, which has been a problem or a 
challenge for us and is central to our auditability challenge--whether 
that function--would be better performed outsourced to either a private 
entity or to some other Federal entity. So it is privatization and 
outsourcing.
    We have the statement of work for that study. We know there 
are prospects, very good prospects for the right people to go 
forward with it. We think it can meet the deadline set by the 
Congress and we will have that report to you.
    I should add that I personally, from my confirmation 
testimony and even more today remain interested in outsourcing 
where it can be done. We did it with the new high school 
scholarships. I am also interested in getting our 
administration to be as small and as lean as possible to still 
produce effective results. I am looking forward to the results 
of that study and to working with you when we have brought it 
to you.
    Mr. Stokes. Also, the Corporation has contracted with the 
National Academy of Public Administration, NAPA, to study the 
structure, organization, and management of the Corporation. 
According to the NAPA project description, the study focuses on 
several core areas, including program service delivery, grant 
award and administration, funding, sustainability, and human 
resources management. We understand that you received a draft 
of the NAPA study.
    Mr. Wofford. Yes.
    Mr. Stokes. When will the study be finished and made 
available to Congress?

                               napa study

    Mr. Wofford. I hope it will be finished on the deadline 
set, which was the end of March. We had an excellent session 
when they gave us the first draft. Then we had another session 
to go over a number of questions. They range from questions of 
fact as well as some further discussion with them on some major 
proposals they are making. It is going to be a very useful 
study. We are expecting it will be finished by the end of 
March. They are in the final stages of completing the draft, 
and as soon as that is finished, we will be submitting it to 
you.
    Mr. Stokes. Are there any of the significant findings that 
you would share with us at this time, or would you prefer to--
--
    Mr. Wofford. Mr. Chairman, I would much prefer to let us 
find out what their findings are going to be. We have the rough 
draft. They are reviewing some important questions. I realize 
that this is a good time, but it is a bad time in terms of 
fairness to them since I do not know what they will finally 
propose.
    Mr. Stokes. Mr. Chairman, that would be fine with us.
    In the past, Senator, the AmeriCorps program has frequently 
been criticized for being too costly. In 1996, the Corporation 
committed to reducing the average for AmeriCorps members as 
follows: $17,000 in 1997, $16,000 in 1998, $15,000 in 1999. 
What is the current average cost per AmeriCorps member?

                            cost containment

    Mr. Wofford. It will be $16,000 per member for this year, 
and in 1999, as part of my agreement with Senator Grassley, it 
will be $15,000 per member. The GAO in its September 1997 
report on our reforms, including the cost-cutting reforms, 
noted that we had taken steps to decrease the grant funds per 
participant, that we have limited the funds per participant to 
$13,800 in 1996 and $11,750 in 1997. We have increased the non-
corporation match requirement from 25 to 33 percent. The grant 
funds per participant in 1995 to 1997 decreased by about six 
percent and the average grant funds per participant from 1994 
to 1997 have decreased by a 20 percent decrease.
    We are on track. It has been with the cooperation of the 
State commissions, who have had their own ceiling to bring 
budgeted costs down to $15,000. We are going to make it.
    Mr. Stokes. So you are on track?
    Mr. Wofford. Yes.
    Mr. Stokes. That is good.
    Senator, during yesterday's hearing with the Federal 
Emergency Management Agency, FEMA, Director James Lee Witt 
indicated that AmeriCorps members have been of assistance in 
responding to various disasters and emergencies around the 
country. Can you tell us more about the mechanics of this, 
including, one, whether such assistance has been limited to 
members of the National Civilian Community Corps, and two, if 
AmeriCorps members must wait to be asked for assistance from 
State and local governments, and then three, if AmeriCorps 
participants receive any special training to qualify for 
disaster response activities.

                     americorps and disaster relief

    Mr. Wofford. I think yes to all of your points. Let me say, 
first, there is a memorandum of agreement with FEMA. We have 
had an extraordinary in depth partnership between our two 
staffs, both with them and around the country. They do 
substantial training for AmeriCorps members beyond the NCCC. 
The NCCC gives high priority to this and a high proportion of 
its members are involved and are ready to be part of teams. 
Some have become highly trained so that when an NCCC's team 
moves in, as it did in Harrisburg in the flood, in Florida and 
elsewhere, they come fast, they know what to do, they stay to 
the end, they work night and day. They generally have a major 
role in organizing the unpaid volunteers that flow in but have 
to be organized.
    We have a very successful project with the American Red 
Cross the rapid response AmeriCorps-Red Cross program. It began 
in Los Angeles. It is now in a number of other cities. They do 
intense training. They do remedial education for preparations 
for disasters and make communities disaster-proof between 
disasters. The Red Cross has said to me that it is just the 
kind of support they need, people that are trained, are ready, 
that can move in and know what to do on the ground. I think it 
is one of the most important fronts of AmeriCorps.
    Many of our projects engage in disaster relief, whether it 
is in New England recently or in many other occasions. Then 
NCCC works nationally and when FEMA calls for special help we 
target it. But in most of these States, the State emergency 
management agencies call on AmeriCorps projects in those States 
on a large scale. We found that in Pennsylvania, far more 
people from other AmeriCorps projects were working along the 
Susquehanna than NCCC teams.
    Mr. Stokes. Mr. Chairman, I have a number of other 
questions, but I will wait until the next round.
    Mr. Lewis. Thank you, Mr. Stokes.
    Mr. Walsh.
    Mr. Walsh. Thank you, Mr. Chairman.
    Mr. Wofford. Mr. Walsh, good to see you.
    Mr. Walsh. It is good to see you, too. I have some 
questions that I would like to ask about the America Reads 
program. In your testimony, you said that you were going to 
hire an additional 3,000 new volunteers. Could you tell me what 
qualities you are looking for in those volunteers?
    Mr. Wofford. If I can correct a former Peace Corps member--
--
    [Laughter.]
    Mr. Walsh. Members, I am sorry. AmeriCorps members.
    Mr. Wofford. No, it was the hire. We did not hire Peace 
Corps volunteers. We recruited them and enlisted them.
    Mr. Walsh. I stand corrected.
    Mr. Wofford. But there is another basic change from the 
Peace Corps.
    Mr. Lewis. I would not hire them, either. [Laughter.]
    Mr. Walsh. You do not have any choice.

                        americorps and literacy

    Mr. Wofford. There is another basic change. The Peace Corps 
recruited, selected, trained, deployed, administered and ran 
programs. Today some now 7,000 Peace Corps volunteers are 
around the world administered with an outstanding staff that it 
a little larger than ours. We now have 40,000 members and we do 
not except for the NCCC, select them ourselves. With VISTA, we 
have a program of training that we organize, a very brief one, 
but by and large, selection and training are done by the local 
programs.
    Most of the people involved in literacy are working in 
three categories, either local literacy programs that win a 
competitive grant from the State commission, community-based 
literacy programs; universities, who have a partnership with 
the school system and run programs; or in some cases, school 
systems themselves. In each of those cases, they set their 
standards.
    Notre Dame has elementary teaching corps programs in seven 
or eight Southern States, called The Alliance for Catholic 
Education. They seek outstanding college graduates. Last year 
15 percent of the graduating class applied for that project. 
They had five applications for every one spot. They had a high 
ratio of their summa cum laudes and the rest. They then give an 
intensive teacher training in the summer before they deploy 
these teachers for two-year teaching slots in elementary and 
higher education, I mean, secondary education, in Catholic 
schools, in the most hard-pressed schools in the South, 
generally serving minority populations.
    That is a very high standard of both training and 
recruitment. In other cases, the program involves training 
English teachers in the high schools to teach their 11th and 
12th graders to become tutors of second graders. I am trying to 
convey the diversity of training that is going on.
    The university, San Francisco State, has a major literacy 
component of America Reads and they do the training through 
their education department.
    Mr. Walsh. I think it anticipated the direction I wanted to 
go. What I am trying to get at is, are these hires or 
volunteers or whatever we are going to call them qualified to 
teach literacy?
    Mr. Wofford. The literacy programs that seek them, they set 
the standards and many of them are setting very high standards. 
They also are responsible for the training. So if we found that 
there was a program that, and our State commissions found, was 
getting unqualified people and not training them adequately, we 
would be greatly concerned and they would not fare well. They 
would not get renewed when they come up for the competitive 
renewals.
    Mr. Walsh. So once they begin their service, they undergo a 
teacher training of some sort determined by the hiring agency 
to give them the skills that they need to impart this knowledge 
to these kids?
    Mr. Wofford. Congressman Walsh, the literacy programs that 
we have been in over the last three years, before America Reads 
came along, had AmeriCorps members primarily doing the direct 
tutoring, and the successful ones had a very high standard of 
training. The ones that are not successful--of course, I may 
not hear about them that much, but they do not fare well the 
next time.
    The proposal for the campaign for America Reads is that a 
major part of AmeriCorps members' assignment is not the actual 
tutoring but the organizing of tutoring programs, the 
recruiting of volunteers, running the program. Two VISTA 
AmeriCorps members are the two key organizers of Philadelphia 
Reads and they are trying to get hundreds of college students 
on work-study to tutor. A lot of AmeriCorps consists of how the 
full-time AmeriCorps person is used to generate traditional 
volunteers.
    So in many cases, AmeriCorps members will do neither the 
tutoring nor the training but will----
    Mr. Walsh. So the AmeriCorps volunteer will coordinate the 
volunteers who provide the literacy training. Obviously, the 
issue of quality is real important. We are talking about a 
system now that we all agree, for whatever reason, has failed 
these kids. They do not know how to read at the levels that 
they should. So we are trying to fix that.
    But the people who are responsible in the first instance 
for providing that skill, that reading skill, were trained 
professionals. We are going to supplement those trained 
professionals with volunteers who will coordinate people of 
lesser skill--maybe that is not the right terminology, but they 
are going to coordinate other volunteers who are not trained to 
teach, is that----
    Mr. Wofford. Not necessarily. We are activelyrecruiting 
retired teachers, retired principals----
    Mr. Walsh. But you are talking about hundreds or thousands 
of high school and college students also, are you not?

                  college students and local literacy

    Mr. Wofford. The college students, yes. The President, with 
the backing of the higher education organizations and a 
committee of 21 university and college presidents, is seeking 
100,000 college work-study students for tutoring. The 
AmeriCorps assignment might well be to work with a service 
learning center on X university to help recruit those college 
students, assign them to the best literacy programs in the 
community----
    Mr. Walsh. So say you have 100,000 college students. How 
many former teachers might you have?
    Mr. Wofford. I have been to maybe a half-a-dozen cities 
that are organizing metropolitan-wide literacy programs. It is 
going to vary in every place. Where they have----
    Mr. Walsh. So the quality will vary in every place, too?
    Mr. Wofford. The quality is certainly going to vary. These 
are community-run programs, and in some cases, there are 
individual programs where there is not even a community-wide 
program. But we--both our State commissions that make the 
decisions for two-thirds of AmeriCorps and we in our national 
direct competitive review--are looking at the quality of these 
programs. I gave a list of one children's literacy program that 
we are in in every State, and in your State, there are many.
    Mr. Walsh. I know there are. In Syracuse, there are two 
literacy organizations that were founded in Syracuse and they 
are very successful at what they do, but that is all they do 
and they have a tradition and they have a system and a process 
and they have quality control and I am not convinced that that 
is all within this plan. I think it is an idea whose goal 
everyone supports, but the way it is laid on is sort of ad hoc, 
town by town, city by city, program by program.
    My concern is that we are trying to supplement the teaching 
of our kids by professionals with non-professionals. How are we 
going to improve reading skills with people of lesser ability 
providing the teaching? There are other very fundamental 
questions, like what is the second graders' day going to be 
like? Where are they going to get this supplemental teaching 
when some of the schools--most schools--are just jammed chock-
a-block with things going on and no room.
    I know when I have tried to work with school buildings 
within my constituency for extracurricular sorts of things, you 
have to pay the maintenance guy triple-time just to keep the 
building open. Is that accounted for? What if that college 
teacher goes home for the summer? What if they go home for 
Christmas? It is just so difficult to maintain quality and then 
to assess a program like this. It is the old idea of the road 
to hell is paved with good intentions.

                       americorps helps teachers

    Mr. Wofford. Congressman Walsh, if I could just for the 
moment put aside the question of the proposed bill for America 
Reads, which, as the Chairman has pointed out, as passed by the 
House does not call for AmeriCorps participation but is focused 
on teacher training which no one could be against. It also 
includes the initiative of Congressman Goodling, Even Start, 
which works with preschool students and with parents at the 
same time to get parents to become good first teachers of 
reading.
    We have AmeriCorps people involved in that program, but 
that program would pick the AmeriCorps people. The one I 
visited happened to have an NCCC team in San Diego.
    Secondly, the biggest challenge, if you ask teachers, as I 
have, around the country, how can we help? What will be the 
best help you could get? I find most of them say: get somebody 
to have an after-school program for these latchkey kids that 
leave school and go into the streets or go home to no parents, 
and----
    Mr. Walsh. But the idea there is to keep the kids out of 
trouble. It is not to teach them how to read.
    Mr. Wofford. The best programs that I know in this country 
that are supplementing classroom teaching are after-school 
literacy programs. A great number of these projects--the Hands 
On Atlanta, Senator Nunn's daughter runs it, has been going for 
three or four years. It has won all kinds of kudos from the 
school system. Atlanta considers it incredibly valuable. It 
runs after-school programs. In that case, it runs them in the 
schools. They have solved the school building problem. The 
school system is pleading for more AmeriCorps people to help 
run intensive tutoring in the after-school hours.
    The examples you gave from Syracuse--the way the system now 
works, those programs would ask for a VISTA or for another 
AmeriCorps member. They would then select them, and whether 
they got one or two or they had a project for ten. They only 
get those resources allocated to them through a competitive 
process, where quality is very crucial.
    Mr. Walsh. I, as you know, am a supporter of AmeriCorps, 
and based on my own experience as a volunteer, what works in 
the Peace Corps is you take an existing structure, a 
disciplined, organized structure, and you fill in the blanks 
with Peace Corps volunteers. I was in an agricultural extension 
program and they had a couple districts where they needed 
additional extension agents, so I would be plugged in here, a 
Nepali guy would be plugged in here, and so forth, and we all 
did the same job and we were all measured by the same 
statistics.
    And I have seen that work in Cayuga County in my district, 
where you have a similar situation, actually. You have a soil 
conservation program that literally needs hands and arms and 
legs and backs, people to work with skilled management and 
supervision, people working with them every day providing the 
direction and so forth.
    What this program, as I understand it, would do is in order 
to supplement our teachers, we would hire or we would provide 
AmeriCorps volunteers who would then manage other volunteers to 
provide this supplemental training. It just strikes me that 
quality control would be almost impossible to maintain. 
Measurement of the programs would be very difficult to maintain 
and determine and----

                            the ace program

    Mr. Wofford. Congressman, the bill that we are living 
under, which I think is a great bill, and we want its 
reauthorization with some improvements, calls for an 
extraordinary, unprecedented decentralization. It isdevolution 
not only to the State commissions appointed by governors that control 
two-thirds of the AmeriCorps assignments, but also devolution to local 
nonprofits, and in some cases national nonprofits and organizations.
    I think you were here when I was giving the example of the 
Alliance for Catholic Education at Notre Dame. Were you here 
for that?
    Mr. Walsh. Unless you just referred to it, I missed it.
    Mr. Wofford. They, backed by the U.S. Conference of 
Bishops, asked for an AmeriCorps project, which now is 130 or 
so strong, teaching in the most hard-pressed Southern schools, 
many of them elementary schools. Last year 15 percent of their 
graduating class at Notre Dame applied for a two year stint 
teaching on AmeriCorps terms in the hardest-pressed Southern 
schools. Notre Dame gives an intense teacher training.
    Mr. Walsh. Those AmeriCorps members are actually doing 
the----
    Mr. Wofford. They do the teaching.
    Mr. Walsh. And they were determined based on their skills 
to teach?
    Mr. Wofford. Notre Dame went out for the most outstanding 
liberal arts graduates. They got a high proportion of cum 
laudes, summa cum laudes----
    Mr. Walsh. That is great.
    Mr. Wofford [continuing]. And they then get a master's in 
teaching at the end of their two-year teaching.
    Mr. Walsh. You would like to have all your programs 
measured by that one, but they are not going to be. You are 
going to have a lot of young people brimming with idealism, 
thank God, and you are going to try to put that to work. I 
think that is what is great about America and that is why it is 
so important. My concern is that they are going to be asked to 
do things that they cannot do. That idealism is going to go 
away and tax dollars are going to be wasted.

                             student tutors

    Mr. Wofford. That would happen if we assign AmeriCorps 
slots to programs that do not select well and do not train well 
and do not administer well. That is one reason Mr. Bentley's 
department is so important, to find the programs that do not 
work. If I may, I want to clarify and maybe try to persuade you 
that the high school example I gave is not to be misunderstood.
    In many places, students have to do service learning to 
graduate from high school. There is a service requirement. In 
Philadelphia, a principal of a high school was so enthusiastic 
about how older young people could help elementary kids that 
this became his cause in life. This literacy corps is now in 
seven States, through AmeriCorps.
    They trained the English teachers in 22 schools in 
Philadelphia to know how to train their 11th and 12th graders 
to be after school one-on-one reading tutors of second graders. 
The kids go through a remarkable training period. They get 
reading specialists in to help the English teachers do it. I 
spent a lot of time on this project. It works. It is one of the 
pilots that ought to ignite the whole.
    The effect on those kids that teach in the afternoon is 
just extraordinary. First, they increase their own reading 
level by becoming teachers. Second, they get a sense of 
responsibility. One senior high school teacher said to a 
student, ``You had the worst luck of the draw. You got a kid 
that has never spoken in my class. If you can get him to talk, 
it will be a miracle.'' The tutor said, ``I would lie awake at 
night figuring out, how do I reach that kid? I had figured I 
was boring and I better learn to read better.'' They have a 
structured tutoring program and they have chosen one that seems 
to work.
    The second grade teachers with whom I have met say these 
two-hour sessions three days a week in the school with these 
senior kids coming down has had enormous impact on the second 
graders. If it did not work, we should not continue it, but it 
has been proved in many places that older young people, 
including college students, can be terrific tutors.
    Mr. Lewis. Senator, I think we have to interrupt you at 
this point because other colleagues will ebb and flow here and 
I know we are going to continue a similar line. I think you 
probably can sense that my colleague who was just asking these 
questions is not exactly right of center in the full House when 
we look at either side of the aisle on issues like this. But he 
does remind me, Mrs. Meek, of my second extended trip to India.
    In 1965, I spent the summer there for the second time and 
the Peace Corps had besieged India at that point. I met some of 
these Peace Corps volunteers in the south, and after talking 
with them for an extended time, I invited them out for 
refreshments at a local establishment. I was just amazed that 
they would not let me buy any of these refreshments because 
that was not like Peace Corps volunteers. But they had been in 
the business of teaching villagers about the potential of 
raising chickens, and it was not very long before these very 
outstanding liberal arts graduates understood the economics 
that was involved in eggs and chickens. They absolutely did not 
know what to do with all the money they were making on these 
eggs, so they were buying me refreshments. [Laughter.]
    It is a very interesting passway that sometimes develops in 
these things as we train each other.
    Mrs. Meek.
    Mrs. Meek. Thank you very much, Mr. Chairman.
    It is a pleasure seeing you again, Senator Wofford. I think 
that you have done what I would call a reasonably good job with 
the funds which the Congress has allocated to you. I notice you 
have stabilized your staff. That was one of the criticisms that 
you received, I think, in your last hearing before this 
committee. But when I look at your budget request, in 1997, you 
increased your staff by 29 people, but now you seem to have 
stabilized at the 227 level. I guess you feel comfortable that 
that is a sufficient staff to do the job that you have 
explained to date.
    My questions have to do with the Corporation for National 
Service. You are now in your fourth year. You have several 
models for service delivery, including VISTA, local programs, 
and the national residential programs, among others. Which 
model has proven most effective in terms of productivity, cost 
per member, staff-to-member ratio? The staff ratio and cost, I 
am sure, should include non-program staff at Federal and State 
levels which oversee this program.

                         program effectiveness

    Mr. Wofford. Very good questions. I will resist a parent's 
feeling that you know what ``all men are created equal'' means 
when you know that you love your children equally even though 
they are very different.
    Mrs. Meek. Yes.
    Mr. Wofford. I have a special involvement in the National 
Civilian Community Corps because, from the days ofthe Peace 
Corps on, many of us have imagined a full-time residential corps as 
something of tremendous promise and power and impact that always costs 
more than a non-residential program because somebody has to pay for the 
residence. If people go home at night to their own homes or parents, it 
does not have the power and impact that you get of the experience of 
being in a corps like the National Civilian Community Corps.
    When I was in the Senate, along with a number of Republican 
leaders, like Senators Dole and McCain we put through the 
National Civilian Community Corps before AmeriCorps came along. 
We are making a special case for the strengthening of the 
National Civilian Community Corps and for the District of 
Columbia campus that we have opened.
    Secondly, VISTA. I was in the planning of VISTA 30-some 
years ago. I think it has proved itself. I was very interested 
that Senator Bond, who had criticized AmeriCorps, not noting 
that VISTA is now a key part of AmeriCorps, said, ``I recognize 
the need of full-time capacity builders, generators of 
volunteers. That is why I like VISTA.'' I like VISTA, too. It 
is focused on capacity building.
    It is a very simple model. VISTA members gets the poverty-
level $8,400 now to live on for a year. They get the education 
award. We generally do not give any administrative or program 
support. I would like to see it grow along with the National 
Civilian Community Corps.
    And then the rest of AmeriCorps, you might say has three 
rings to it. The newest ring is the least expensive. It 
drastically reduces the cost per member and that is the 
education-only award. We need to watch carefully to see quality 
in those programs. But the first year and a half of that 
program appears to be an extraordinary success.
    The President challenged the faith-based organizations and 
the great nonprofit organizations to take the lead in providing 
the resources and leadership for the living allowance, the 
support, and the administration. The only Federal contribution, 
aside from a small fixed amount that we may have of maybe $500 
for some of the costs we impose on them, would be the education 
award of $4,725 a year for full-time service.
    We now have 14,000 positions that have been approved, and 
probably half of them have already been filled. They include 
many of the major denominations. The Methodists and the 
Catholics have more than 1,000 each of these education-only 
awards. The National Council of Churches, which coordinates 
that, altogether has more than 5,000 in this category. The next 
largest is the Boys and Girls Club.
    Mrs. Meek. Senator, if I may intervene----
    Mr. Wofford. Yes.
    Mrs. Meek. I guess I need a little bit more specific answer 
as to which one is most effective in terms of--
    Mr. Wofford. Well, I would have to tell you that if you 
want to say which--if you take the manpower and womanpower of 
the team of the NCCC and see what it does in disasters and 
others, you would say that night and day team has more power 
than a part-time person in the education-only award. But if you 
ask me about costs, the education-only award is $5,000 per 
person and the National Civilian Community Corps is effective. 
I am not sure whether I will hit the target right----
    Mrs. Meek. I do not want you to try to think of it now. 
What I do want you to think of are the variables that I have 
asked you about in terms of the effectiveness of each one of 
these programs, staff to member, in terms of whether it is 
VISTA or whether it is some of your other programs or whether 
it is cost per member, that kind of thing. I am sure you cannot 
just say that now, but I think these are some of the variables 
that you have to think of as the person over the program when 
you look at the accountability, so when you come before this 
committee you can say, of all the programs that I have, 
according to these variables, whatever you select, these are 
the most effective ones. This is not a loaded question, 
Senator.
    Mr. Wofford. No, I----
    Mrs. Meek. It is one that I think has some validity in 
terms of what we look at on this committee. I think what I am 
hearing, and I heard it from Mr. Walsh, as well, that there 
seems to be a lack of infrastructure, that is, a delivery 
system that has measurable goals and objectives. I used to have 
a little statistics teacher. He did not teach me very much, but 
he did teach me that anything in existence, any amount can be 
measured.
    So I am fairly sure that, and I do not mean any of this 
academic stuff you hear, but I just want you to be able to 
measure your programs that you are using by whatever variables, 
by whatever means of measurement, because when you come before 
us, we will ask you a lot of different questions. But you will 
have your little list there to say that, by these measures, and 
therefore, it does not give us--because we are not out there in 
the field like you are--it does not give us the ability to 
question you regarding how well your programs are doing. Being 
an old education professor, I know which lines you are going 
on. So I am just giving you something that will help when you 
come in this committee in terms of validity.
    I know this. I worked in literacy programs for many, many 
years. There are so many programs out there, helping children 
and adults learn to read. Mrs. Bush did perhaps the best job in 
the world on literacy. I am sure she must have left some kind 
of institutional legacy as to what works in literacy and those 
variables, those kinds of things can be used to measure some of 
the viability of our programs.
    So I am just saying that I would like to see more of that, 
and hopefully you can provide that. Maybe you cannot----
    Mr. Wofford. We can. We can.
    Mrs. Meek [continuing]. But if not, I think you should be 
reaching for that goal.
    Mr. Wofford. We can, indeed. Mrs. Bush, by the way, is the 
leader, you might say, of the Houston Reads literacy program 
that we are involved with and we have worked very closely with 
her and her foundation in how we support what they are doing 
locally.
    The reason we established and are expanding the Department 
of Evaluation and Effective Practices led by Bill Bentley from 
Florida is to achieve all the things you just mentioned. From 
the beginning this program has distinguished itself in 
requiring every project to have performance objectives and 
measurable goals as part of their competition to get the 
AmeriCorps assignments. We have had an increasingly significant 
range of evaluations for our programs through the Department of 
Evaluation and Effective Practices.
    We have a performance review under the GPRA, the 
Performance and Results Act.We specified very specific targets 
for each of our programs in our annual performance plan. The yellow 
budget submission that came up to you discusses many of the items that 
you are asking about. Each of our programs is reported in terms of 
cost, staff, and those items. I would, either here today or in 
submission, be able to respond to you on every one of these fronts.
    Mrs. Meek. Thank you, Senator.
    My last question, I know that you are asking for more than 
$1.7 million more for recruitment in fiscal year 1999, for a 
total of $3.3 million. How are you going to use that increase, 
Senator?

                       americorps and recruitment

    Mr. Wofford. We have analyzed the recruiting efforts of our 
own programs and of others like the Peace Corps and we find 
that the investment in recruiting has been inadequate. In the 
Corporation have gotten by with extraordinary membership in 
part because the idea has drawn people rather than our own 
recruiting efforts.
    We have an outstanding new head of a consolidated 
Department of Recruiting which the Congress had called for. The 
budget for recruiting is in the yellow book. We have far, far 
fewer recruiters in the Corporation and a much lower recruiting 
budget than the Peace Corps, which I admire and know a good bit 
about. One of my interests has been in strengthening and 
improving our recruiting efforts.
    The decentralization is important for you to recognize. 
Most of the selection outside of the NCCC is done by the local 
groups. They recruit and select, but they badly want an 800 
number that is efficient and a national media effort that lets 
people understand it so that they have the largest pool of 
people to pick from.
    Mrs. Meek. Thank you, Senator.
    Mr. Lewis. Thank you, Mrs. Meek.
    Mr. Wofford. About your very first point on staff, the 227, 
I think you cited. That item is itself not an increase in 
staff. It is the same staff being shifted from the VISTA 
appropriation to this to more accurately represent what they 
are doing. I think one of the challenges for us is that we are 
about the same size in total staff or maybe a little less right 
now, than when I started in October 1995. Yet the number of 
AmeriCorps members has grown. So we are very, very hard-pressed 
with a very lean staff.
    If you then note the staff numbers that we inherited from 
the former VISTA and senior programs--the ACTION agency--and 
think of the additional staff, it is an extraordinarily small 
number, in my opinion, for the size of the programs we are 
administering at the moment. We are going to carefully look at 
all our human resources to see that we meet the auditability 
challenges and to follow the evaluation challenge that you very 
well put to us here.
    Mrs. Meek. I asked you that question because I wanted to 
know if you were comfortable with the staff that you----
    Mr. Wofford. I am not comfortable, but I think our new 
Chief Operating Officer, Louis Caldera, is in the midst of a 
very hard-hitting analysis to see how we can better use the 
resources we have and to see what the gaps are, and we will 
report to you. We need those extra administrative funds 
primarily for the auditability and management issues, but for 
these other concerns that you are reflecting.
    Mrs. Meek. Thank you.
    Mr. Wofford. Thank you.
    Mr. Lewis. I am going to get to some of those issues in 
just a moment, and maybe Mrs. Meek would like to follow up then 
when I start to ask those questions, but I appreciate very 
much, Mrs. Meek, your participation.
    Senator, one of my very, very early recollections, and I am 
not sure if I was on my mother's knee or not, but that she was 
heard to say that beauty lies in the eyes of the genuflector, 
and I have been trying to figure out what that meant ever 
since.
    Mr. Wofford. I am ready to genuflect.
    Mr. Lewis. Well, I am going to be asking you to, as a 
matter of fact.
    Mr. Wofford. Yes, sir. [Laughter.]
    Mr. Lewis. In response to a question that was submitted for 
the record in which we asked about the importance of 
cooperation of various people who might be involved in some of 
these programs, among other things, you concluded in a 
paragraph, ``The success of this initiative depends upon the 
unique combination of the Education Department's knowledge and 
expertise with reading programs and the Corporation's 
demonstrated success in developing and coordinating effective 
tutoring and volunteer programs.''
    I assume that you do agree with that statement which was 
submitted for the record as a result of our hearings last year?
    Mr. Wofford. I certainly stand by what I said, but I have 
to make it clear what I meant by what I said.
    Mr. Lewis. Okay.

                             america reads

    Mr. Wofford. The success of the campaign proposed by the 
President depended on a collaboration between the Department of 
Education and reading specialists and the resources they 
represent and our resources. But the campaign, whether it is 
from the President's summit and General Powell or whether it is 
the general or local initiatives, to see that children read by 
the end of grade three is going to be measured city by city, 
community by community, and there will be many, many successes. 
Even if we do not do anything, some cities are finding a way to 
meet the needs of the teachers.
    Mr. Lewis. Exactly.
    Mr. Wofford. We have been helping to find them. So our 
success, the success of Houston Reads in using AmeriCorps is 
not dependent on whether the overall campaign gets the passage 
of the kind of bill that I was supporting when I said that. I 
am certainly not implying that individual programs are not 
going to succeed in the places that are launching them.
    Mr. Lewis. I am just attempting to make sure that both you 
and also your support staff understand the position that the 
Committee is in in dealing with many of these issues. I want to 
share with you a letter that was written on September 24 to the 
Committee by and signed by Congressman Goodling. It said, ``I 
made it very clear to the President in a 45-minute meeting 
discussing education that there would be no money, I repeat, no 
money to fund expensive so-called `volunteers' in any `America 
Reads' program. I made it clear that the volunteers that we 
include in the program would be college work-study students. 
This serves many purposes.First, it allows for the reduction of 
debt that has accumulated. Second, it gives students the opportunity to 
do important community service work,'' and then he concludes briefly.
    The following day, on September 25, I received a letter 
that essentially, in different ways, reemphasized the same 
thing that was signed by Chairman Goodling but also signed by 
Peter Hoekstra, who was the Chairman of the Subcommittee on 
Oversight and Investigations, Buck McKeon, the Chairman of the 
Subcommittee on Postsecondary Education, and Frank Riggs, 
Chairman of the Subcommittee on Early Childhood Education, a 
pretty strong expression by the authorizing committee that 
deals with education relative to how we should consider their 
concerns.
    In view of that and the general environment in which we 
operate, how successful will your efforts be without any 
authorizing legislation in the America Reads program?
    Mr. Wofford. I think the programs that we will select to 
have our AmeriCorps people work in have been, are being, and 
will be successful. We have been in the forefront, as 
Congressman Goodling knows, of the effort to get college work-
study students involved in children's literacy in America Reads 
programs around the country. I helped organize the college 
committee of 21 university and college presidents to ask for 
100,000 college work-study students for America Reads. We have 
been the organizing agency to the largest extent of that 
effort.
    I enthusiastically agree with Congressman Goodling that the 
million work-study students, approximately, would serve on an 
average of maybe ten hours a week, more or less, five to 15 
hours. It could be an enormous contribution. I would join in 
any effort to increase that and increase the persuasion or the 
requirements of colleges to use that work-study money, as 
Congress originally intended most of it--for service in the 
community. So Congressman Goodling and I are in agreement on 
this.
    Mr. Lewis. On part of that.
    Mr. Wofford. You, after those two letters, made the 
distinction, rightly last year, between whatever happened on 
the America Reads bill, whether we are in it or out of it--and 
there is some simplicity in our being out of it. I think you 
could make a case that instead of a new amalgam, we have a very 
simple way of delivering our resources to local initiatives.
    But you made the distinction last year that we should get 
extra resources for children's literacy under the general 
rubric of America Reads in the budget agreement. We appreciate 
those resources and we are seeking a significant strengthening 
of those resources this year.
    Mr. Lewis. As you know, and I have repeated it in different 
ways, the work of this subcommittee involves a lot of 
overlapping and very important people kinds of concerns. And 
the work that we do especially when we end up on the edges of 
authorizing responsibility, we do get a good deal of scrutiny. 
And I would suggest to you that the scrutiny has not been 
light.
    But nonetheless, in view of that which we have been 
discussing, and presuming that an authorization bill does not 
get through and signed by the President, why should we fund the 
Corporation's part of America Reads until the Department of 
Education part of the program is authorized?
    Mr. Wofford. Mr. Chairman, the reason we want to engage in 
America Reads is not to expand AmeriCorps. The reason is 
because I do not think there is any goal in country that I 
would say is more important. There is a greater need than ever 
to see that whatever resources can be brought to bear, are 
brought to bear in seeing that children learn by the end of 
grade three to read.
    Our authorizing legislation calls for us to help meet the 
critical needs of this Nation in education very specifically. 
We have a track record of how we can help. We have teachers, 
educators, school administrators all over this country asking 
for more AmeriCorps participation, and I think it would be a 
tragic consequence if inability to agree on the details of the 
President's proposal for America Reads should then be used as a 
reason for the AmeriCorps resources not to go on doing what 
they have done so well, and what people want so badly.
    Mr. Lewis. I understand exactly the emotion of your 
response. I think you sense both Mr. Walsh and the Chairman and 
others have empathy for what you are about. But I go back to 
the genuflector, beauty does lie.
    I have other questions related to that specific----
    Mr. Wofford. I look forward to talking more with 
Congressman Goodling because I do not think he does not want 
the AmeriCorps participation in Even Start. I think what he is 
against, and Congressman Walsh is skeptical about, what may 
have sounded grandiose--is the proposal of 1 million volunteer 
tutors. I think, as I said in the beginning, that has misled 
people into thinking this is some new Federal teaching 
volunteer corps.
    The very way that Congressman Goodling wants work study 
students to be used by local literacy programs in schools is 
exactly the way we want them to be used, and the way that 
AmeriCorps members are used.
    Mr. Lewis. I read Mr. Walsh's concerns much more one of, in 
a very real and meaningful and practical way, measuring the 
results that you get in individual programs as they are applied 
out there. That causes me to ask one other question that is not 
a part of this section but relates to another piece of my work.
    I am very concerned with the amount of money that has been 
flowing to urban centers for public housing programs where in 
many of those centers there has been almost zip done in terms 
of public housing, especially new public housing, in recent 
years. That is a results oriented kind of concern. I have 
considerably increased and am proposing to further increase 
HUD's Inspector General's ability to help me evaluate 
independently those questions.
    I will be interested over time in discussing with you the 
role of your Inspector General. I have not actually had a 
chance to look at the Inspector General's product in depth yet. 
With this section of our bill I intend to do that. But some 
objective analysis of results and that orientation that is 
stressed by Mr. Walsh so well is important in all of this, 
because as you know, there is more than one committee that is 
looking at AmeriCorps and the Corporation.
    To say the least, Mr. Goodling is not just a former school 
superintendent. He is committed to these programs and does want 
to see that which we are about work in the final analysis. I 
would really encourage extended discussions there as we go 
forward and we go to conference and deal with these questions.
    Mr. Wofford. I am an admirer of his and will look forward 
to doing----
    Mr. Lewis. I am a great admirer of his as well. And he and 
I do not agree on everything either.
    Mr. Wofford. Could I just make one point?
    Mr. Lewis. Sure.
    Mr. Wofford. If I did not make it clear, we do not need an 
authorization, AmeriCorps, the Corporation, our senior 
programs, foster grandparents, do not need an authorization----
    Mr. Lewis. Of the education portion.
    Mr. Wofford [continuing]. To engage in education or in 
literacy. It has been a proud area of our work from the 
beginning. It is specified in the bill. Some of the examples of 
what we should be in are related to that. So we are not 
dependent on any authorization for----
    Mr. Lewis. I must say that part of that was a reflection of 
your response for the record in which you suggested how 
important it was that we have this coordination of the 
Education Department's expertise, et cetera.
    Mr. Wofford. I was supporting what seemed like a very good 
bill.
    Mr. Lewis. Seemed very logical to me, too. I might have 
supported that way as well, but I am not sure I would have put 
it in writing. [Laughter.]
    Moving on just a bit. Last year, Senator, you said your top 
priority, shared fully by the Corporation's board of directors, 
was getting your financial house in order. You have repeated 
that today.
    In this year's statement you indicated that it is your 
number one priority. What caused you to fall short of your 
goals for improving the Corporation's financial management 
system?

                              auditability

    Mr. Wofford. It was not our determination, or our priority, 
or our commitment to achieving that goal. It was our 
understanding of what the depth of the problems were, both 
historically and currently. The Trust is an example of a 
challenge that our chief financial officer confronted when she 
came. Based on everything she and I were able to understand and 
were informed about--and she came from three clean audits at 
the RTC--we had reason to believe that a separate audit of the 
Trust would find that it was in very good shape; that we had 
remedied the things that needed to be remedied.
    Therefore, we asked for a separate audit of the Trust, 
which we did not have to do. And we found that it was not in 
good enough shape. That though the results were a conservative 
estimate that did not increase our risk we have to have an 
opinion that we have accurately and fairly assessed our 
problems. There are now 92,000 enrollments in the Trust and 
going up by another 20,000 this year. This is an extraordinary 
amount of paperwork. When the auditors looked for some of the 
paperwork they couldn't find it. But it is somewhere, misfiled. 
It was not well cared for, and the antiquated system of 
reporting was inadequate.
    The digital imaging system which will image the actual 
documents for enrollment and the record of the AmeriCorps 
member's service is going to be a major breakthrough for us. We 
underestimated what a problem managing this paper would be.
    Knowing that we had still a substantial way to go, that our 
auditors for the 1997 balance sheet were coming in a month or 
so to begin their work the chief operating officer and I went 
over to Ed DeSeve, the Deputy Director for management at OMB to 
say we would like their top talent to review the actions we 
have taken; to help us see where we still have to go, and to 
join with us to see that we will see this through and complete 
it. He assigned Norwood Jackson, Woody Jackson, who is 
considered their top man in dealing with problems like this. He 
has dealt with many agencies that have not got audits either. 
He has been intensely working with us. He is going to see this 
through. He has said to members of your staffs that----
    Mr. Lewis. Yes, we are going to be having some 
communication, that is right.
    Mr. Wofford. As late as 8:30 last night he was saying, we 
are going to be in this together until we succeed, and we are 
going to succeed. It is unacceptable that we do not solve these 
problems. And he has given me renewed confidence that the light 
at the end of the tunnel is there and that we are moving 
through to it.
    Mr. Lewis. Last year you indicated that you expected to 
have 97 of the 99 items completed and addressed by the time the 
Inspector General conducted her review in the spring and early 
summer of 1997. When do you now estimate that the remaining 21 
material weaknesses or reportable conditions of the 99 items 
cited in the Corporation's 1996 auditability study will be 
completed and address?
    Mr. Wofford. The draft action plan soon to be reviewed by 
the Inspector General and other OMB people, will specify 
exactly what we see as our timetable for each of them. The 
draft includes each of the remaining items, a number of which 
we have already, we believe, successfully resolved. That action 
plan, which you will have by March 18th, will specify timetable 
for each of those items.
    Mr. Lewis. I am going to be looking to the record for that 
material and your submitting the record will assist us. You 
have already addressed the new financial management plan which 
you say will be completed by March 18th; is that right, or was 
it March 31st? Last year you indicated that you expected to 
have a new financial management system operating during the 
fiscal year.
    Mr. Wofford. We have identified the suppliers of the 
financial management system. There is one major Federal agency 
that seems to be the prime source and we are in the process of 
choosing which of the systems that they offer can be put in 
place. We are moving full speed ahead on that. It will be on 
line and in place and 2000 year compatible in fiscal year 1999.
    We got your help, but we asked for reprogramming money to 
cover both that and the digital system, and it took quite a few 
months before we got the ability to reprogram. We are in the 
process of employing the leader of that project to manage it 
and select the system.
    Mr. Lewis. We are attempting to get a handle on when all 
this will pull together in a way that is acceptable. Will your 
1998 financial statements be auditable?
    Mr. Wofford. I began my testimony saying that that is our 
determination. It is a determination backed by Mr. Jackson and 
OMB. I have already worked harder on this than I ever worked as 
a senator. I think even harder work is ahead but we are 
determined to reach that objective.
    Mr. Lewis. You and I who are solving the world's problems 
just hate to get involved in those details. [Laughter.]
    Mr. Wofford. I have been doing it since October 1995 when 
the auditability studies started to come in with the 99 
findings and recommendations. The first week I arrived they 
were just beginning to do their studies, and over the next 
months while the Government closed for a while, I was getting 
the news from the auditability study and we were getting to 
work on it.
    Mr. Lewis. When I found out around here that some people 
can expect me to pay attention to details, I married the person 
who handled them well.
    Mr. Wofford. I did too and I have lost her. My fate has 
been, and it is a proud fate, to try to deal with this while 
seeing that the growth of national service is successful and 
high quality.
    Mr. Lewis. I know that you have your chief financial 
officer with you.
    Mr. Wofford. Donna Cunninghame.
    Mr. Lewis. Would you like to add anything to this 
discussion, Ms. Cunninghame?
    Ms. Cunninghame. I think Harris has portrayed it very well, 
except for the fact that I can assure you we have worked very 
hard. We have made a lot of progress in a lot of areas. We have 
been surprised time and time again by things that you normally 
would assume had been done that we found out had not been done. 
We have spent a great deal of time playing catch-up.
    It will be a very welcome relief when we are caught up and 
we can move forward and strengthen our system and strengthen 
our procedures on looking forward and being proactive instead 
of being reactive. The last year we have been very reactive, 
but we have made progress. Not necessarily just related to the 
99 auditability issues but in other areas that we have 
uncovered that were not specified in the auditability survey.
    Mr. Lewis. Your inspector general is Ms. Luise Jordan, 
right? Would you like to add anything? Ms. Jordan, do you 
believe the Corporation's current plans to improve the 
financial management system including the timeframes involved 
are realistic?
    Ms. Jordan. I have not seen those plans yet. I have not 
been a party to any of those discussions. So it is very 
difficult to assess from this point of view. From the 
standpoint that my office, should be proactive and help the 
Corporation and work toward them, I am more than willing to 
work toward the goal that the Corporation will be fully 
auditable in 1998. But I have not seen the plans.
    What I would like to address, on the other hand, is your 
statement earlier about the inspector general being involved in 
assessing the effectiveness of the Corporation's programs and 
operations. That is exactly where we are hoping to go under our 
five-year performance plan. And if there are any insights from 
your committee or any other Congressional member or staff 
member that will help us direct our efforts to projects you are 
interested in, you are singing my song and I would very much 
like to have your insights. I have submitted my five-year 
strategic plan and hopefully we will get some comment back on 
that.
    But as to the auditability, to go back to that subject, we 
have begun the assessment of the remaining 21 items plus those 
items remaining from the Trust Fund audit. We expect at this 
time to be able to give Congress a report on follow-up on those 
items and the effectiveness of the corrections in June or July 
of this fiscal year. At this point I am not sure that all of 
the balances on the end of fiscal 1997 are auditable and that 
will impact the auditability of 1998.
    The Corporation's plan, as it has been described to me--
again, I have not seen it--deals with correcting some of those 
balances. It is a laudable effort. I will help them in any way 
that I can. But as an auditor, I have to hold my opinion until 
the end of our effort, which will be at the end of the audit of 
fiscal 1998.
    Mr. Lewis. I appreciate that.
    Mr. Wofford. Mr. Chairman, she will very promptly get a 
draft plan. The reason we have March 18th as the date is, as I 
said, for both OMB carefully to review its practicality and 
realism, and secondly, to work with the Inspector General who 
has been very helpful to us in analyzing the problems and 
urging us along the way.
    Mr. Lewis. Let me mention this for all who would but 
listen. I really did not focus on Inspectors General at all 
before I suddenly and surprisingly had this responsibility. 
Since then I have found just many a very, very capable leader 
in a variety of our agencies seeming constantly looking over 
their shoulder at a thing called Inspectors General.
    And I have found those people to be extremely valuable 
tools, not just in terms of the accounting procedures, but one 
of the crazy things about them is that sometimes they seem to 
be idealists, too. But they come from a different perspective 
than maybe the person who is in charge of housing, let us say, 
or subsidized rental programs, et cetera. And they look at 
success and measuring and so on in different ways that can be 
extremely helpful to us. Because of that I have begun to look 
with interest at it.
    Mr. Wofford. I agree with that. The Inspectors GeneralAct 
invites them to be of constructive use throughout. The Inspector 
General has been very helpful, and we hope for even more for the 
future.
    Mr. Lewis. I have been going on here for a while. Are you 
ready?
    Mr. Walsh. That is all right though, you are the Chairman.
    Mr. Lewis. Mr. Walsh.
    Mr. Walsh. I would just like to make a point that----
    Mr. Lewis. I am going to let you talk for a while while I 
vote.
    Mr. Walsh. I am not going to talk that long; just take five 
minutes.
    Mr. Lewis. There is only nine minutes left on the vote.
    Mr. Walsh. The point is, I do not want to sound overly 
critical. I am not overly critical. I am a supporter of what 
AmeriCorps does, what it stands for. I think it is important. I 
have always felt that it is important that we provide young 
people an option to use that idealism that we are all born with 
and put it to work. My concern on America Reads is the 
effectiveness of the program, not the motivation or the intent 
of the volunteers.
    I want to make sure that a volunteer comes out with the 
same measure of idealism that they went in with, because you 
can go sour in a spot. You go and you want to change the world, 
and you get there and you realize there is no structure, there 
is no job, or there is no direction. The frustration in trying 
to change the world is one thing, but frustration with the 
organization that is in place is another.
    So as far as what your goal is, I support it. And this idea 
that this reauthorization bill, National Community Service Act 
Amendment Act of 1998, I think is a good step in the right 
direction. I agree with Chris Shays and the others who co-
sponsored the authorization bill.
    I guess the Chairman has gone to vote. I really did not 
have any other questions, but you can feel free to comment and 
fill up time before he comes back. I just wanted to make that 
point.

                   americorps and children's literacy

    Mr. Wofford. Congressman, I greatly appreciate your past, 
your present, your future support and your interest. My 
response was not sensing that you were critical. You are 
critical in the right way, and we need to be on the America 
Reads program. There is no legislated America Reads program 
yet. We do not need authorization for AmeriCorps to do better 
or do more of what has been one of the main features of 
AmeriCorps from the beginning, which is children's literacy 
work.
    For the moment there is not a program that is organized. 
There is a House bill and there are some pending proposals in 
the Senate. But meanwhile, already two-thirds of AmeriCorps is 
involved in working with children and youth, and thousands of 
them are involved in children's literacy.
    I agree with you, that the quality of these programs has to 
be good. That is what Mr. Bentley and the Department of 
Evaluation and Effective Practices is trying to do, to see 
which of the programs work and which do not, and to weed out 
those that do not work. But remember the first weeding out is 
done by these State commissions. There is a competitive review.
    Take Syracuse and instead of thinking of some national 
program ask: Are there ways in which VISTA or our senior RSVP 
program, or the other parts of AmeriCorps, can help the 
literacy efforts? If you can think of ways they would help them 
or if those organizations that you respect can think of whether 
they need a VISTA or they need a team of AmeriCorps people, 
that is what we respond to, and what the State commission in 
New York responds to. Then it is a competitive selection. And I 
would count on you to tell us if a project was not of good 
quality.
    Mr. Walsh. We have had some good experiences and some not 
so good experiences. A lot has to do with management, 
organization.
    Mr. Wofford. Absolutely.
    Mr. Walsh. There is certainly no question, at least in 99.9 
percent of the cases, in the motivation of the young people. 
They want to do something positive, and this organization gives 
them that opportunity.
    Mr. Wofford. Did you look, Mr. Walsh, at the educational 
attainment by AmeriCorps members? It is attached to my written 
testimony. If you will notice, 19 percent of AmeriCorps State 
and national members have graduate degrees, many of them in 
education; 25 percent have bachelor's degrees, and some have 
had some graduate school work. We have another 25 percent that 
have had some college or may have a two-year degree; 9 percent 
are dropouts.
    So our programs range from Youthbuild which consists 
largely of high school dropouts--an intense program in which 
they do something for the community, build low income housing 
and learn a skill and get a GED--to people with Ph.D.s, 
lawyers, teachers. So it is an extraordinary spread.
    And the only thing that is going to make this work is if 
those State commissions that are appointed by governors and our 
State offices effectively work together to give the best on-
the-scene determination of the competitive process in the 
selection of programs. We also have an effective evaluation 
going on so that the best practices are spread.
    Mr. Walsh. That is important. I am going to run up and 
vote. So I would ask you to hold and be in recess until the 
Chairman comes back, and I am sure you will be on your way 
quickly.
    Mr. Wofford. Look forward to seeing and talking to you more 
on the reading initiative.
    Mr. Walsh. Fine, I would like to.
    [Recess.]
    Mr. Lewis. Senator, we have a number of questions that are 
specific and detailed questions that we will be submitting for 
the record. We would appreciate your responding. I hope that 
you understand that the conflicts with members, other members 
and their subcommittees and so on, creates ebb and flow, et 
cetera.
    I have one other additional area of questioning that is 
somewhat limited, but then from there we will ask you to submit 
the balance for the record. Last year there was a discussion of 
1996 independent evaluation of the AmeriCorps program by 
Aguirre International. I understand there has been an update of 
that evaluation. What were the most significant findings in 
that evaluation?

                       evaluations of americorps

    Mr. Wofford. I think I know, but if you would not mind if 
Mr. Bentley, who is up to date----
    Mr. Bentley. Mr. Chairman, are you speaking of the Aguirre 
study?
    Mr. Lewis. The Geary study.
    Mr. Bentley. The Aguirre report looked at the AmeriCorps--
--
    Mr. Lewis. Is this Mr. Bentley?
    Mr. Wofford. Mr. Bill Bentley, the head of the Department 
of Evaluation and Effective Practices.
    Mr. Bentley. They have not finished their most recent 
report of the AmeriCorps program, but they do an annual report 
on the progress and we do have some preliminary data that is 
being gathered.
    Mr. Lewis. Do you want to give us just off the top your 
evaluation of their last updating.
    Mr. Bentley. The last update essentially says that we are, 
to use their terms, ``we are getting things done''. I think we 
feel pretty positive about the results that we are seeing so 
far.
    Mr. Lewis. Could you give me an idea from your perspective 
what are the most significant findings of their evaluation to 
date?
    Mr. Bentley. Not at this moment, because I have not read 
the details of their final report.
    Mr. Wofford. I think the list on page 9 of my written 
statement, I believe that comes primarily from the last Aguirre 
report. They also have an estimate of how the investment is a 
very good payoff per Federal dollar. I do not want to give it 
out of my head but I believe it is in the written testimony.
    Mr. Lewis. I will look at this more closely, and let us 
have some communication about that as well, if you will.
    Mr. Wofford. We will.
    Mr. Lewis. Have there been other independent evaluations of 
AmeriCorps program in the past year? If so, what were the 
significant findings? Do you know if there are other such----
    Mr. Bentley. We have a number of reports going on right now 
but they are not complete.
    Mr. Lewis. If you would, as you gather that material if you 
would provide that for the record. We are interested as well.
    [A list of completed Program Evaluations and the current 
plan follow:]


[Pages 552 - 561--The official Committee record contains additional material here.]



    Mr. Lewis. Senator Wofford, your statement indicates that 
the Corporation's reauthorization proposal will be transmitted 
pretty soon?
    Mr. Wofford. Yes.
    Mr. Lewis. You were working on that proposal last year. Why 
has it taken so long to prepare your reauthorization proposal?
    Mr. Wofford. You and Congress and the President and we have 
had quite a busy agenda, and we are pressing to get it up here 
as soon as possible.
    Mr. Lewis. That is an interesting response. [Laughter.]
    Would you like to respond further?
    Mr. Wofford. We want it to be right.
    Mr. Lewis. Did you hear my question, Mr. Stokes?
    Mr. Stokes. I did not.
    Mr. Lewis. I said, why has it taken so long to prepare your 
reauthorization proposal, and his response was, you and we and 
everybody has been very busy so it has taken a while. I asked 
him if he wanted to elaborate further----

                   reauthorization of the corporation

    Mr. Wofford. Let me elaborate a little more. Mr. Chairman, 
we have had a draft the main points of which have been 
distributed and discussed in far-ranging consultations with our 
State commissions and the whole network of State commissions, 
with our State offices, with our grantees, with the 
Administration, with members of Congress.
    We have been satisfied with the draft for some months. The 
timing of when Congress would be best ready to act and the 
Administration to move has been a matter not totally within my 
control. I think within the next two weeks you will have the 
draft. We have felt good about it for some months.
    I also want to stress that we really want your 
collaboration on any ways you think we can improve the act. We 
are very open. It is a start of the process. It is not a take-
it-or-leave-it proposal.
    Mr. Lewis. Let me ask a couple more questions then for the 
record, get to the edges of this, I would ask you to respond to 
the balance of my questions for the formal record.
    In 1998, the Corporation requested $29 million for program 
administration. The amount was estimated to support 103 FTE. 
The Congress provided $2 million less than requested, yet this 
year's estimated FTE level for 1998 increases by 14 to 117. How 
do you account for a reduction in funding then being able to 
support a higher than requested FTE level for 1998?

                               personnel

    Mr. Wofford. Mr. Chairman, sometimes I can say yes, 
sometimes I can say no, and sometimes I have to say I do not 
understand. I am not sure which FTE you are----
    Mr. Lewis. You asked for $29 million for program 
administration.
    Mr. Wofford. I well know that we fell short by $2 million. 
However, 40 percent of that goes to State commissions.
    Mr. Lewis. Let me be specific. The amount was estimated to 
be 103 FTE for administration. We gave you $2 million less, and 
yet this year's FTE level for administration for 1998 increases 
by 14 to 117.
    Mr. Wofford. I did not follow you well.
    Mr. Lewis. I did not exactly write this question and it was 
kind of difficult for me to figure out, too, so I understand.
    Mr. Wofford. I think my colleague, the Chief Operating 
Officer, may want to comment on it. But the administrative 
funds relate to some vital matters beyond the FTE level.
    Mr. Lewis. So since they amount to things beyond the FTE 
level and we are increasing the FTE with less money, maybe he 
should respond.
    Mr. Caldera. Thank you, Mr. Chairman. Louis Caldera, Chief 
Operating Officer. The administrative funds also cover travel, 
other expenses, and they also cover contract employees.
    Mr. Lewis. I will be interested in that for the record too, 
as we look at those transfers.
    Senator, in your statement you mentioned the need for 
flexibility to transfer funds between activities; not far from 
Mr. Caldera's response. The way the appropriations has been 
structured for a number of years, it would take an act of 
Congress to permit the transfer of funds between activities. 
What is the real concern here, the ability to transfer 
additional funds to program administration?
    Mr. Wofford. Do you want Louis Caldera to continue on that 
one?
    Mr. Caldera. Again, the way the bill is written, it is a 
series of caps which total the total appropriations. So rather 
than being capped, it is sort of a direction to spend this much 
on this particular program. In part there is a lack of 
programmatic flexibility so, for example, if we thought that it 
would be better to spend $21 million on NCCC, $3 million more 
on NCCC and $3 million less on grants, with both of those going 
to covering AmeriCorps members, we would not have that 
discretion programmatically. That is just one of the issues.
    The other issue related to program administration is that 
we think that based on the plan there are some one-time costs 
related to putting some of these auditability issues behind us. 
For example, clearing up historical documentation problems 
related to the trust. And we can quantify the costs of that 
one-time plan, and we would like to be able to come back to the 
committee and say, our timeline for resolving these problems is 
this, but we can do it faster if we can devote more resources 
to it.
    Clearly, we need to show that we are putting our current 
resources to the best use. Beyond that, those kinds of 
instances are where additional resources will make the 
difference.
    Mr. Lewis. I know that Senator Wofford will understand this 
very well. I am not sure that you all will, but let me try. 
There are some of us on the Appropriations Committee, including 
me, who think that the Budget Committee ought to be eliminated. 
They have the audacity to suggest that within our 602(b) 
allocation that indeed there only will be a lid of $254 billion 
for defense, that that lid ought to apply even if some people 
want to take away from my committee, from housing programs and 
put it in defense. They actually think that there ought to be 
those kinds of limitations on our flexibility to move between 
accounts. I think maybe my point is clear.
    I still have serious questions about the Budget Committee, 
and I think the Appropriations Committee administers its funds 
very well. But the point is nonetheless before us.
    Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman. I have a couple of 
questions here. I hope during my absence these questions were 
not redundant.
    Senator Wofford, the Points of Light Foundation is slated 
to receive $6 million in the 1999 budget submission, an 
increase of about $500,000 above the amounts made available in 
1997 and 1998. During the past five to six years the foundation 
has received a not insignificant amount of funding from the 
Corporation. First of all, is all of the Corporation's funding 
for the foundation provided solely for grants, or is any of it 
used for administrative purposes?

                       points of light foundation

    Mr. Wofford. Mr. Stokes, the Points of Light part of this 
bill has been in it from the beginning as an amount specified 
by Congress. It is matched by more than that amount by private 
contributions to the Points of Light Foundation. It has been a 
major partner in national service. The 1995 joint committee 
actually urged the Corporation on to a major partnership with 
the Points of Light Foundation.
    We make a grant to the whole of the Points of Light 
Foundation for its operations, specified by Congress in amount. 
We asked for an increase this year of $500,000 because of two 
things. One, the Volunteer Center networks of the Points of 
Light Foundation in almost every major community in the United 
States have pledged to play a major role in children's 
literacy. They have this network. It is growing in strength and 
in quality. We are giving priority to AmeriCorps assignments 
and VISTA assignments to help Volunteer Centers that are in 
children literacy.
    A major reason for the increased $500,000 is for the 
children's literacy effort in the Points of Light Foundation. 
And the other is that they were the chief partner with the 
Corporation in helping the Presidents, including President 
Clinton and President Bush who launched it, and General Powell, 
to carry out the summit at Philadelphia and the post-summit 
follow-up which is in scores and soon in hundreds of cities and 
States.
    Our network and the Points of Light Network are key 
colleagues of General Powell's America's Promise campaign, 
which has as one of its goals, effective education for every 
young person. That is goal four. So we think they can make a 
really significant contribution and that this would be a very 
good investment.
    Mr. Stokes. Now does anyone perform any assessment or 
review of the foundation's activities?
    Mr. Wofford. We work very closely with them. We have not 
had an evaluation study done of the work of the foundation. 
They have their own studies. I attend their board meetings and 
they have a very effective board that is very serious about 
their own evaluation of their programs.
    We have been a part of the evaluation of their Volunteer 
Action Centers. They did a major study of how those centers 
could be more effective, and they have had a lot of follow-up 
to that and there is a lot of progress being made by the 
volunteer centers.
    Mr. Stokes. We noticed in your justification materials that 
were submitted with your budget that after the President's 
summit on volunteerism last summer, for which the Corporation 
and the Foundation met, as you have indicated here during the 
summit, to support post-summit initiatives underway across the 
country and to direct both organizations, undertake joint 
programs that bring together national service and community 
volunteers to help solve serious problems.
    Can you give us some idea, some examples of actions 
undertaken by the Corporation and/or the foundation in this 
vein after the summit?
    Mr. Wofford. In addition to this proposed increased 
investment in the Points of Light Foundation, we have made 
available up to $20,000 to every one of our State commissions 
for expenses related to summit follow-ups. We have been adding 
and adding and adding challenges to the State commissions and 
they need some additional resources. So we have put up to $1 
million into that effort.
    The board of the Corporation for National Service, before 
there was any summit, resolved that children and youth and 
their problems should be the primary emphasis of the AmeriCorps 
programs. The summit took five goals as five fundamentals. We 
are resolved to achieve for every child that has been left 
behind, a mentor, a tutor, a coach, after-school programs; 
second, safe places for non-school hours; Healthy Start and 
access to health care; fourth, effective education, literacy 
and marketable skills; andfifth, asking young people 
themselves, to serve not just be served.
    We have been asked to be the lead agent for General Powell 
in the achieving of goal five of asking all young people to 
serve. I would like to submit for the record the progress 
report of the many, many things we have done since the summit 
to make that a reality.
    One of them is in the District of Columbia, where they 
require service by students as a condition for graduation. We 
now have a VISTA in every high school in the District of 
Columbia----

                     americorps in washington, d.c.

    Mr. Lewis. Excuse me, just a second. You say that 
Washington, D.C. now has a requirement for service before 
anybody graduates from high school?
    Mr. Wofford. Yes.
    Mr. Lewis. Do they require anything else? [Laughter.]
    I am not being overly critical of the shining city of the 
Hill, but I live here and it concerns me a lot.
    Mr. Wofford. We have two initiatives in the school system. 
One is in elementary schools where we have a person helping to 
organize the literacy work in 16 elementary schools. We have 
intense involvement in one such school as a Corporation. We 
volunteer there. We are at Garrison, and I would like to submit 
a report on our District of Columbia work.
    [The information follows:]


[Pages 566 - 575--The official Committee record contains additional material here.]



    Mr. Wofford. We have a major research study by Brandeis 
University, an institute there did it, showing that the effect 
of service by young people--service learning--is to increase 
their academic motivation, lower their dropout rate, and 
increase their curiosity and stimulation about courses.
    Mr. Lewis. I was actually talking about D.C.
    Mr. Wofford. I am talking about D.C., too. The NCCC came in 
at a critical point to help with repairs and renovation of D.C. 
schools and the campus. The decision to open a fifth campus was 
also related to the contribution that we were able to make to 
the physical school problems. We want to make an effective 
contribution to the problems that you are referring to.
    Mr. Stokes. I think at the point, where the chairman 
intervened you were about to mention VISTA.
    Mr. Wofford. Right here in the District of Columbia, VISIA 
is enabling organizations that are skilled in service learning 
to recruit and select VISTAs to be service learning 
coordinators. We believe the effect of these 16 service 
learning coordinators in the District schools, as in other 
places where they work, is to make that program much more 
successful. Without somebody skilled in service learning it 
becomes an hour count.
    There is a whole way of doing service learning. We have had 
experience in many, many parts of this country, and we want to 
make that experience available to school districts that make 
this a requirement.
    Maryland is the one State that requires all students to do 
some student service. Service learning is a condition for 
graduation. Their legislature approved this. We have many 
programs helping them see that this is done well, and we moved 
a lot of lessons from Maryland moving so fast on such a big 
scale.
    Chicago is now in the process of developing their plan for 
it and we are working actively with the school system there to 
give them our experience. We brought their key planners to 
Maryland to see what their experience was. AmeriCorps members 
will be working with schools that either make it a commitment 
in their curriculum or have a requirement in terms of hours.
    Mr. Stokes. Thank you very much, Senator Wofford.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Stokes.
    Mr. Price, you may have wandered in from the Budget 
Committee hearing as I was making those wry remarks.
    Mr. Price. I caught that, Mr. Chairman. That Budget 
Committee to which you referred is where I have been. Alan 
Greenspan was our witness this morning. We had a long morning 
of testimony.
    Senator, welcome to you.
    Mr. Wofford. Good to see you, Mr. Price.
    Mr. Price. I apologize for my late arrival. I am glad I can 
squeeze in a couple of quick questions here before we adjourn. 
I do think that the work you are doing is most worthwhile. We 
talk a lot about the touchstone values of opportunity and 
responsibility and community, and has always seemed to me that 
national service, more than most things that we fund around 
here, embodies all three values including the responsibility 
element, encouraging young people to give something back to the 
community.
    In North Carolina a couple years ago, I learned that we led 
the Nation in per capita participation in AmeriCorps. I do not 
know if that is still true or not. I hope it is.
    Mr. Wofford. If you want to know, I will find it out. You 
may want to continue to be able to say that. And I hope it is 
true. I just came back from the North Carolina summit that 
Governor Hunt convened, so I hope it is true.
    Mr. Price. I will accept a reality check on that. But I 
know we are near the top and at last check we did have 530 
volunteers working in our State. Nationwide, the figures are 
impressive. Learn and Serve America, 28,000 participants; the 
number of National Senior Service CorpsVolunteers now nearly 
10,000. So these are impressive numbers.
    I have a quote from Rachel Stevens, a Learn and Serve high 
school student in Durham who summed up her experience with 
AmeriCorps when she said, ``I like being a role model. I like 
being there to help so they can look back and say there was 
someone who made a big impact on their lives.'' That is very 
encouraging to hear from young people.
    I understand you have not had an extensive discussion this 
morning of the Learn and Serve program, and I just wonder if 
you briefly could give a thumbnail sketch of how that program 
works and then maybe a little more for the record, an update on 
how that program in particular is coming.
    [The information follows:]


[Pages 578 - 580--The official Committee record contains additional material here.]



                        learn and serve america

    Mr. Wofford. I would like to very much. In reviewing my own 
testimony I realized I wanted to say a lot more about Learn and 
Serve than we did in the written testimony, so I welcome to say 
some of it.
    Mr. Price. Why do you not speak briefly to the character of 
the program and then submit something longer for the record?
    Mr. Wofford. Learn and Serve was a special interest of 
Senator Kassebaum and Senator Kennedy before there was an idea 
of AmeriCorps. Service learning has been developing and 
percolating up. North Carolina, as I said, has many examples of 
it. And there is a state of the art on how you both integrate 
service into the curriculum and you do effective non-curricular 
service.
    Learn and Serve operates through grants to State education 
agencies who commit themselves to advancing service learning in 
the schools. There is a formula grant that goes to the State 
education departments. They then, usually by a competitive 
system, give relatively small amounts to local schools that are 
trying to do service learning in the curriculum.
    Those State education agency service learning State 
representatives have a network. We have brought them together. 
Bill Bentley's evaluation and effective practices unit and our 
outside evaluators are helping to show the projects that most 
successfully work.
    The second way Learn and Serve works is through the 
community-based organizations that use students in service. We 
have worked with Big Brothers, Big Sisters where service 
learning funds assisted them to get high school, and in some 
cases, college students, to become Big Brothers and Big 
Sisters. Organizing that, and adding service learning to the 
component, is important.
    One of the big fields of promise is the way in which older 
young people can tutor other young people. A service learning 
grant enabled the literacy corps started by a Philadelphia 
principal to spread from a few schools, to 22 Philadelphia high 
schools, to seven States. Teachers are taught--11th and 12th 
grade English teachers--are taught how to train their students 
to do afternoon tutoring of second-graders three afternoons a 
week. It is an extraordinary success story and costs very 
little money.
    The Alliance for Catholic Education that I was referring 
to--we will get you the report on that for the committee.
    [The information follows:]


[Pages 582 - 593--The official Committee record contains additional material here.]



    Mr. Wofford. Notre Dame president Monk Malloy just sent me 
their report on it. It began with this idea of recruiting 
outstanding college graduates to teach in the most difficult 
parochial schools in the south. It began with a service 
learning grant that helped them do the teacher training the 
first summer.
    They now have a program that has been endowed, has major 
support from their donors, that does not require many funds 
from us. We give the education award and they have 150 teachers 
teaching in schools in the south. All of our AmeriCorps 
teachers are asked to be agents of service learning in those 
schools. That was the third category, namely, higher education 
grants which we make directly from our office here.
    Mr. Price. I am aware that AmeriCorps members are involved 
in a wide range of projects, helping with some of the 
homebuilding and Habitat for Humanity, repairing environmental 
damage in our State after Hurricane Fran; a lot of AmeriCorps 
people involved in that providing tutorial services. We had at 
UNC-Chapel Hill one of the pioneer tutoring programs which then 
became part of AmeriCorps.
    So we feel like it has been of great benefit. I know there 
have been some concerns about the costs involved, and that 
would be my final question. I understand you spoke to that 
briefly earlier. But some of those costs were pretty high for 
the training and support of AmeriCorps members in the first few 
years. I am sure there were startup costs that might have 
skewed those numbers.
    Now the program has been up and running for three years. 
Have those costs in fact been reduced, those per capita costs? 
What have you done to bring them down? And to what extent have 
you been able to augment your Federal funding with funding from 
non-Federal sources, and non-governmental sources?
    Mr. Wofford. We have made very great progress and a major 
breakthrough this year on the cost front. One of the things 
that was skewed was the reporting of our costs. If I may just 
say so, so you know what our baseline was. There have been 
talks of it being $27,000 per member and some have even taken 
projects where they think the figures show more than that per 
member.
    Those are not the Corporation's costs per member. There 
were a few projects where the cost per member was over $20,000. 
But the estimate by the Corporation of the average cost in the 
first two years was something over $18,000 per member including 
the $5,000--$4,725 education award. Then for the normal 
AmeriCorps grant, about $8,000 living allowance. So it was a 
very lean program.
    The GAO in its study from which people drew the $27,000 
figure, because they included the contributions you are asking 
about. They included private contributions to a program such as 
the Notre Dame program I described. Now they have had several 
million dollars contributed to help pay for this program and 
endow it.
    The answer GAO gave that led to the $27,000 figure was what 
total resources are used in a particular project. The GAO 
estimated that our average was under $18,000. We have taken the 
$18,000 as the baseline and we agreed to bring our average 
costs down to $15,000 per member. We are going to do that by 
next fiscal year, and we are on track. We are down at 
approximately $16,000 per member for the year coming now.
    Mr. Price. And both cases you are talking about the Federal 
costs?
    Mr. Wofford. I am talking about the Corporation's costs, 
which includes $4,725 for the educational GI bill voucher.
    Mr. Price. It includes the education amount?
    Mr. Wofford. And it includes whatever living allowance they 
get.
    Now the great breakthrough is this education-only award 
program. Senator Grassley wrote the President a letter saying 
he had heard about this and it sounded like a very promising 
effort. He said he would like to see more of it. I was 
enthusiastically behind that. Part of our agreement with 
Senator Grassley on cost-cutting is that we would try to expand 
the model of education-only awards where all we put in, would 
be the $4,725 plus maybe $500 for system administrative costs. 
All the other costs would be borne by the local program.
    The President at the summit in Philadelphia challenged 
faith-based organizations and non-profits to respond and to 
take the lead. We are the very minor partner in that. By 
definition that program means that most of the costs of the 
program, aside from that educational GI bill, are raised by the 
local agency.
    We have now 14,000 AmeriCorps people getting only an 
education award. It is the main source for our expansion last 
year. I think it has enormous promise. Some 6,000 slots have 
been assigned to religious organizations that rose to the 
President's challenge, led by the National Council of Churches 
but including the Catholic Volunteer Network. You might be 
interested and I am submitting for the record the different 
AmeriCorps spots by denominations. The Methodists and the 
Catholics, each have more than 1,000 AmeriCorps positions.
    [The information follows:]


[Page 596--The official Committee record contains additional material here.]



    Mr. Wofford. The second largest of this education-only 
award is the Boys and Girls Clubs. They have 900 in this 
position. I see a great future for this education-only award 
and that, again by definition, brings our corporation costs 
drastically down.
    Mr. Price. I know in our State from the very beginning your 
strategy has been to partner with existing organizations which 
did draw on all kinds of sources of support, from Habitat to 
the literacy program on the university campuses, to public 
allies, to a number of other partners who AmeriCorps then 
enabled to extend their work. That does seem to be a sound way 
of operating both fiscally and otherwise.
    Mr. Wofford. Except for the National Civilian Community 
Corps, we did not run the programs. We, in all cases other than 
NCCC, are providing AmeriCorps slots for local non-profit 
educational or other programs.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Price.
    Senator Wofford, I had submitted within my questions for 
the record an item that related to some of the cost questions 
that Mr. Price was pursuing. There is nothing wrong with the 
education-only grants and I can understand the impact they have 
on relative costs and so on. But I would appreciate your 
focusing upon that, taking in mind Mr. Price's questions, 
elaborate on it for the record for me, and we will communicate, 
as it were.
    Mr. Wofford. We will.
    Mr. Lewis. Mr. Stokes, one of our colleague who has made a 
similar decision to the one that you have made; that is, he is 
not going to run for reelection, says that he just cannot help 
but be impressed by the numbers of groups at home who suddenly 
are aware of the great work he has been doing over the years. 
[Laughter.]
    It seems they want to have meetings and gatherings and 
otherwise to tell him about the fact that they had always 
recognized how great he was.
    I am sure there are many, but should there be such an 
organization that is exercising itself about the time that you 
have a groundbreaking relative to the House of Congress bill, 
should it fit in with our mutual schedules, we might get some 
AmeriCorps volunteers to even be there. Just keep that in mind.
    Mr. Stokes. Sounds like something that I should think 
about.
    Mr. Lewis. Thank you very much, Senator Wofford, and all of 
your colleagues who are with you. We appreciate both your 
responsiveness, the difficulty of your work, kind of the glass 
bowl, it is a special bowl that you have been put in by members 
of Congress, individually and sometimes collectively. But in 
the meantime, as my mother genuflects, you are about the Lord's 
work, so sometimes these things can be a lot of fun while they 
are difficult.
    Mr. Wofford. Indeed.
    Mr. Lewis. Thank you very much.
    Mr. Wofford. Thank you very much.
    Mr. Lewis. The meeting is adjourned.



[Pages 598 - 709--The official Committee record contains additional material here.]
















                           W I T N E S S E S

                              ----------                              
                                                                   Page
Abbott, Ernest...................................................     1
Armstrong, Michael...............................................     1
Brown, Carrye....................................................     1
Burkett, Michelle................................................     1
Goss, Kay........................................................     1
Howard, Joann....................................................     1
Johnson, Gary....................................................     1
Witt, J. L.......................................................     1
Wofford, Harris..................................................   473










                               I N D E X

                              ----------                              

                  Federal Emergency Management Agency

                                                                   Page
Accuracy of Flood Data...........................................    39
Agricultural Losses..............................................    41
Appeals on Hazard Mitigation Grant Project.......................    34
Beach Replenishment Programs.....................................    36
Building in Flood Prone Areas....................................    31
Center for EQ Engineering Research...............................    63
Chairman's Opening Remarks.......................................     1
Changes in Flood Control Act.....................................    61
Church Arson Prevention..........................................    50
Communities Eligible for Flood Insurance.........................    57
Comprehensive Pre-Disaster Mitigation Plan.......................    50
Conditions of Levies in Orange County............................    24
Congressional Support for Disaster Supplementals.................    22
Contingency Fund vs. Supplemental Appropriations.................    22
Counter Terrorism/Anti-Terrorism Funding.........................    64
Creation of REP Funds............................................    37
CSEPP............................................................    36
Deadline for Pre-Disaster Mitigation Plan........................    59
Declaration in New Jersey........................................    35
Difficult Job for FEMA Employees.................................    21
Difficulty in Meeting 50/50 Match................................    34
Digitized Flood Maps.............................................    59
Director's Opening Remarks.......................................     2
Disaster Costs for Private Insurance Companies...................    25
Disaster Costs to States and Local Communities...................    25
Emergency Food and Shelter.......................................    43
FEMA's Expenses for Disasters....................................    25
Flood Remapping Versus Development...............................    29
Housing Assistance for Disaster Victims..........................    32
Hurricane Standards..............................................    63
Impact on Public Utilities.......................................    53
Issues Preventing Disaster Close Outs............................    45
Mapping Techniques...............................................    40
Mitigation in Florida............................................    39
Need for Disaster Supplemental...................................    24
North Carolina Appeal............................................    60
Participation in Project Impact..................................    54
Pilot Programs in Pre-Disaster Mitigation........................    33
Policy on Unsolicited Contract Proposal..........................    29
Potential for Spring Floods in California........................    23
Preparedness for El Nino.........................................    23
Project Impact in Wilmington.....................................    61
Questions for the Record.........................................    67
Rebuilding After Flooding or Mud Slides..........................    30
Reducing Annual Flood Losses.....................................    50
Reduction in State and Local Assistance..........................    27
Reductions to State Emergency Management.........................    54
REP Fund.........................................................    55
Request for Disaster Emergency Contingency Funds.................    22
Safety of School Buildings.......................................    52
Seismic Technology...............................................    62
State and Local Funding..........................................    40
State Disaster Costs.............................................    26
Structures in Flood Plains.......................................    57
Time to Close Out Disasters......................................    43
Transportation Funds.............................................    40
U.S. Fire Administration 5-Year Objectives.......................    48
Urban Search and Rescue..........................................    47
Written Testimony................................................     5

                    Corporation for National Service

ACE Program......................................................   536
America Reads....................................................   542
AmeriCorps and Child Literacy....................................   522
AmeriCorps and Children's Literacy...............................   549
AmeriCorps and Disaster Relief...................................   531
AmeriCorps and Habitat...........................................   521
AmeriCorps and Literacy..........................................   532
AmeriCorps and Recruitment.......................................   540
AmeriCorps Helps Teachers........................................   535
AmeriCorps in Washington, DC.....................................   565
Auditability.....................................................   545
College Students and Local Literacy..............................   534
Corporation FY 1999 Priorities...................................   529
Corporation Staff Diversity......................................   528
Cost Containment.................................................   531
Evaluations of AmeriCorps........................................   550
Examples of Corporation for National Service America Reads 
  Activities.....................................................   497
Learn and Serve America..........................................   581
NAPA Study.......................................................   530
National Council of the Churches of Christ in the United States..   596
Oral Statement...................................................   474
Personnel........................................................   562
Points of Light Foundation.......................................   564
Program Effectiveness............................................   538
Questions for the Record.........................................   598
Reauthorization of Corporation...................................   562
State and Local Support for Literacy.............................   526
Student Tutors...................................................   536
Written Statement................................................   477

                             <all>
</pre></body></html>
